<html>
<title> - OVERSIGHT HEARING ON EMPOWERING STATE MANAGEMENT OF GREATER SAGE GROUSE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



          EMPOWERING STATE MANAGEMENT OF GREATER SAGE GROUSE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, May 19, 2015

                               __________

                            Serial No. 114-7

                               __________

       Printed for the use of the Committee on Natural Resources




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-772PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Vacancy
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Vacancy

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 ------                                























                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, May 19, 2015............................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................     8
        Prepared statement of....................................     9
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado..........................................    10
        Prepared statement of....................................    11

Statement of Witnesses:
    Arnett, Ed, Senior Scientist, Theodore Roosevelt Conservation 
      Partnership, Loveland, Colorado............................    21
        Prepared statement of....................................    22
        Questions submitted for the record.......................    26
    Clarke, Kathleen, Director, State of Utah Public Lands Policy 
      Coordinating Office, Salt Lake City, Utah; Former Director, 
      Bureau of Land Management, 2001-2006.......................    12
        Prepared statement of....................................    14
        Questions submitted for the record.......................    16
    Miller, Dustin, Administrator, State of Idaho Office of 
      Species Conservation, Boise, Idaho.........................    27
        Prepared statement of....................................    29
        Questions submitted for the record.......................    37
    Swartout, John, Senior Policy Advisor, Office of Governor 
      John Hickenlooper, State of Colorado, Denver, Colorado.....    37
        Prepared statement of....................................    39
        Questions submitted for the record.......................    41

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    74
    Tsongas, Hon. Niki, a Representative in Congress from the 
      State of Massachusetts, Prepared statement of..............    73
    Western Governors' Association, James D. Ogsbury, Executive 
      Director, Prepared statement of............................    69
                                     


 
OVERSIGHT HEARING ON EMPOWERING STATE MANAGEMENT OF GREATER SAGE GROUSE

                              ----------                              


                         Tuesday, May 19, 2015

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The committee met, pursuant to notice, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Lamborn, McClintock, 
Lummis, Benishek, Duncan, Labrador, LaMalfa, Denham, Cook, 
Westerman, Graves, Newhouse, Zinke, Hice, Radewagen, MacArthur, 
Mooney, Hardy; Grijalva, Costa, Dingell, Gallego, and Polis.
    Also present: Representative Tipton.
    The Chairman. The committee--the script says the committee 
has to come to order, but you are all so quiet out there, 
anyway. We will see what--we are now in order.
    The committee is meeting today to hear testimony on 
empowering state management of the greater sage grouse.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and the Ranking Minority 
Member, Vice Chair, and a designated Ranking Minority Member, 
which will allow us to hear from our witnesses sooner, and help 
keep Members to their schedules.
    Therefore, I ask unanimous consent that all Members' 
opening statements be made part of the hearing record, if they 
are submitted to the Committee clerk by 5:00 p.m. today.
    [No response.]
    The Chairman. Hearing no objections, that is so ordered.
    I also ask unanimous consent to allow Representative Tipton 
of Colorado to participate in today's hearings when he is able 
to be here, and to ask questions.
    [No response.]
    The Chairman. Hearing no objection, that will be so 
ordered, as well.
    All right. Let me begin with some opening statements, if we 
could. So, fortunately, I am going to start with mine. You 
know, whether you all want it or not, I am going to start with 
mine.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. Over the past few months we have been hearing 
a lot coming from the Interior Department, Fish and Wildlife, 
and Bureau of Land Management about their cooperative efforts. 
Today is the time we are going to hear directly from states.
    Forty years ago, the Endangered Species Act was passed with 
every good intention; but, despite some of the rhetoric coming 
from special interest groups and their claims, the reality is 
that less than 2 percent of the more than 1,500 listed species 
have ever actually been recovered. Cramming more species onto a 
list, or blocking millions of acres, including restricting even 
how our military can use lands for military training and 
readiness, is not a measure of success.
    You know, in the play ``Wicked,'' Elphaba was asked--was 
told by the good witch, whose name just escaped me, that black 
is this year's pink. We can also say the same thing, that the 
greater sage grouse is this year's northern spotted owl. Twenty 
years ago, the Fish and Wildlife Service placed millions of 
acres under Federal management, destroying jobs, wiping out 
entire communities.
    And the result? Well, today the spotted owls continue to 
decline, this time caused by a larger species of owl, the 
barred owl, and catastrophic wildfires from poorly managed 
forest land that was blocked off for the owls' habitat. Fish 
and Wildlife Service is now dispatching armed bird specialists 
to kill the predatory armed barred owl, which--I am sorry, 
neither is effective, nor is it creative.
    So, what we need to do is, simply, we have to think 
differently. The failure of Federal programs, which is 
constant, is not going to be the issue of today's hearing. It 
is how to succeed that is going to be the issue of today's 
hearing. To do that, we have to simply think differently, and 
we need to examine the states' under-utilized authority to 
manage species. The states are in charge of wildlife, and the 
states have a record of success in that obligation. States are 
the laboratory of innovation, something the Federal Government, 
with its efforts, simply cannot match. That is why we are still 
here, in some effort, to try and do things differently.
    The states have not been sitting on the sidelines in this 
effort. There are some special interest groups out there that 
are simply saying, in all the rationale they give, that the 
common boundary--that states are incompetent to do this kind of 
job, that only somebody on the national level is smart enough, 
is organized enough, has enough resources on the national level 
to actually do this. That is pure, unadulterated balderdash. 
And you all know what word I am thinking of, instead of 
``balderdash.''
    What we will show in here is simply that people at the 
states level have just the trained competence and intelligence 
to do it. If you actually look at some of the special interest 
groups' arguments, what they are saying are people in the 
states are dumb, and only people here in Washington are smart. 
We have one witness today who worked for the state, then became 
the national BLM Director here at Washington, and then left and 
went back to the state. I will ask her at some time what made 
her go dumb, all of a sudden, when she left Washington and went 
back to Utah. But that, indeed, is the argument that some 
interest groups keep extending. That does not work.
    In 2011, then-Secretary Salazar invited 11 states to 
develop individual sage grouse management plans to effectively 
balance economic development and management of the species. 
Those states responded in an unprecedented effort, backed by 
some of the top researchers and scientists in the country, and 
came up with programs that, unfortunately, have been dismissed 
out of hand by the Fish and Wildlife Service without a good 
reason. It is not, as the Director said, nor is it right to 
have strongholds where wilderness-like restrictions over 16.5 
million acres of land will be done--all drafted in Washington, 
behind closed doors, and without the input of the states. That 
is not, in my estimation, collaboration or cooperation.
    We can do better. We will do better. And if we allow the 
states to actually go forward with the plans they have, we will 
find an amazing renaissance, not only with this species, but 
all sorts of other processes that we can do in the future.
    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    Over the past few months, we've heard much rhetoric from Interior 
Department, Fish and Wildlife Service and Bureau of Land Management 
officials about their ``cooperative efforts.'' Now it's time to hear 
directly from the states.
    More than 40 years ago, the Endangered Species Act was enacted with 
good intentions and bipartisan support to recover species at the brink 
of extinction. Unfortunately, with less than 2 percent of the more than 
1,500 listed species ever recovered, the law is failing.
    Cramming thousands more species onto the list and blocking the use 
of millions of acres of land--including restricting even how our 
military servicemen can use lands for military training and readiness, 
cannot be a measurement of success.
    States are using resources wisely to recover species and keep them 
off the list. We should do more to encourage them.
    It is in that context that we examine the states' underutilized 
authority to manage species. Given the chance, states could prevent the 
need for a Federal listing, and prevent endless fights to de-list 
species that recover. States have already proven to be laboratories 
where innovative policymakers can experiment to develop more effective 
policies. The problem with the Federal one-size-fits-all approach is 
that it's never actually been compared to anything else.
    The greater sage grouse is fast becoming the ``new'' northern 
spotted owl. Over 20 years ago, the Fish and Wildlife Service placed 
millions of acres under Federal management, choking out a once thriving 
Northwest timber industry, destroying jobs and wiping entire 
communities off the map. The result today: Spotted owls continue to 
decline, caused by a larger species of owl--the barred owl--and 
catastrophic wildfires that have destroyed poorly managed forests 
blocked off for the owl's habitat. The Fish and Wildlife Service is now 
dispatching ``armed bird specialists'' to kill the predatory barred 
owls. This doesn't sound like effective or creative management to me.
    There has to be a better way to conserve these animals and at the 
same time protect the livelihoods of the people that live closest to 
them. Standing idly by as the Federal Government makes the sage grouse 
the next spotted owl while wrecking countless local economies is not an 
option. Instead, a significant step in the right direction would be to 
empower states to fulfill their duty as wildlife managers.
    Some say states have been sitting on the sidelines. To the 
contrary, states have been leading on their own, despite the Interior 
Department's top-down, litigation-driven approach.
    In 2011, when then-Secretary Salazar invited 11 western states to 
develop individual sage grouse management plans, there was confidence 
that states could develop individually tailored plans that would 
effectively balance economic development and management of the species, 
and that these plans would provide the blueprint for successful sage 
grouse management.
    The states responded with an unprecedented effort, backed by some 
of the top researchers and scientists in the country, and many were 
hopeful they would be given fair consideration. But despite these 
significant efforts, state plans were dismissed out of hand. Even 
worse, the Director of the Fish and Wildlife Service recently mocked 
those concerned with their inept handling of the Federal listing 
process as a ``kabuki drama.''
    Last October, the Fish and Wildlife Service introduced perhaps its 
most stunning sage grouse suggestion yet: stop everybody from doing 
anything, by creating arbitrary ``strongholds;'' in effect, cementing 
wilderness-like restrictions on 16.5 million acres of Federal land in 
several states. States that have spent significant resources and years 
on sage grouse efforts were blindsided by these new proposals, which 
were drafted in Washington, DC behind closed doors, without their 
input. This doesn't sound like collaboration or cooperation to me.
    We can do better. We need transparency for data and science behind 
these Federal listing proposals. We need to remove incentives that fuel 
frivolous litigation.
    We need to ensure policymaking happens out in the open and not 
behind closed doors or in courtrooms. What we need to do is to bring 
management of species into the 21st century.
    I look forward to hearing about the positive work being 
accomplished to protect and manage species that will serve to point us 
in a new direction.

                                 ______
                                 

    The Chairman. With that, I will turn to the Ranking Member 
for his opening statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. Today's meeting 
continues a very familiar trend of holding hearings to 
criticize the Administration's work under the Endangered 
Species Act without inviting the Administration to testify. A 
balanced hearing on this topic would include witnesses from the 
Bureau of Land Management and the U.S. Forest Service, which 
together manage the 64 percent of the remaining greater sage 
grouse habitat that is located in the U.S. public lands.
    It would also include the U.S. Fish and Wildlife Service, 
the agency that will decide, based on the best-available 
science, whether the bird warrants protection under ESA. 
Instead, the Majority has invited political appointees, not 
scientists, from three states who claim they have been frozen 
out by Federal managers and their efforts to conserve sage 
grouse--and their efforts are sufficient.
    As far as their claim of having no access, nothing could be 
further from the truth. Federal agencies have worked closely 
with the 11 relevant states throughout the process of 
developing science-based strategies to conserve sage grouse and 
their habitat. I am sure if the Republicans had invited any of 
these agencies, they would have told us more about this 
collaborative effort.
    Even as they have worked closely with state officials, 
Federal agencies have gone out of their way to let states prove 
they have sufficient local conservation measures in place. 
Federal officials have asked states to submit plans that 
balance conservation needs with other state priorities for 
public and private lands. Last year, the Fish and Wildlife 
Service approved such a plan for Wyoming, and I am hopeful 
other states will take advantage of this opportunity.
    To be clear, the states cannot reach their goal of avoiding 
an ESA listing of the greater sage grouse unless their plans 
create certainty that the bird is not threatened with 
extinction. The greater sage grouse has been wiped out in two 
states, and has seen its range nearly cut in half because of 
habitat destruction. At one point, as many as 16 million 
greater sage grouse called the sagebrush sea ecosystem their 
home. Now the population has been reduced to as few as 200,000 
birds.
    I am confident that the necessary work can be accomplished 
in advance of the September 30 deadline, and that the greater 
sage grouse can become an ESA success story. Fish and Wildlife 
Service and the states themselves agree that a not-warranted 
decision is within reach.
    Unfortunately, some Members are attempting to snatch defeat 
from the jaws of victory. They support legislation to delay a 
listing decision and give up control of the people's lands to 
state governments that lack the resources to manage them. 
Instead of supporting an unprecedented cooperative conservation 
effort, some Members on this committee are undertaking efforts 
to undermine the entire process. They have gone as far as 
arguing that protecting the greater sage grouse could impact 
military readiness, a claim which has been roundly discredited 
by the Defense Department.
    I understand why some people want to short-circuit this 
process. If it works, then ESA works. A successful plan that 
avoids species listing and protects a landscape stretching 
across multiple states, while also allowing for economic 
development, would undercut arguments in favor of weakening the 
Act.
    The ESA has been the catalyst for conservation of many 
species and landscapes across this country. We are close to 
another success with the greater sage grouse. The only thing 
standing in the way is a group of people more concerned about 
the extinction of their talking points than the extinction of 
the species.
    Again, I thank the witnesses for being here today, and I 
yield back the remainder of my time.
    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Thank you, Mr. Chairman.

    Today's meeting continues the familiar trend of holding hearings to 
criticize the Administration's work under the Endangered Species Act 
(ESA) without inviting the Administration to testify. A balanced 
hearing on this topic would include witnesses from the Bureau of Land 
Management and the U.S. Forest Service, which together manage the 64 
percent of remaining greater sage-grouse habitat that is located on 
U.S. public lands. It would also include the U.S. Fish and Wildlife 
Service, the agency that will decide based on the best available 
science whether the bird warrants protection under the ESA. Instead, 
the Majority has invited political appointees--not scientists--from 
three states who claim they have been frozen out by Federal managers 
and that their efforts to conserve sage-grouse are sufficient.
    As far as their claim of having no access, nothing could be farther 
from the truth. Federal agencies have worked closely with the 11 
relevant states throughout the process of developing science-based 
strategies to conserve sage-grouse and their habitat. I'm sure if the 
Republicans had invited any of these agencies, they would have told us 
more about this collaborative effort.
    Even as they have worked closely with state officials, Federal 
agencies have gone out of their way to let states prove they have 
sufficient local conservation measures in place. Federal officials have 
asked states to submit plans that balance conservation needs with 
others state priorities for public and private lands. Last year, the 
Fish and Wildlife Service approved such a plan for Wyoming, and I am 
hopeful that other states will take advantage of this opportunity.
    To be clear, the states cannot reach their goal of avoiding an ESA 
listing of the greater sage-grouse unless their plans create certainty 
that the bird is not threatened with extinction. The greater sage-
grouse has been wiped out in two states, and has seen its range nearly 
cut in half because of habitat destruction. At one point, as many as 16 
million greater sage-grouse called the sagebrush sea home; now the 
population has been reduced to as few as 200,000 birds. I am confident 
that the necessary work can be accomplished in advance of the September 
30 deadline, and that the greater sage-grouse can become an ESA success 
story. FWS and the states themselves agree that a ``not warranted'' 
decision is within reach.
    Unfortunately, some Members of Congress are attempting to snatch 
defeat from the jaws of victory. They support legislation to delay a 
listing decision and give up control of the people's lands to state 
governments that lack the resources to manage them. Instead of 
supporting an unprecedented, cooperative conservation effort, some 
members--including the Chairman of this Committee--are trying to 
undermine the process. They have gone as far as arguing that protecting 
the greater sage-grouse could impact military readiness, a claim which 
has been roundly discredited by the Department of Defense.
    I understand why some people want to short circuit this process: if 
it works, then the ESA works. A successful plan that avoids species 
listings and protects a landscape stretching across multiple states--
while also allowing for economic development--would undercut arguments 
in favor of weakening the Act. The ESA has been the catalyst for 
conservation of many species and landscapes across the country, and we 
are close to another success with the greater sage-grouse. The only 
thing standing in the way is a group of people more concerned about the 
extinction of their talking points than about the extinction of 
species.

    Again, I thank the witnesses for being here today, and I yield back 
my time.

                                 ______
                                 

    The Chairman. Thank you. Now I am going to call several 
different audibles here. Part of it is because we have a time 
commitment here. So, before I recognize the Vice Chair and any 
other designee for opening statements, I would like to have 
some of our witnesses be introduced by those here who know them 
very well.
    So, we do have at the witness table, Kathleen Clarke, who 
is the Director of the Public Lands Policy Coordinating Office 
in the State of Utah, and formerly the Director of the Bureau 
of Land Management here in Washington. We have Mr. Dustin 
Miller, who is the Administrator from the Idaho Office of 
Species Conservation in the State of Idaho; Mr. Ed Arnett, who 
is with the Theodore Roosevelt Conservation Partnership; and 
Mr. John Swartout, who is a Senior Policy Advisor from the 
Office of Governor Hickenlooper, in the State of Colorado.
    Because Mr. Lamborn has another obligation, I would like 
him, if he would, to take a moment to introduce Mr. Swartout. 
And then we will actually turn to Mr. Polis and Mr. Labrador to 
introduce some of the guests. Let me finish off with mine, and 
then we will go from there. Then we will come back to the 
statements. Sorry.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you for having 
this hearing. Thank you for your flexibility. It is my honor to 
introduce one of our witnesses, Mr. John Swartout, who is the 
Senior Policy Advisor, as you said, for Governor John 
Hickenlooper.
    In the past, Mr. Swartout has been Executive Director of 
Greater Outdoors Colorado, GOCO, and of the Colorado Coalition 
of Land Trust; so he does have a lot of resource and land 
background and experience. In addition to working for Governor 
Hickenlooper, he has worked in the past for Senator Wayne 
Allard and Governor Bill Owens. He is one of these individuals 
whose abilities are sought out by governors and administrations 
on both sides of the aisle, and I think that is a real 
testament to his ability. I am glad we can have him here today; 
and I really commend his testimony to everyone who is at this 
hearing, and listening, and will read later, like I will, 
because I can't stay for the whole hearing.
    So thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you, Mr. Lamborn.
    Mr. Polis, I understand Mr. Arnett is your constituent.
    Mr. Polis. Thank you. I am thrilled to welcome Dr. Arnett 
from Loveland, Colorado. Dr. Arnett, who has his Ph.D. in 
forest science from Oregon State University, is the Senior 
Scientist at the Theodore Roosevelt Conservation Partnership. 
His other academic degrees include natural resource management, 
fish and wildlife management, zoology, and physiology. He 
worked as a wildlife biologist for the Forest Service and for 
the U.S. Fish and Wildlife Service.
    After he finished his doctorate, he joined an international 
conservation effort. He also is part of a public television 
series, ``This American Land,'' that helps educate the American 
public about our natural resources. He is also an avid 
sportsman, enjoys big-game hunting, fly fishing, and water foul 
and upland bird hunting, and is also an American Kennel Club 
judge.
    I am really thrilled to welcome, from Loveland, Colorado, 
Dr. Ed Arnett. I yield back.
    The Chairman. Thank you. Mr. Labrador, if you would like to 
introduce Mr. Miller from the state of Idaho.
    Mr. Labrador. Thank you very much, Mr. Chairman. I am 
pleased to introduce Dustin Miller this morning. It is great to 
have him here. He is a graduate of the University of Idaho, 
with a degree in environmental science. He served as a natural 
resources field coordinator to Idaho Senator Larry Craig before 
he joined Governor Otter's Office of Species Conservation in 
2008.
    At OSC he served first as a Project Manager and Policy 
Advisor for Terrestrial Wildlife Issues, and has served as the 
Administrator of the agency for nearly 3 years now. The Office 
of Species Conservation is charged with coordinating and 
implementing policies and programs related to the conservation 
and recovery of species listed as threatened, endangered, or 
candidate under the Endangered Species Act in Idaho. In his 
position at OSC, Dustin has worked tirelessly and led statewide 
efforts to develop Idaho's sage grouse management plan. They 
have done a terrific job, and I thank you for being here today.
    The Chairman. Thank you. I appreciate that.
    Kathleen, I will apologize. You are from my state. It is 
not going to be as flowery as the other introductions. I 
apologize for that.
    She had the opportunity of having a lot of experience in 
the state of Utah, and then, I think about the time I came back 
here, she also came back here as the Director of the Bureau of 
Land Management. She spent 5 years in that thankless job, and 
did a marvelous job in trying to bring some kind of balance to 
the entire situation. After retirement from that, she has gone 
back to the state where she is still working now with Governor 
Herbert's Office, dealing with the Public Lands Policy 
Coordinating Office.
    I have to admit, in a whole bunch of areas when it has come 
to land issues, you have been a valuable resource in everything 
that we are trying to do in Utah, from the public lands 
initiative, to this area that deals with sage grouse. I 
appreciate your willingness to come back here and be with us in 
a hearing room that you have, I am sure, many fond and maybe 
not-so-fond memories from your past experience.
    [Laughter.]
    The Chairman. But it is great to have you here. I thank all 
the witnesses, especially because I know how long it takes to 
travel from out in the real world, where we live, to come back 
here; so I appreciate you doing that.
    With that, and with appreciation for making the break so we 
could do those, I would go back to our opening statements. I 
will recognize the Vice Chairman, the gentlelady from Wyoming.

 STATEMENT OF THE HON. CYNTHIA M. LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Lummis. Thank you, Mr. Chairman. The purpose of this 
hearing, as I understand it, is to allow states to tell their 
remarkable stories. I appreciate that you have given them a 
voice. We will catch the Administration's position on another 
day.
    In 2011, Secretary Salazar invited the states to take the 
lead in conserving sage grouse. The goal was preventing a 
species listing that would devastate western economies, which 
it can because it affects 11 states. The states have responded 
with tens of millions of dollars, countless man hours, and an 
unprecedented dedication to sage grouse conservation.
    But what we have found out as states is, because there are 
11 states, and the issues that threaten sage grouse populations 
in these 11 states are so different, a cookie-cutter approach 
won't work. Each state is unique in their ecology, their 
economies, their culture, their sage grouse habitat, and the 
reasons for sage grouse to decline in their states are very 
different, some within the control of mankind, some not.
    I am proud to say that Wyoming has led the pack by securing 
the first and only federally approved state sage grouse plan. 
Our plan makes sense for Wyoming. It balances sage grouse 
conservation with energy production, agriculture, and other 
human necessities. But each state varies in the type and degree 
of threats to sage grouse. For some, like in Wyoming, it is 
primarily oil and gas production. In others, like Utah and 
Nevada, it is wildfires and drought.
    So, you cannot use the same methodology in each state to 
address the problem. The factors aren't static, even within a 
state. States are in the best position to be nimble, and to 
respond to the conditions on the ground. And states can achieve 
this better in real time, as they adjust to the conditions they 
are dealing with, rather than on paper in the Federal Register.
    That is why the Fish and Wildlife Service needs to allow 
states to craft plans that are as unique as the states 
themselves. This isn't just important for the sage grouse, it 
is important for my state of Wyoming; because no matter how 
solid Wyoming's plan is, if the sage grouse is listed anywhere, 
it is listed everywhere, including Wyoming.
    So this hearing, Mr. Chairman, is also very timely, in 
light of yesterday's announcement by the Administration that 
they will pursue some administrative changes to the Endangered 
Species Act. It is a refreshing day when the Administration 
admits that the law needs more transparency, more state and 
local involvement, and less unproductive litigation. These are 
exactly the kind of improvements that were passed last year, 
and by the full House, as part of H.R. 4315. We had four bills 
that we bundled and sent to the Floor that came out of this 
committee that did exactly that.
    Now, the Administration has previously spurned this 
committee's efforts to improve the Act and defended the deeply 
flawed system. So we need to make sure that, while the 
Administration took a positive verbal step yesterday, that they 
follow through and fix the problems as they exist on the 
ground, not just here in Washington, among bureaucrats.
    So, as we review the Administration's proposals in more 
detail in the days ahead, I hope they are a sign that we can 
finally lose the scare tactics, have articles about people that 
want to tweak the ESA and update the ESA as gutting the ESA. 
That is hardly the case of what we want to do. We need this 
open dialog with the Administration on how to bring the ESA 
into the 21st century. It is a positive sign. This hearing is a 
positive sign.
    Thanks again, Mr. Chairman. I yield back.
    [The prepared statement of Mrs. Lummis follows:]
 Prepared Statement of the Hon. Cynthia M. Lummis, a Representative in 
                   Congress from the State of Wyoming
    Thank you Mr. Chairman.

    Thank you for holding this hearing to allow sage grouse states, the 
leaders in sage grouse conservation, to tell their remarkable story.
    In 2011, Secretary Salazar invited the states to take the lead in 
conserving the sage grouse. The goal: preventing a species listing that 
would devastate western economies. The states have responded with tens 
of millions of dollars, countless man hours, and an unprecedented 
dedication to sage grouse conservation.
    With 11 states involved, a cookie cutter approach won't work. Each 
state is unique--in their ecology, in their economics, and in their 
culture.
    I am proud to say that Wyoming has led the pack by securing the 
first and only federally-approved state sage grouse plan. Our plan 
makes sense for Wyoming, balancing sage grouse conservation with energy 
production, agriculture, and other human necessities. But each state 
varies in the type and degree of threats to sage grouse--whether oil 
and gas production, wildfire, drought, urbanization, invasive species, 
or pinion junipers.
    And these factors aren't static. States are in the best position to 
be nimble and responding to conditions on the ground. States can 
achieve better results for the sage grouse in real time, not just on 
paper in the Federal Register.
    The Fish and Wildlife Service needs to allow states to craft plans 
that are as unique as the states' themselves. This isn't just important 
for the sage grouse, it's important for the state of Wyoming. No matter 
how solid Wyoming's plan is, if the sage grouse is listed anywhere, it 
is listed everywhere, including Wyoming.
    This hearing is also very timely in light of yesterday's 
announcement by the Administration that they will pursue administrative 
changes to the Endangered Species Act. The Administration has finally 
admitted that the law needs more transparency, more state and local 
involvement, and less unproductive litigation.
    These are exactly the kind of improvements passed by this committee 
and the full House as part of H.R. 4315 in the last Congress. Yet this 
Administration has had ``just say no'' policy on ESA improvements for 
the last 6 years, including a veto threat of last year's modest, common 
sense package.
    The Administration has spurned this committee's efforts to improve 
the law, all while defending a deeply flawed system. Simply trusting 
that the Administration will fix these problems on its own seems like 
allowing the fox to guard the hen house.
    As we review the Administration's proposals in more details in the 
days ahead, I hope these proposals are a sign that we can finally lose 
the scare tactics and have an open dialog with the Administration on 
how to bring the ESA into the 21st century.

    Thank you again Mr. Chairman. I yield back.

                                 ______
                                 

    The Chairman. OK. I understand Mr. Polis is giving the 
opening statement for the Minority side. Is that correct?
    Mr. Grijalva. Yes, thank you.
    The Chairman. You are recognized.

STATEMENT OF THE HON. JARED POLIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Polis. Thank you, Mr. Chairman, Chairman Bishop, 
Ranking Member Grijalva. Thank you to our witnesses.
    You know, I wonder whether, if the Dutch had an Endangered 
Species Act, whether the dodo bird would have gone extinct, and 
whether we would have the expression that something has gone 
the way of the dodo. Unfortunately, too many animals, including 
the dodo bird, have become extinct due to human actions.
    The heath hen, a coastal North American bird in the grouse 
family, was once found from Massachusetts, south of Virginia, 
right near this area. But, due to over-hunting and habitat loss 
and domestic cats, my friend, the heath hen, who I have here, 
has sadly gone the way of the dodo.
    What will be the fate of the greater sage grouse? If the 
language recently tucked into the Defense bill--of all things, 
the Defense bill--is any indication, unfortunately, my friend, 
the greater sage grouse, could go the way of the heath hen and 
go the way of the dodo bird. Effectively, it could be 
legislated into extinction by politicians. And that would be a 
shame, because state and Federal managers are on the cusp of a 
huge conservation victory if wildlife experts are allowed to 
stay the course without congressional or political 
interference.
    I am fortunate to share my home state of Colorado with both 
the greater sage grouse and the Gunnison sage grouse. The 
greater sage grouse, which is the topic of today's hearing, is 
distributed in six populations in northwest Colorado; but it is 
threatened by industrial oil and gas development, fragmentation 
of its sagebrush habitat, fire, and invasive weeds. Due to 
these threats, the greater sage grouse occupies only half of 
the historic range and, therefore, based entirely on its merits 
has become a candidate for listing under the Endangered Species 
Act.
    Through the Endangered Species Act, we have seen Federal 
agencies, the largest manager of sage grouse habitat in our 
area, in collaboration with state and local partners, take very 
important steps toward conserving and saving the bird and its 
habitat. More than 1.8 million acres of Colorado's greater sage 
grouse habitat is found on BLM lands in the Northwest District. 
That is almost half of the bird's entire habitat in Colorado.
    The draft management plan considers four possible 
management alternatives for maintaining and increasing habitat 
for the greater sage grouse on BLM and national forest lands in 
northwest Colorado.
    By the way, as you know, this applies to Federal lands 
only, not to private lands. And, importantly, the management 
alternatives reflect local adjustments and input to national 
management recommendations, based on input from cooperating 
government agencies and the general public. This unprecedented 
effort to bring people together to save a species that is an 
important part of our natural heritage in Colorado were 
catalyzed by the Federal recognition that the bird was a 
candidate species under the Endangered Species Act.
    But you know what? It is also about the habitat. Colorado 
and other states, alongside their Federal partners, have been 
and continue to invest time and resources to protect the sage-
steppe ecosystem which is critical to sportsmen and Colorado's 
outdoor-based economy. The sage-steppe ecosystem has been 
recognized as one of the most imperiled ecosystems in America. 
Of course, the bird is an emblem of it, but it has so many 
other important ramifications to protect our critical 
ecosystems.
    Tourism is an incredible driver of our economy. In fact, as 
Governor Hickenlooper's executive order to preserve the 
sagebrush steppe said, in sustaining Colorado's outdoor-reliant 
economy, ``it fuels more than $3 billion in annual spending on 
wildlife-related recreation.'' I am pleased to see that, thanks 
to the flexibility of the Endangered Species Act, efforts from 
Federal agencies to private landowners and others can have an 
impact and save a species to prevent it from going the way of 
the heath hen, the way of the dodo.
    I am thrilled that Mr. Swartout is here. Thank you for 
being here, and for your work on this important conservation 
initiative. Yours and Governor Hickenlooper's commitment to 
protecting the sage grouse from endangerment is clear in last 
week's executive order. I look forward to working with you, the 
Governor, and our coordinated agencies to preserve the 
framework of the Endangered Species Act, prevent forced 
legislative extinction of species, ensure that Colorado remains 
at the forefront of sage grouse protection, and to ensure that 
the sage grouse does not go the way of the dodo or the heath 
hen.
    I yield back the balance of my time.
    [The prepared statement of Mr. Polis follows:]
    Prepared Statement of the Hon. Jared Polis, a Representative in 
                  Congress from the State of Colorado
    Thank you, Chairman Bishop and Ranking Member Grijalva.

    If the Dutch had the Endangered Species Act, would the dodo bird 
have gone ``the way of the dodo bird? '' What about the now-extinct 
Heath Hen? The Heath hen, a coastal North American bird in the grouse 
family, known for its courtship displays, was once found from 
Massachusetts south to Virginia, but due to overhunting and habitat 
loss the heath hen sadly went the way of the dodo bird.
    What will the fate of the greater sage-grouse be? If the language 
recently tucked into the Defense bill is any indication, the bird could 
be legislated into extinction. And that would be a shame, because state 
and Federal managers on the cusp of a huge conservation victory if they 
are allowed to stay the course without congressional interference.
    I am fortunate to share my home state of Colorado with both the 
greater sage-grouse and the Gunnison sage-grouse. The greater sage-
grouse, the topic of today's hearing, is distributed in six populations 
in northwest Colorado. However, it is threatened by oil and gas 
development, fragmentation of its sagebrush habitat, fire, and invasive 
weeds. Due to these threats, the greater sage-grouse occupies only half 
of historic range and has become a candidate for listing under the 
Endangered Species Act.
    Through the Endangered Species Act, we've seen the Federal 
agencies, the largest manager of sage-grouse habitat, in collaboration 
with state and local partners, take considerable steps toward 
conserving the bird and its habitat.
    More than 1.8 million acres of Colorado's greater sage-grouse 
habitat is found on BLM lands in the northwest district. That is almost 
half of the entire bird's habitat in Colorado. Last fall, the BLM and 
Routt National Forest released the Draft Management Plan Amendment for 
public comment. The draft considers four possible management 
alternatives for maintaining and increasing habitat for the greater-
sage grouse on BLM and Routt National Forest lands in northwest 
Colorado. This applies to Federal lands only, not to private lands. 
And, importantly, the management alternatives reflect local adjustments 
to national management recommendations based on input from the 
cooperating government agencies and the public.
    These unprecedented collaborative efforts, which were catalyzed by 
the Federal recognition that the bird was in a candidate species under 
the ESA, have been impressive. But this isn't all about the bird. It's 
about the habitat, too. Colorado and other states, alongside their 
Federal partners, have been and continue to invest time and resources 
to protect the sage-steppe ecosystem which is critical to sportsmen and 
Colorado's outdoors-based economy. The sage-steppe ecosystem has been 
recognized as one of the most imperiled ecosystems in America due to 
continued degradation and lack of protection. This habitat is a 
cornerstone of the West's ranching industry since its inception and 
many rural western communities rely on the seasonal economic boost 
provided by sportsmen. As was stated by the Backcounty Hunters and 
Anglers in reaction to Governor Hickenlooper's executive order, 
sagebrush steppe plays a crucial role ``in sustaining Colorado's 
outdoor-reliant economy, which fuels more than $3 billion in annual 
spending on wildlife-related recreation like hunting.''
    I am pleased to see that, thanks to the flexibility of the ESA, 
efforts from Federal agencies to private landowners can have an impact. 
However, I hope that the state's plans ultimately provide the certainty 
needed for the bird's successful recovery.

                                 ______
                                 

    The Chairman. Thank you. We will now turn to our witnesses; 
and I am going to do another audible on this one, in figuring 
out which way to go. I will be totally chauvinistic, and allow 
Ms. Clarke to go first, and then the others I am going to do 
alphabetically, if that is OK with you.
    So, Ms. Clarke, we will start on this process.
    For all of the witnesses, your written testimony is 
included in the record. Your oral testimony, by our rules, will 
be limited to 5 minutes. If this is your first time with us, 
the lighting system above you is--if it is a green light, you 
are OK. When there is 1 minute left, you have the yellow light; 
and then, when it is the red light, I am going to do whatever I 
can to stop you.
    So, Kathleen, if I can turn to you for your oral testimony, 
we are happy to have you here.

 STATEMENT OF KATHLEEN CLARKE, DIRECTOR, STATE OF UTAH PUBLIC 
LANDS POLICY COORDINATING OFFICE, SALT LAKE CITY, UTAH; FORMER 
         DIRECTOR, BUREAU OF LAND MANAGEMENT, 2001-2006

    Ms. Clarke. Thank you. It is good to be with the committee, 
and I find myself in somewhat a unique and interesting position 
today, having formerly served as the Director of the Bureau of 
Land Management. When I was in that position, I directed and 
oversaw the development of a sage grouse strategy for 
conservation, which was implemented throughout the BLM in 2003 
and 2004. And I believe that that contributed significantly to 
the finding of not-warranted for listing that we had in 2005.
    As the current Director of the Public Land Policy 
Coordinating Office, I was given a similar assignment by 
Governor Herbert. I was asked to assemble a team of 
stakeholders, to do a year-long overview of the status of sage 
grouse in the state of Utah, and to put together a 
comprehensive sage grouse conservation plan for the state.
    I believe that Utah's work in this effort should also 
contribute to a not-warranted finding. However, despite our 
good work and tireless efforts to find common ground with our 
Federal land management agencies, I can tell you that, sadly, I 
think there is a dichotomy developing between the state's 
collaborative approach and Federal unilateralism. What started 
out as a very promising partnership is becoming increasingly 
imbalanced and, sadly, adversarial.
    I want to be clear. The state of Utah is absolutely 
committed to the conservation, long-term conservation, of the 
sage grouse. Over $50 million have been invested in the last 10 
years in sage grouse conservation, and Utah has only 4 percent 
of the birds. But that is the second-highest amount that any 
state has invested in the grouse conservation.
    In close partnership with our Federal agencies, we have 
restored over half-a-million acres of sage grouse habitat. This 
has been since 2006. Significantly, that is after a not-
warranted decision was made. So, fears that if a not-warranted 
decision comes out, then we stop conservation, are simply not 
true--at least not in Utah, because that put us to work at an 
even more rigorous pace.
    Research and groundwork have been the hallmark of sage 
grouse conservation in Utah. We have engaged in an aggressive 
research program in the state led by Utah State University and 
other universities, and we have probably the most robust data 
set on sage grouse of any state in the West. We have over 15 
years, a very comprehensive data that has been collected 
throughout each of our significant sage grouse management 
areas. That has been done in collaboration with local working 
groups; these groups are an assemblage of Federal agencies, as 
well as on-the-ground partners, such as ranchers, farmers and 
sports enthusiasts, and the scientists. They have worked 
together to come up with a clear understanding of the needs of 
the bird.
    We have engaged in land management studies involving 
habitat improvement and restoration, predator control, and 
population augmentation. And the results, quite frankly, have 
been stunning and directly contradict the doom and gloom that 
we are hearing about the sage grouse. We have taken our 
scientific findings and translated them into very effective 
conservation practices. As a result of the work, populations in 
Utah have stabilized and trends are positive.
    A recent study by the Pew Foundation failed to recognize 
that fact, but it also ignored the 9- to 12-year cyclical 
nature of the birds within the state of Utah, even though the 
scientist that issued that report had previously acknowledged 
that cycle in a prior study on population viability. Our matrix 
for success are far simpler. Recognizing the cyclical nature of 
populations in Utah, we have the goal of stabilizing these 
trends by focusing on the most basic conservation need of the 
birds, and that is the maintenance and the creation of usable 
habitat for the populations of the birds.
    Our conservation plan provides a solid framework for 
assessing the needs of the birds within the state. Utah is not 
like Wyoming; we do not have a vast sea of sagebrush. And we 
are not like the Great Basin. Our most important conservation 
strategies address the major threats that the species face in 
Utah, and that is wildfire and the associated invasion of 
undesirable grasses and the encroachment of conifer trees into 
the sagebrush. These natural events constitute 97 percent of 
the threat in the state of Utah, where development, or ex-urban 
development and energy, only represent 3 percent of the threat 
to our sage grouse populations.
    Our strategies are based upon the best-available science, 
and we rely on robust data collected for over 20 years. We 
analyzed every wildfire in our separate sage grouse management 
areas over a period of 18 years to see where those 
vulnerabilities were.
    The Chairman. Kathleen, I need you to summarize.
    Ms. Clarke. OK.
    The Chairman. You are over, here.
    Ms. Clarke. I am already over?
    The Chairman. Yes. I gave you a break for the cough you 
had. I need you to summarize quickly.
    [Laughter.]
    Ms. Clarke. OK, all right. I want to emphasize that the 
state of Utah is fully committed to conserving sage grouse 
populations. We place great reliance on the substantial 
contributions of ranchers and other concerned landowners to 
conserve the species.
    And I want to state that I firmly believe that regulations 
do not conserve species. I believe that people do. And if 
people are going to work for conservation, conservation has to 
work for people. In the state of Utah, we have a plan that 
motivates our private landowners. We work in concert with our 
Federal partners and our state agencies, and we have a very 
successful program and look forward to working with all of our 
partners to continue that into the future. Thank you.
    [The prepared statement of Ms. Clarke follows:]
    Prepared Statement of Kathleen Clarke, Utah Public Lands Policy 
                          Coordinating Office
     i. introduction: dichotomy of state coordinated planning and 
             implementation and the federal mandate process
    I find myself in an interesting position. As a former Director of 
the Bureau of Land Management, I have extensive insight into operations 
of a Federal regulatory and land management agency. I respect the role 
of the Federal Government in management of lands and natural resources 
and oversaw BLM's development and implementation of a rigorous range 
wide sage grouse conservation strategy which helped to support a ``non-
warranted'' listing determination for the greater sage grouse (GRSG) in 
2006.
    As the current director of the Public Lands Policy Coordinating 
Office for the State of Utah (PLPCO), I oversaw a year-long review of 
sage-grouse in Utah, and the subsequent development of a bold, science-
based conservation plan, including clearly identified goals and 
objectives recognized as innovative by observers of the process. Based 
upon that work and the subsequent efforts to find common ground with 
the Federal land management agencies, I can tell you that sadly, there 
is a dichotomy developing between the state of Utah's collaborative 
planning process and a growing Federal unilateralism. What started out 
as a promising partnership is becoming increasingly imbalanced and 
adversarial.
    Let me be clear, the state of Utah is committed to long-term sage-
grouse conservation. Over $50 million has been invested in the last 10 
years in sage-grouse conservation in Utah. The state, in a close 
partnership with Federal agencies, has restored over 560,000 acres of 
sage-grouse habitat since 2006, which work was funded and undertaken 
after the U.S. Fish and Wildlife Service determined the species was 
``not warranted'' for listing. Research and ground work have been the 
hallmark of sage-grouse conservation. The state has engaged in an 
aggressive research program through our universities to scientifically 
determine the conservation needs of the species. We have improved 
habitat and engaged in land management studies involving habitat 
improvement and restoration, predator control and population 
augmentation. Results have been stunning, and directly contradict the 
recent gloom and doom predictions concerning the sage-grouse.
    As a result of all this work, populations have stabilized. A recent 
study issued by the Pew Foundation fails to recognize this fact. The 
recent study failed to take into account the 9- to 12-year cyclical 
nature of populations in Utah, a point which was clearly recognized by 
the same authors in their earlier work on the topic of population 
viability. Our metric for success is far simpler and takes into account 
the cycles of population. Recognizing the cyclical nature of population 
numbers in Utah, the State's Conservation Plan sets the goal of 
stabilizing the population trends by emphasizing the most basic 
conservation need in Utah--the maintenance and creation of useable 
habitat for the populations of birds.
                   ii. detailed conservation planning
    The State of Utah's Conservation Plan provides a solid framework 
for assessing the needs of the birds within the state. Utah is not a 
vast sea of sagebrush, such as found in Wyoming or the Great Basin. The 
most important conservation strategies address the major threats to the 
species in Utah--wildfire and the associated invasion of undesirable 
grass, and the encroachment of conifer trees into the sagebrush. These 
natural events constitute 97 percent of the threat to the species in 
Utah. Human activities, such as energy development and exurban 
development, are not major threats, representing only 3 percent of the 
threat. Utah's sage-grouse conservation strategies are completely based 
upon the best available science developed over the past 20 years, and 
the most robust data.
    The state's team analyzed every wildfire in our 11 separate Sage-
Grouse Management Areas over a period of 18 years. We funded mapping of 
invasive conifer encroachment on the 7.4 million acres within the 
SGMAs. We analyzed every existing oil and gas well, and explored likely 
energy development patterns. We considered complex forward-looking 
models of the expansion of human towns and cities. We analyzed the 
nexus between these patterns and on-the-ground sage-grouse populations 
to identify the most effective tools for conservation. Finally the 
state developed complex, acre-by-acre planning for the next decade to 
ensure that the state has a conservation strategy to address areas 
where there is a nexus between the major and lesser threats and the 
birds. Implementation of these strategies by state agencies was 
recently fortified through a Governor's Executive Order.
                     iii. rationale for the effort
    Why did the state do this? In part, this was due to invitations by 
Federal partners to produce conservation plans sufficient to support a 
not warranted listing for the species. But also because the science and 
other relevant information clearly demonstrate that long-term 
conservation of sage-grouse can be assured under science-based, 
strategic state management. In Utah, balance still matters. Developing 
solutions that protect our freedoms and private property rights still 
matters.
    Throughout our deliberative process, we have been able to identify 
and implement proven solutions that will conserve sage-grouse. More 
importantly these solutions also work for the people and partners who 
live, work and raise their families in sage-grouse country. These 
citizens were focused on the conservation of sage-grouse through the 
efforts of 10 Local Working Groups involving over 1,500 volunteers, 
long before the U.S. Fish and Wildlife Service ever considered a 
petition to list. Long-term success of sage-grouse can be successful 
only if these partnerships are protected under state-management of 
sage-grouse. Top-down Federal mandates threaten that success.
    We are experiencing numerous frustrations as we work with the 
Federal land management agencies on proposed plan amendments which will 
reduce the likelihood of a listing of the species. Instead of helping 
cut through the red tape, Federal agencies are focusing most of their 
effort on finding new ways to regulate human activity. As someone 
representing a state which has invested decades in sage-grouse 
conservation, the relentless efforts to force more standardized and 
irrelevant mandates on the use of the land not only threatens the 
conservation of the species, but unnecessarily imposes hardship on the 
hard-working citizens of the West.
    Some examples may help you understand this. Utah's plan and 
detailed conservation strategies focus agency energy and funds into 
wildfire suppression and rehabilitation, the elimination of conifer 
encroachment and the improvement of poor quality habitat. The science 
behind this work demonstrates that the birds will immediately use the 
rehabilitated lands once a project is complete. Yet, instead of this 
proven approach, the Federal land agencies are intent on the creation 
of unnecessary zones of regulation, most of which will have no effect 
on the primary conservation issue (more useable habitat), or on 
reduction of the primary threats.
    We find the Federal resistance to implementing the conservation 
programs that matter the most to be the most frustrating. Now is the 
time to put aside the state vs. Federal electioneering that we are 
seeing from Federal agencies. While lip service is paid to 
``collaboration,'' the focus of Federal regulators is increasingly 
unilateral and dismissive of state conservation actions. After months 
of conversation, states see more and more demands for regulation for 
issues that pose only remote risk and/or benefit, but threaten millions 
of acres with unnecessary mineral withdrawal, ``no-surface occupancy'' 
rules that are counterproductive, and a strong emphasis on proposed 
resolution of lesser conservation threats.
    The state of Utah is fully committed to conserving sage-grouse 
populations and the sagebrush landscape upon which they depend. Our 
efforts include a strong adaptive management program designed to 
monitor the effects of the current conservation plans, and to find 
solutions for future issues that may arise. The state's 15 year conifer 
removal program needs to be immediately and aggressively undertaken by 
all landowners, including the Federal agencies. This, and a shift in 
emphasis of the wildfire suppression and rehabilitation program toward 
sage-grouse conservation, will do the most to benefit sage-grouse. 
These efforts directly address the high-risk threats to the species in 
Utah.
    The state also places reliance upon the substantial efforts by 
ranchers and other concerned landowners to conserve the species. These 
folks are working hard to employ best available practices endorsed by 
the Natural Resources Conservation Service, and other agencies. They 
are eager to participate through conservation easements and other legal 
tools. More than 1,500 volunteers participate in Utah's Local Working 
Groups and associated conservation projects. The state's Conservation 
Plan contains a specific measurable goal to this effect. Yet we are 
informed that these efforts are meaningless, because there is no 
``certainty'' in the immediate future attached to their contributions, 
according to the U.S. Fish and Wildlife Service's current and strongly 
expressed interpretation of its Policy for the Evaluation of 
Conservation Efforts (PECE).
    The state of Utah supports the efforts of Congress to allow the 
states the opportunity to demonstrate the robust nature of their plans, 
and demonstrate the required level of certainty required by the 
Service's PECE standards. The 10-year time frame mentioned in 
legislation is firmly based in the science of sage-grouse in Utah, and 
is recognized in peer-reviewed scientific papers. We believe that 
congressional action is likely the only way to ensure the states have 
the necessary time to demonstrate effective conservation efforts and to 
secure the long-term sustainability of the GRSG.

    Thank you.

                                 ______
                                 

 Questions Submitted for the Record by Rob Bishop to Kathleen Clarke, 
         Director, Utah Public Lands Policy Coordinating Office
    Question 1. The witness from the Theodore Roosevelt Conservation 
Partnership suggested that the state of Utah abandoned its sage grouse 
protection program after the Interior Secretary made her ``not 
warranted'' determination.

    If this is an incorrect statement, please provide data to the 
contrary.

    Answer. Since 2006, which is the year after sage-grouse were 
declared ``not warranted'' for listing, Utah did not abandon its 
conservation program for greater sage-grouse. Rather, the state of 
Utah, with the continued commitment and help of many partners, has 
dramatically increased its conservation efforts since that time. Since 
2006, over 500,000 acres of sage-grouse habitats have been enhanced in 
Utah, even though more than 50 percent of the habitat in Utah is 
privately owned, and at a cost of nearly $80 million (Figure 1). So, 
even after sage-grouse were found to be ``not warranted'' for listing, 
conservation efforts and associated expenditures in Utah have not only 
grown, but they have synergistically accelerated through broad, 
volunteer-based partner collaboration. Total expenditures for on-the-
ground conservation actions in Utah have increased since 2006, and even 
exceeded $10 million in 2008 and 2013 (Figure 2), was that trend of 
conservation actions and expenditures, when combined with those of 
other western states clearly demonstrates an increased commitment, not 
the ``abandonment'' that has been suggested, to sage-grouse 
conservation by Utah and other states (Figure 3).
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Figure 1. Total on-the-ground greater sage-grouse conservation 
                    expenditures in Utah since 2006.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Figure 2. Total expenditures in Utah on greater sage-grouse 
                   conservation projects, 2006-2014.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Figure 3. Total estimated expenditures by 10 western states on 
              sage-grouse conservation actions, 2000-2012.
    These on-the-ground conservation expenditures were made possible 
through broad collaboration, combined with local commitment to long-
term conservation of sage-grouse populations in Utah. Utah's track-
record of voluntarily planning and implementing landscape-level, 
science-based and collaborative conservation projects is testimony to 
our commitment and resolve in protecting this species without the need 
for Federal regulation. To date, over 1,500 voluntary participants in 
our 10 Local Working Groups across Utah have been voluntarily 
participating in sage-grouse conservation efforts. Through those local 
collaborative efforts, all Local Working Groups have revised their 
local conservation plans since 2006. In addition, the state of Utah has 
updated the 2002 Utah Sage-grouse Strategy, and those updates were 
locally reviewed and approved by the Utah Wildlife Board and was 
published in 2009. In addition, in 2013 the Utah Public Lands Policy 
Coordinating Office, with support from the Utah Division of Wildlife 
Resources, finalized the Conservation Plan for Greater Sage-grouse in 
Utah, which is designed to enhance, restore and increase landscape-
scale sage-grouse habitats.
    As further testament to Utah's most recent commitment to the long-
term conservation of greater sage-grouse, on February 25, 2015, Utah 
Governor Gary Herbert signed Executive Order (EO/2015/002), 
Implementing the Utah Conservation Plan for Greater Sage-grouse, which 
directs state agencies to collaborate in the implementation of the 
Conservation Plan for Greater Sage-grouse in Utah. Since that time, the 
Public Lands Policy Coordinating Office, through close coordination 
with the Utah Division of Wildlife Resources, has executed a series of 
Memorandum of Understandings, each of which further clarify and 
formalize the commitments of each agency to the continued and 
collaborative conservation of greater sage-grouse in Utah.

    Question 2. During the hearing, the recent PEW study was referred 
to. Has your state had a chance to review the study including the 
methodology used?

    Do you support the study's conclusion, and if not, why not?

    Do you have data to suggest that the conclusions in the PEW study 
are incorrect?

    If yes, provide any data to the committee.

    Answer. Yes, the state of Utah has reviewed the recently 
distributed, and scientifically flawed PEW Charitable Trust report 
(Garton et al. 2015). For many reasons, the state of Utah does not 
support the conclusions of the PEW report.
    First and foremost, in Garton et. al. (2011), which is a 
scientifically reviewed, published and widely recognized study that was 
led and co-authored by the same lead researcher as the PEW report, the 
authors state that sage-grouse populations in Utah ``increased from 
about 6,500 males in 1965 to a peak at 14,000 males in 1970, followed 
by cycles of declines and peaks at 9- to 12-year intervals.'' These 
data and conclusions, which again, were derived by the same lead author 
as the PEW report, were based on a robust range-wide sage-grouse lek 
count data that was collected from 1965 through 2007. That study 
recognizes, validates and has served as the scientific basis for the 
understanding that range-wide sage-grouse populations are naturally 
cyclical.
    Rather than adding new data from 2008 to 2013 to that existing 
dataset from Garton et al. (2011), the PEW Report is based on selective 
data which appears to incorporate only low periods (2007-2013) in the 
natural 9-12 year sage-grouse population cycles (see Figure 4 below). 
These data and conclusions clearly present biased and misleadingly 
negative outcomes and conclusions about the effectiveness of sage-
grouse conservation actions in Utah. Had the authors analyzed a longer-
term dataset, including the data from 2014 and the newly collected 2015 
lek count data in Utah, the conclusions of this study would likely have 
been much different. This is why the Conservation Plan for Greater 
Sage-Grouse in Utah (2013) relies heavily on a 10-year rolling average 
of population abundance when assessing population trends over time.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Figure 4. The annual total and average number of male sage-grouse 
counted per lek, and the 10-year rolling average sage-grouse population 
                       trend in Utah, 1980-2014.

    Second, the report has not been subjected to a rigorous peer-review 
process, which is widely accepted as the most reliable process for 
generating the best available science. The state of Utah did not have 
an opportunity to review the PEW Report prior to its distribution. Had 
local biologists from the Utah Division of Wildlife Resources been 
given that opportunity, they would have recommended that a longer-term 
dataset be incorporated into the study.
    Further, the areas that were evaluated in the PEW Report do not 
correspond well to Utah's Sage-Grouse Management Areas (SGMAs), which 
are outlined in the Conservation Plan for Greater Sage-Grouse in Utah 
(2013) and provide the basis for state-wide sage-grouse conservation in 
Utah. More specifically, the Rich-Morgan-Summit and Uintah SGMAs are 
only small edges of the Wyoming Basin modeling area in the Pew Report, 
the Box Elder SMGA is only a small portion of the Northern Great Basin 
modeling area in the PEW Report, and the Ibapah and Hamlin Valley SGMAs 
are only small portions of the Southern Great Basin modeling area in 
the PEW Report. As a result of this poor spatial correspondence, 
conclusions that are based on efforts that span multiple states 
jurisdictions do not accurately represent the effectiveness of sage-
grouse conservation actions in Utah.
    Finally, the authors then extrapolated the statistics based upon 
the decline portion of the cycle into unsupported conclusions about the 
effectiveness of conservation efforts. The authors specifically suggest 
that the conservation actions implemented since 2007 appeared to have 
had no effect on populations. This assertion is inappropriate and is 
not based upon an unbiased set of information. Such a conclusion must 
be based instead upon a comparison of sage-grouse lek count trends in 
areas where conservation actions were completed, then compared with 
areas where no actions were conducted. Such an analysis was not 
completed nor was it considered as part of this study.

    Question 3a. Please explain the activities of your state to work 
with private landowners in your efforts to create/expand habitat for 
sage grouse.

    Answer. Utah's approach to sage-grouse conservation is rooted in 
local decisions that guide local conservation. To that end, the state 
of Utah has partnered with Utah State University to develop Utah's 
Community-Based Conservation Program, whose mission is to ``implement a 
process that enhances coordination and communication between community-
based adaptive resource management working groups, private and public 
partners.'' Through that process, 10 Local Working Groups have been 
developed, and to date they have collaboratively developed, updated and 
implemented local management plans for designated geographic areas in 
Utah that contribute to the conservation of sage-grouse. In total, more 
than 1,500 people have participated in these Local Working Groups, and 
even though more than 50 percent of Utah's lands are privately owned, 
over 500,000 acres of sage-grouse habitats have been enhanced in Utah 
at a cost of nearly $80 million (see Figure 1).
    The state of Utah has been actively working with private landowners 
and others on sage-grouse conservation since the mid-1990s. As part of 
that effort, the state of Utah sponsored the creation of 10 Local 
Working Groups (LWGs). In 2006, in order to evaluate if the LWG process 
and similar efforts in other states were meeting stakeholder needs, the 
CBCP coordinator initiated a 2-year study of 700 randomly selected 
members in 54 sage-grouse LWGs in nine western states. The research was 
supported by a Natural Resource Conservation Service (NRCS) Fish and 
Wildlife Conservation Grant. The research project explored these core 
questions: (1) What types of LWGs have been the most successful at 
generating effective wildlife conservation programs on working 
agricultural lands, (2) What kinds of technical or institutional 
support can increase the potential for success among current LWGs, and 
(3) What role can LWGs play in the portfolio of NRCS efforts to protect 
wildlife on working lands? The survey research was then augmented by 
in-depth case study interviews of participants in four LWGs. A copy of 
the final technical report can be accessed at http://extension.usu.edu/
files/publications/publication/pub_8613439.pdf. The state of Utah also 
produced a guide for NRCS and other western states on how to better 
work with local landowners and communities to implement sage-grouse 
conservation actions. In this case, Utah not only worked to more fully 
engage Utah landowners in sage-grouse conservation, but also focused on 
how to better support local working groups and landowners throughout 
the entire range of greater sage-grouse.

    Question 3b. Will the draft RMP revisions enhance your efforts in 
that regard or make such tasks harder?

    Answer. The draft RMP revisions do not consider conservation 
measures as part of an ``all lands'' approach. While portions of the 
proposed revisions are helpful for the species (i.e., wildfire 
provisions), many of the provisions may wind up being counter-
productive. For example, BLM restrictions concerning activities on its 
lands could simply move the disturbance to private or state land, when 
the least damaging option may be on the BLM lands.

    Question 4. Are the goals of Director Ashe's October (2014) memo 
consistent with your analysis of the problems facing the sage grouse?

    If yes, please explain. If these proposals miss the mark, please 
explain.

    Answer. The October, 2014 memo does not represent a comprehensive 
solution to the threats faced by the greater sage-grouse. The memo has 
lead to the creation of proposed BLM and Forest Service ``solutions'' 
which do not reflect the best conservation measures for the species, 
instead the memo has caused the agencies to focus on peripheral 
matters.
    The memo identified a new category of lands--the so-called 
population ``strongholds.'' No data has been provided which would allow 
independent review concerning the need for those particular areas, they 
are simply delineated as strongholds based upon the general reference 
to various studies. Several of these same studies were used by the 
states as the basis for the state plans, so the strongholds memo does 
not present any new information. The states had previously identified 
Priority Areas for Conservation, which were included in the Service's 
Conservation Objective Team (COT) Report dated March, 2013. The 
strongholds memo ignores the advice of the Service's own COT Report, 
which has been held up by Interior officials as the gold-standard for 
conservation measures for the sage-grouse.
    The identification of strongholds has directly resulted in the 
proposed creation of ``Sagebrush Focal Areas'' by the BLM and the 
Forest Service as part of their plan amendment process. The proposed 
sagebrush focal areas feature a withdrawal from the mining law, no 
surface occupancy with no exceptions for fluid minerals, and a 
prioritization for the review of grazing. These provisions have been 
described as ``pivotal'' in the discussion about a ``not warranted'' 
decision by the Service, which is forthcoming by the end of September.
    The Interior Department has informed the public that the withdrawal 
from the mining laws is required to prevent the creation of valid 
property rights in the hands of claimants. Yet all of the current 
mining operations in the West comprise a total of around 350,000 acres, 
and more than 9 million is proposed for withdrawal. The solution 
proposed is out of balance with the true nature of the possible threat 
to the species represented by mining. Mining is a disturbance which can 
be managed--the proposed withdrawal, which requires a separate 
Secretarial process, is designed to eliminate mining exploration. 
Exploration is not a threat to the species identified in the 2010 
Service sage-grouse listing decision.
    The proposed NSO provisions have the potential to be counter-
productive in areas with mixed ownership of lands, as it may preclude 
the siting of land disturbances in the least offensive manner to the 
habitat needs of the species.

                                 ______
                                 

    The Chairman. Thank you.
    Mr. Arnett.

 STATEMENT OF ED ARNETT, SENIOR SCIENTIST, THEODORE ROOSEVELT 
          CONSERVATION PARTNERSHIP, LOVELAND, COLORADO

    Dr. Arnett. Good morning, Chairman Bishop, Ranking Member 
Grijalva, and members of the committee. Thank you very much for 
the invitation to testify this morning on this very important 
topic. My name is Ed Arnett, I am the Senior Scientist with the 
Theodore Roosevelt Conservation Partnership. We are a national 
sportsman's conservation partnership organization with 42 
formal partners, many of those who work very extensively on 
sage grouse.
    I appreciated Mr. Polis' introduction. I have been a 
professional biologist for 25 years, working with Federal 
agencies, as well as a Fortune 500 timber-industry company 
during the spotted owl era that was mentioned earlier; so I 
have a little bit of background on that particular set of 
issues. I also have worked with the NGO sector for some time 
now.
    The title of this hearing, ``Empowering State Management of 
Greater Sage Grouse,'' is an important one to note. The states, 
in fact--as we have already heard, and we agree with--have been 
extensively engaged and empowered from the very beginning. Any 
notion to the contrary would, of course, be misleading.
    Indeed, it was the state agency biologists decades ago that 
brought attention to concerns over sagebrush ecosystems, and 
increasing concerns about sage grouse. Since then, the states 
have been full partners with Federal managers, ranchers, and 
other relevant stakeholders in developing the conservation road 
map that we see today for sage grouse.
    As we have heard and will hear from the states, they have 
made very important and significant contributions that we 
certainly appreciate and recognize. TRCP fully supports the 
state management of all wildlife species, because this is a 
critical tenant of the North American model that is so 
important to sportsmen.
    There can be no doubt that the best way to maintain 
oversight of sage grouse and, moreover, hundreds of species 
that are dependent on this system, is to keep the bird off the 
Endangered Species List. If we can all agree that that is our 
shared definition of success, to sustain state management of 
grouse and keep it from being listed, then we should agree that 
the path forward is through the development and implementation 
of both Federal and state plans that are robust to preclude the 
need to list the species.
    This is not an either/or proposition. We need strong plans 
for our Federal lands; and we need state plans that address 
private lands, as well as the state lands that operate under 
different mandates. Of course, we also need our private 
landowners, and their critical important engagements, to round 
out a comprehensive strategy for these diverse western 
landscapes.
    We are confident that the conservation measures and 
collaboration necessary to do this are currently happening 
across the range of the species, and require no action by this 
Congress other than the allocation of appropriate levels of 
funding for sustained management and conservation, so we avoid 
winding up in the same place further down the road.
    The Endangered Species Act is a tool of last resort, and 
one that certainly is not preferred by sportsmen as a vehicle 
for conservation; but the loss of sage grouse habitat and the 
drop in numbers is no secret, and the weight of evidence can't 
be denied. It seems that the specter of an ESA listing has been 
necessary to drive this historic level of collaboration, at 
least among some, and among the different stakeholders that is 
currently taking place on behalf of greater sage grouse.
    The science clearly indicates that sage grouse habitat must 
be protected with durable conservation plans that will 
eventually produce habitat and more birds on the ground. 
Suggesting there is some other path forward simply serves to 
unnecessarily confuse the issue.
    We must remain on the path we are on today and finalize 
these plans and begin--as Kathleen noted that the state of Utah 
is implementing--we need to implement these things broadly on 
the ground and get it over the hump and moving forward.
    The vast majority of core sage grouse habitat is on Federal 
land, so strong Federal plans covering both BLM and Forest 
Service acres are close to being finalized. We are nearly 
there, but they have to be coupled with strong state plans and 
reflect state-specific approaches to sage grouse conservation. 
We believe this will be enough to thwart off the listing.
    Science-based state and Federal conservation plans 
implemented with adequate funding represent the only way to 
maintain state authority of the sage grouse plan--the sage 
grouse management. Fundamentally shifting Federal land 
management and decisionmaking to the states at this stage of 
the game, or delaying Federal action on a listing, are perhaps 
the best ways to ensure the bird winds up on the list. Actions 
like this only serve to take focus off what must be done.
    And, interestingly, we are only hearing from a minority 
about the delays needed to allow the state plans to develop and 
manifest. We are not hearing from the U.S. Fish and Wildlife 
Service that they require a delay to get to a not-warranted 
decision. As such, we believe Congress should let the current 
process and historic collaboration continue, and we believe we 
will have a successful conclusion.
    I would again like to thank you for the opportunity to 
testify today, and I will be happy to answer questions after 
the other speakers. Thank you.
    [The prepared statement of Dr. Arnett follows:]
   Prepared Statement of Edward B. Arnett, Ph.D., Senior Scientist, 
              Theodore Roosevelt Conservation Partnership
                    introduction and qualifications
    Chairman Bishop, Ranking Member Grijalva, members of the committee, 
my name is Ed Arnett and I am the Senior Scientist for the Theodore 
Roosevelt Conservation Partnership, a national sportsmen's conservation 
organization comprised of 42 Partner organizations, our mission is to 
ensure all Americans a quality place to hunt and fish. I appreciate the 
opportunity to testify today on such a timely and important topic as 
sage grouse conservation.
    I've been a professional wildlife biologist and scientist for 25 
years, with experience in research, management, academia, and 
conservation policy. I earned my Ph.D. from Oregon State University in 
Forest Science; a Master's degree in Zoology and Physiology from the 
University of Wyoming; a Bachelors from Montana State University in 
Fish and Wildlife Management; and an Associate of Applied Science 
degree in Natural Resources Management from Colorado Mountain College. 
I have extensive research and management experience in forest-wildlife 
relationships, wind energy and wildlife, and other aspects of energy 
and wildlife relationships.
                               background
    Once numbering millions and spanning 13 U.S. states and three 
Canadian provinces, greater sage-grouse are now extirpated in two 
states and one province and have lost 44 percent of their original 
range. Numerous stressors that include habitat fragmentation, energy 
development, urbanization, fire, invasive species, disease and poor 
rangeland health have contributed to declines of sage-grouse in the 
past several decades. Indeed, the fact that a once abundant, widely 
distributed and harvested game bird is now at population levels low 
enough to consider for listing as threatened or endangered should be a 
major concern for all stakeholders and certainly for America's 
sportsmen.
    Sagebrush ecosystems are critically important to more than 350 
species of plants and animals, including those pursued by sportsmen 
such as mule deer, pronghorn, and the greater sage-grouse. The sage-
grouse in essence has become a modern day ``canary in the coal mine'' 
that is telling us that sagebrush ecosystems and many of the species 
that depend on them are in jeopardy. Thriving populations of sage 
grouse are a good indicator of healthy sagebrush ecosystems.
    The TRCP supports the continued science-based management of sage-
grouse as a game bird under the authority of state fish and wildlife 
agencies. We believe that the best way to maintain state management 
authority is to enact both Federal and state conservation plans with 
durable protections for sage-grouse habitat, thus enabling the U.S. 
Fish and Wildlife Service (USFWS) to make a ``not-warranted'' decision 
under the Endangered Species Act (ESA) without delay. Balancing 
sagebrush and sage-grouse conservation with other land uses also is 
important, notably (1) implementation of sustainable grazing practices 
that keep working ranches in operation while providing habitat for 
sage-grouse; and (2) responsible energy development that balances with 
conservation and does not further impact sage-grouse and their habitats 
and mitigates unforeseen impacts once avoidance and minimization 
measures have been taken.
                     past engagement by the states
    Given the theme of this hearing, a bit of history is in order 
regarding the engagement of the states in the collaboration and 
progress that has been made the past decade. Any notion that the states 
have not been ``empowered'' or engaged is misleading. In the mid-1990s, 
it was state agency biologists that began expressing concern about 
declining numbers of sage-grouse, loss of habitat, and deteriorating 
conditions of the remaining sagebrush ecosystems. At that time, 
however, it was determined that sage-grouse did not meet requirements 
for listing under the ESA. As we all know, years later, after 
litigation, a ``not warranted'' decision in 2005, and more litigation, 
the USFWS in 2010 determined sage-grouse did warrant ESA protection. 
The USFWS is now under court order to finalize a decision by September 
30, 2015. But the stage for extensive state agency engagement and 
cooperation with the Federal agencies was set a decade earlier.
    In 2002, the Western Association of Fish and Wildlife Agencies 
(WAFWA) partnered with the USFWS to generate an assessment of sage-
grouse populations and habitats (Connelly et al. 2004) and a 
conservation strategy (Stiver et al. 2006) built from the ground up 
that continues to serve as a foundation of the current efforts. The 
Governor's Sage-grouse Task Force was later created in 2011 and chaired 
by the states (Governors Matt Mead-WY and John Hickenlooper-CO). That 
state-dominated task force was charged with developing recommendations 
on how to best advance a coordinated, multi-state, range-wide effort to 
conserve the sage-grouse, including the identification of conservation 
objectives to ensure the long-term viability of the species (USFWS 
2013). With the backing of this task force, the USFWS embarked on 
developing range-wide conservation objectives for the sage-grouse to 
define the degree to which threats need to be reduced or ameliorated to 
conserve sage-grouse so that it is no longer in danger of extinction or 
likely to become in danger of extinction in the foreseeable future 
(USFWS 2013). The USFWS recognized that state wildlife agencies have 
management expertise and management authority for sage-grouse; as such, 
the USFWS created a Conservation Objectives Team (COT) of state and FWS 
representatives to accomplish this task. The COT consisted primarily of 
state agency biologists/representatives (10 of the 11 western states in 
the range of sage-grouse) along with five biologists and other staff 
from the USFWS. At the heart of the COT report is the foundation laid 
by the WAFWA conservation strategy (Stiver 2006). Importantly, all of 
the states signed off on the COT report and the threats to sage-grouse 
and strategies to reduce those threats embedded within the report.
    The states have continued to be engaged extensively, through the 
Governor's Task Force, WAFWA and their Sage-grouse Executive Oversight 
Committee, and other venues. From my perspective, the coordination and 
work between the states and Federal agencies to achieve positive 
outcomes and ultimately a not-warranted decision, while not perfect at 
all levels or all the time, has been unmatched in my 25-year career.
   state and federal land management operate under different mandates
    Nearly half of the Nation's remaining sagebrush habitat lies on 
Federal public lands administered by the Bureau of Land Management, and 
conservation measures in that agency's new resource management plans 
will likely carry significant weight in the September 2015 decision. 
Private and state lands, however, are also vital to the birds' future, 
and the ESA listing decision will hinge on good state conservation 
plans and efforts from private landowners (e.g., the NRCS Sage Grouse 
Initiative). The states have done a tremendous amount of work, as 
evidenced by reports from the Western Governors Association and others, 
and should be commended for their efforts. Both voluntary and 
regulatory measures in the current and future state plans are 
critically important components of a broader, comprehensive Federal and 
state strategy for sage-grouse.
    However, shifting land management authority completely to the 
states and negating Federal land management plans, as has been proposed 
in several recent legislative proposals, is fundamentally flawed and 
problematic for numerous reasons. There are key differences in how 
state and Federal governments are mandated to manage their respective 
lands. First and foremost, states do not manage their lands under a 
multiple-use mandate, as the Federal agencies are required to by law. 
State school trust lands are under constitutional mandate to generate, 
and where possible maximize, revenues for schools, which limits their 
flexibility and management options in many cases. In contrast, Federal 
land managers operate under a multiple use sustained yield mandate, 
giving them far greater flexibility to manage for conservation values 
in addition to other values. Moreover, at least some states have 
limited ability to regulate private lands given their current 
constitutional statutes and in some states, counties have authority 
over many decisions that may affect sage-grouse habitat (e.g., 
permitting development). The management stipulations that states apply 
to non-Federal lands are far more limited in scope than the types of 
requirements that Federal land managers can apply. As a result, sage-
grouse management plans on Federal, public lands can and should be 
significantly more conservation-oriented than the state plans insofar 
as development buffers and setbacks from priority sage grouse habitat. 
State plans, however, must work in conjunction with strong Federal 
plans for sage grouse conservation to be successful.
states already have management authority of populations and cooperating 
                                 status
    The states, primarily through their respective fish and wildlife 
agency, already have full management authority of wildlife populations. 
The Fish and Wildlife Coordination Act (among others) sets the stage 
for state cooperation with Federal agencies, and the states have 
``cooperating agency'' status under administrative rule set forth by 
the Federal agencies. For example, the BLM planning Handbook (H-1610 
Appendix C, p. 6) requires field offices to:

        ``Designate priority species and habitats, in addition to 
        special status species, for fish or wildlife species recognized 
        as significant for at least one factor such as density, 
        diversity, size, public interest, remnant character, or age. 
        Identify desired outcomes using BLM strategic plans, state 
        agency strategic plans, and other similar sources. Describe 
        desired habitat conditions and/or population for major habitat 
        types that support a wide variety of game, non-game, and 
        migratory bird species; acknowledging the states' roles in 
        managing fish and wildlife, working in close coordination with 
        state wildlife agencies, and drawing on state comprehensive 
        wildlife conservation strategies. Identify actions and area 
        wide use restrictions needed to achieve desired population and 
        habitat conditions while maintaining a thriving natural 
        ecological balance and multiple-use relationships.''

    As mentioned earlier, the states have been engaged since concerns 
for sage-grouse and loss of sagebrush habitat arose years more than two 
decades ago. The states remain responsible for managing not only 
populations but also approximately one-third of the identified priority 
sage-grouse habitat into the future. Extraordinary effort and 
coordination has occurred for the past several years and the states are 
finalizing their plans (or already have done so and have begun 
implementation; e.g., WY, UT) that will compliment Federal efforts. 
While we have seen some reluctance and mediocre plans in some states to 
date, the ongoing process and negotiations should be allowed to play 
out and be finalized with the goal of a comprehensive, coordinated 
state and Federal strategy for sage-grouse and sagebrush ecosystems. 
This is happening, and requires no further congressional action on 
sage-grouse.
       issues with legislating state management on federal lands
    Current proposed Federal legislation under consideration would:

    <bullet> Eliminate the ability of Federal public land managers to 
            amend or modify Federal resource management plans whether 
            to enable conservation or development, and seeks to 
            retroactively nullify resource management plan amendments 
            already made, a change in policy that would impact millions 
            of acres and hundreds of species of fish and wildlife.

    <bullet> Halt Federal land-use planning efforts, costing taxpayers 
            tens of millions of dollars, and delaying implementation 
            that is needed immediately. Such action also would increase 
            the uncertainty within SG range associated with this major 
            change in land management policy--unintended consequences?

    <bullet> Erode the implementation of bedrock conservation 
            statutes--such as the National Environmental Policy Act 
            (NEPA), Endangered Species Act (ESA), Federal Land Policy 
            and Management Act, National Forest Management Act, 
            Administrative Procedures Act, Fish and Wildlife Act of 
            1956, and others.

    <bullet> Eliminate judicial review on a sweeping array of long-term 
            land management decision points.

    It can be argued that state management authority and practices on 
private and state lands, or lack thereof, is in part responsible for 
declines in sagebrush habitat and ultimately populations of sage-
grouse. Importantly, state conservation plans and regulatory authority 
vary dramatically across the 11 states, a situation not necessarily 
driven by different environmental conditions or threats to the species 
that warrant flexibility and different approaches. Additionally, some 
populations of sage-grouse span multiple states that have different 
habitat designations and management approaches--this would be very 
problematic for managing such populations.
    Numerous questions regarding any such shift in management authority 
immediately surface. How soon could we possibly expect such a shift in 
management responsibility to occur? It does not seem possible that 
halting all efforts by BLM and the USFS and shifting to a state-driven 
plan is possible in the immediate future--the Federal management plans 
are nearly finalized and ready for much needed implementation. How will 
states incorporate the intent of the ESA, existing Federal regulations, 
and case law into the analysis on a state by state basis? How will the 
states do their own analysis on plans, or will they employ the 5-factor 
analysis that the USFWS must employ according to the ESA? How would 
individual states address the range wide listing petition they are 
dealing with now? Perhaps most important, how will courts rule on the 
adequacy of state plans--will this be through Federal or perhaps 
through 11 different state courts?
    Finally, the state plans, even those produced by committees of 
diverse stakeholders, did not go through a broader public review and 
input process as the Federal plans have. As such, implementing such 
state plans on Federal lands owned by the American people with no 
opportunity to comment is fundamentally and constitutionally flawed.
    Given these issues and questions, the state plans themselves cannot 
stand alone and drive conservation efforts on Federal and state and 
private lands that would adequately conserve the species.
                               conclusion
    Our organization and many of our partner organizations have been 
active in the sage-grouse issue and define success as keeping the bird 
off of the threatened/endangered species list and its continued 
management by the state wildlife agencies. The threat of an ESA listing 
for sage-grouse has brought the states, Federal agencies and multiple 
stakeholders to the table in a meaningful way. The only way to conserve 
the species, avoid a listing, and sustain state management authority, 
is with strong conservation plans and collaboration that is currently 
ongoing. We have seen unprecedented coordination and planning efforts 
across 11 western states and we believe the USFWS can get to a ``not 
warranted'' decision by the court-ordered deadline in September 2015, 
and without congressional intervention. The recent ``not warranted'' 
decision on the Bi-state population of greater sage-grouse clearly 
demonstrates that a positive outcome from these current efforts can be 
achieved. However, we are deeply concerned that current legislative 
efforts not only represent an unprecedented shift of management 
responsibility by turning over land use and habitat management 
authority of publicly-owned, Federal lands to the states, but also 
unnecessarily delays implementation of management plans that have been 
years in the making. We need to achieve timely approval of Federal land 
management plans and begin implementing conservation and habitat 
management measures that convert ``paper birds and habitat'' into real 
results on the ground.
    Altering the process at this point via delay and shifts in 
management authority creates even greater uncertainty for stakeholders 
and virtually assures a listing down the road. As such, what we need 
from Congress is simple--adequate and sustainable funding levels that 
ensure conservation durability in the long term.
    Mr. Chairman and members of the committee, on behalf of the TRCP I 
want to thank you for inviting me to share this information and assist 
you on this important issue. I would be happy to answer any questions 
you may have.

                               references
Connelly, J.W., S.T. Knick, M.A. Schroeder, and S.J. Stiver. 2004. 
Conservation Assessment of Greater Sage-grouse and Sagebrush Habitats. 
Western Association of Fish and Wildlife Agencies. Unpublished Report. 
Cheyenne, Wyoming.

Stiver, S.J., A.D. Apa, J.R. Bohne, S.D. Bunnell, P.A. Deibert, S.C. 
Gardner, M.A. Hilliard, C.W. McCarthy, and M.A. Schroeder. 2006. 
Greater Sage-grouse Comprehensive Conservation Strategy. Western 
Association of Fish and Wildlife Agencies. Unpublished Report. 
Cheyenne, Wyoming.

U.S. Fish and Wildlife Service. 2013. Greater Sage-grouse (Centrocercus 
urophasianus) Conservation Objectives: Final Report. U.S. Fish and 
Wildlife Service, Denver, CO. February 2013.

                                 ______
                                 

  Questions Submitted for the Record by Rob Bishop to Dr. Ed Arnett, 
     Senior Scientist, Theodore Roosevelt Conservation Partnership
    Question 1. You stated that after the ``not warranted'' 
determination was made in 2004, the state of Utah stopped its 
activities to protect the sage grouse. Could you provide the committee 
with specific data to support your statement?

    Answer. To clarify, I did not single out Utah when answering the 
question posed to me during the hearing on this issue. What I said was 
that after the 2005 decision, many states--perhaps not Utah given what 
Ms. Clarke noted regarding her state--slowed their activities and 
expenditures on sage-grouse. I confirmed with the Western Association 
of Fish and Wildlife Agencies (WAFWA) who tracked expenditures by the 
states from 2000-2012 on sagebrush and sage-grouse-related activities. 
They noted that leading up to the 2005 listing decision the rate of 
expenditures (in other words, the acceleration of expenditures) 
increased up to around 2004 and then declined after the 2005 decision 
was made. This was a short-term slowing in that rate of increase and 
the interpretation was that the urgency/importance of sagebrush and 
sage-grouse-related expenditures declined to some extent after the 
``not warranted'' finding, but that was not necessarily reflective of 
all states. According to Ms. Clarke, Utah was not one of those states. 
WAFWA also noted that as the remand and 2010 decision time frame 
neared, expenditures began to ramp up again. It is worth noting that 
these expenditures did not include those from the NRCS Sage-grouse 
Initiative that has spent nearly \1/2\ a billion dollars since its 
inception in 2010.

    Question 2. Your testimony argues that valid existing rights would 
protect existing oil and gas leases under pending FWS policy to protect 
the sage grouse. However, Director Ashe's October (2014) memorandum 
proposes new restrictions on development. These additional restrictions 
constitute the creation of new, would-be greater sage grouse 
``strongholds.'' These ``strongholds'' will essentially prevent any 
surface occupancy on approximately 16.5 million acres of land across 
several states.

    Please explain how this fact squares with your statement?

    Answer. First, the language in the current EISs and what I have 
heard from DOI indicates that the overlap with fluid and locatable 
minerals is low (e.g., 84 percent of oil and gas reserves are located 
outside of priority habitat)--this would include the focal areas or 
``strongholds.'' That percentage is even higher in many of the state-
specific EISs.
    I'm interpreting the question as having to do with some overlap of 
existing leases and SFAs, or with the need to develop roads to access 
leased areas with valid and existing rights. The BLM generally has to 
balance impacts to other resources while honoring valid existing rights 
and so has experience handling this situation. To that end, there is 
explicit language in the current, final draft RMPs that address valid 
and existing rights. For example, from the Hi-line, MT plan:

        ``Existing roads, or realignments, would be used to access 
        valid and existing rights. If valid and existing rights cannot 
        be accessed via existing roads, then any new road would be 
        constructed to the absolute minimum standard necessary with 
        appropriate BMPs and mitigation (Appendices C and M; p. 199).

    From the Buffalo EIS (p. 138):

        ``Where a proposed fluid mineral development project on an 
        existing lease could adversely affect Greater Sage-Grouse 
        populations or habitat, the BLM will work with the lessees, 
        operators, or other project proponents to avoid, reduce and 
        mitigate adverse impacts to the extent compatible with lessees' 
        rights to drill and produce fluid mineral resources. The BLM 
        will work with the lessee, operator, or project proponent in 
        developing an APD for the lessee to avoid and minimize impacts 
        to Greater Sage-Grouse or its habitat and will ensure that the 
        best information about the Greater Sage-Grouse and its habitat 
        informs and helps to guide development of such Federal 
        leases.''

    From the Buffalo EIS (p. 199):

        ``In cases where Federal oil and gas leases are or have been 
        issued without stipulated restrictions or requirements that are 
        later found to be necessary, or with stipulated restrictions or 
        requirements later found to be insufficient, consider their 
        inclusion before approving subsequent exploration and 
        development activities. Include these restrictions or 
        requirements only as reasonable measures or as conditions of 
        approval authorizing APDs or Master Development Plans. 
        Conversely, in cases where leases are or have been issued with 
        stipulated restrictions or requirements found to be excessive 
        or unnecessary, the stipulated restrictions or requirements may 
        be appropriately modified, excepted or waived in authorizing 
        actions. Both the application of reasonable measures or COAs 
        and the modification, exception, or waiver of stipulated 
        restrictions or requirements must first be based upon site-
        specific analysis including necessary supporting NEPA.''

    These are just a few examples where the EISs clearly honor valid 
and existing rights while attempting to work with operators to minimize 
adverse effects.

                                 ______
                                 

    The Chairman. Thank you.
    Mr. Miller.

  STATEMENT OF DUSTIN MILLER, ADMINISTRATOR, STATE OF IDAHO--
          OFFICE OF SPECIES CONSERVATION, BOISE, IDAHO

    Mr. Miller. Well, good morning, Mr. Chairman and members of 
the committee. Thank you for holding this important oversight 
hearing on empowering state management of greater sage grouse. 
My name is Dustin Miller, and I am the Administrator for Idaho 
Governor C.L. Butch Otter's Office of Species Conservation, an 
agency charged with balancing the conservation and recovery of 
federally listed and candidate species with the economic 
vitality of the state. It sure is a pleasure to be here before 
you this morning.
    In Idaho, we are blessed with abundant natural resources, 
which is why we take conservation over fish and wildlife 
populations very seriously. People in our state care deeply 
about these issues and have a certain tenacity to roll up their 
sleeves and develop grass-roots, proactive solutions to complex 
natural resource issues; and that is exactly what Idahoans have 
been doing on the greater sage grouse front.
    In 2011, then-Secretary of the Interior Ken Salazar invited 
11 western states to partner with the Federal Government and 
develop state-based conservation plans to preclude the need to 
list greater sage grouse under the Endangered Species Act. In 
March of 2012, Governor Otter took the Secretary up on his 
offer, and created an executive task force charged with 
developing recommendations on actions needed to accomplish this 
goal.
    The Governor's sage grouse task force was comprised of a 
diverse group of stakeholders, advised predominantly by our 
local sage grouse experts and policy advisors. This group 
worked diligently under a compressed time frame to develop 
meaningful recommendations leading to the development of a 
Governor's Sage Grouse Conservation Plan, which was 
subsequently incorporated as an alternative within the Federal 
land use planning effort.
    In Idaho, we have focused the majority of our conservation 
planning efforts on addressing the primary threats to greater 
sage grouse, which are wildfire and invasive species. As such, 
the Governor's plan centers on an innovative approach to 
dealing with those primary threats through the application of a 
three-tiered habitat conservation system and an associated 
adaptive management strategy. The Governor's plan also 
implements proactive actions that aim to protect key sage 
grouse habitat through greater emphasis on wildfire prevention, 
suppression, and restoration.
    The conservation efficacy of the Governor's plan is 
significant, as it truly is a landscape approach that takes 
into account the entire life history of greater sage grouse. In 
fact, the U.S. Fish and Wildlife Service has stated in writing 
that the foundational elements of the strategy are 
scientifically sound and consistent with the Service's desired 
conservation objectives. The Idaho BLM has also given great 
credence to the Governor's plan, by including it as a co-
preferred alternative within the Federal land use planning 
effort in Idaho.
    Months of collaborating with our Federal partners to refine 
the co-preferred alternatives led us to genuinely believe that 
our state and Federal collaboration was going to be a success. 
However, recent top-down direction from the national BLM office 
has presented us with some unique challenges that, without 
resolution, stand to undermine our collaborative sage grouse 
conservation efforts.
    The Department of the Interior and the national BLM office 
are well aware of our concerns, and have engaged us in an 
effort to resolve these concerns. However, while we have made 
some progress, we still need a genuine commitment from the 
Federal Government to work toward a mutually agreeable solution 
concerning the application of sagebrush focal areas on 3.5 
million acres of our core sage grouse habitat in Idaho.
    Two years ago, a significant milestone in the collaborative 
effort initiated by Secretary Salazar was achieved when states, 
in partnership with the Service, developed a set of objectives 
for addressing the threats to greater sage grouse. The 
resulting report titled, ``The Conservation Objectives Team 
Report,'' represents the goalpost for achieving success. One of 
the cornerstones of this report is the flexibility to tailor 
conservation actions to local ecological and socioeconomic 
conditions. Unfortunately, the last-minute, standardized 
Federal direction erodes this flexibility.
    Our sage grouse conservation planning efforts in Idaho 
demonstrate our commitment to conserving this species across 
the landscape, balanced with preserving the custom, culture, 
and economic opportunity in Idaho.
    Given that the Federal Government manages 74 percent of the 
habitat in Idaho, the majority of our efforts have been focused 
on the Federal lands planning process. However, the state 
recently completed a conservation plan for state endowment 
lands that complements the Governor's plan for Federal lands.
    Additionally, the Natural Resources Conservation Service, 
through the sage grouse initiatives, continues to make 
significant investments in Idaho by working with private 
landowners and ranchers on voluntary sage grouse conservation 
actions.
    The state of Idaho holds the notion that local 
collaboration, local ideas, and local efforts garner the 
greatest results. The people in Idaho wish to see this iconic 
western species continue to thrive on the sage-steppe landscape 
for generations to come, and we believe that our collaborative 
planning efforts ensures that vision.

    Mr. Chairman, that concludes my testimony.

    [The prepared statement of Mr. Miller follows:]
Prepared Statement of Dustin T. Miller, Administrator, State of Idaho--
                     Office of Species Conservation
    Good morning Mr. Chairman and members of the committee. Thank you 
for holding this important oversight hearing on ``Empowering State 
Management for Greater Sage-grouse.'' My name is Dustin Miller and I am 
the Administrator for Idaho Governor C.L. ``Butch'' Otter's Office of 
Species Conservation. The Office of Species Conservation is charged 
with coordinating and implementing policies and programs related to the 
conservation and recovery of species listed as Threatened, Endangered 
or Candidate under the Federal Endangered Species Act in Idaho. Our 
mission enables us to engage partners in conservation actions that 
strike the appropriate balance between providing for the needs of 
native fish and wildlife species in Idaho while ensuring that 
predictable levels of land-use activities continue.
    In Idaho, we are blessed with abundant natural resources, which is 
why we take conservation of our fish and wildlife populations very 
seriously. People in our state care deeply about these issues and have 
a certain tenacity to roll up their sleeves and develop grassroots 
proactive solutions to complex natural resources issues; and that's 
exactly what Idahoans have been doing on the greater sage-grouse front. 
After all, robust and durable conservation actions developed at the 
local level provides greater assurances that the species will be 
protected, as those living closest to the resource are typically the 
most invested in conservation.
    In 2011, then-Secretary of the Interior, Ken Salazar, invited the 
11 western states across the range of greater sage-grouse to partner 
with the Federal Government to address the shortcomings identified 
within the Service's 2010 warranted but precluded finding. The states 
were tasked with developing and implementing conservation actions 
across the landscape that would be adequate to avoid an ESA listing of 
the species. In March of 2012, Governor Otter took the Secretary up on 
his offer and created an executive task force charged with providing 
the Governor recommendations on policies and actions necessary for 
developing a state-wide regulatory mechanism to preclude the need to 
list greater sage-grouse. The Governor's Sage-Grouse Task Force was 
comprised of a diverse group of stakeholders representing industry, 
sportsmen and conservation interests, local sage-grouse working groups, 
and elected officials. The task force was advised predominantly by our 
local sage grouse scientists at the Idaho Department of Fish and Game, 
along with other state, Federal, and academic advisors. This group 
worked diligently to develop a number of meaningful recommendations for 
inclusion as an Alternative within the Federal sage-grouse planning 
effort. Mr. Chairman, a statement from the Governor's Sage-Grouse Task 
Force is included with my testimony as part of the official record.
    In Idaho, we have focused the majority of our conservation planning 
efforts on addressing the primary threats to greater sage-grouse, which 
are wildfire and invasive species. With that in mind, the Governor's 
plan centers on an innovative approach to dealing with those primary 
threats through the application of a three-tiered habitat conservation 
system and an associated adaptive management strategy. This approach 
allows the state to elevate the level of conservation on medial sage-
grouse habitat if an adaptive regulatory trigger becomes operative in 
our Core habitat areas, regardless of land-ownership. The Governor's 
plan also implements proactive actions that aim to protect key sage-
grouse habitat through a greater emphasis on wildfire prevention, 
suppression and restoration. The creation of Rangeland Fire Protection 
Associations by the Idaho Legislature, for example, has already proven 
to be an effective tool in decreasing the response time to wildfires in 
remote areas of sage-grouse habitat and thus helping to prevent 
catastrophic wildfire.
    The conservation efficacy of the Governor's plan is significant, as 
it truly is a landscape approach that takes into account the entire 
life history of the species. In fact, the U.S. Fish and Wildfire 
Service has stated in writing that the foundational elements of this 
strategy are scientifically sound and consistent with the Service's 
desired conservation objectives. This letter from the Service to 
Governor Otter is included with my testimony as part of the official 
record. The Idaho BLM has also given great credence to the Governor's 
plan by including the plan as a ``Co-preferred Alternative'' within the 
Federal planning effort.
    Months of collaborating with our local Idaho BLM Office and others 
over the refinements of the co-preferred alternatives led us to 
genuinely believe that our state-Federal collaboration was going to be 
a success. The type of collaborative employed for the conservation of 
sage-grouse in Idaho mirrored that of the Idaho Roadless rule 
collaborative, where industry groups, conservation organizations, 
counties, and state and Federal agencies came together to craft a 
locally derived solution to a top-down one-size fits all approach. 
Ultimately, that collaborative prevailed. However, top-down direction 
from the Washington BLM Office in January of this year has presented us 
with some unique challenges that without resolution will undermine the 
fragile coalition we've built that is necessary for sustaining long-
term and meaningful sage-grouse conservation. The Department of the 
Interior and the Washington BLM Office are well aware of our concerns, 
and have engaged us in an effort to resolve those concerns. While we 
have made some progress, we still need a genuine commitment from the 
Federal Government to work with us on a mutually agreeable solution 
concerning the application of Sagebrush Focal Areas on 3.5 million 
acres of our Core sage-grouse habitat in Idaho.
    Two years ago, a significant milestone in the cooperative effort 
initiated by Secretary Salazar was achieved when the states in 
partnership with the Service developed a set of objectives for 
addressing the threats to greater sage-grouse. The resulting report 
titled the Conservation Objective Team Report, or COT Report represents 
the goalposts for achieving success. One of the cornerstones of the COT 
Report is the flexibility provided to create solutions that meet the 
needs of the species and the local ecological and socioeconomic 
conditions and thus allowing each state the ability to tailor their own 
state-specific plans to achieve the COT Report objectives. The state of 
Idaho has worked in good faith with our stakeholders and our Federal 
partners to use this framework to reach the identified goalposts. 
Unfortunately, the last minute range wide standardized requirements 
imposed by the Washington BLM office deviates from the flexibility 
afforded by the COT report.
    Our sage-grouse conservation planning efforts in Idaho demonstrate 
our commitment to conserving this species across the landscape balanced 
with preserving the custom, culture and economic opportunity in Idaho. 
Given that the Federal Government manages 74 percent of the habitat in 
Idaho, the majority of our efforts have been focused on the Federal 
lands planning process. However, the state recently completed a 
conservation plan for state endowment lands that complements the 
Governor's Plan. Additionally, the NRCS through the Sage-Grouse 
Initiative continues to make significant investments in Idaho by 
working with private landowners and ranchers on voluntary conservation 
actions that provide benefits to greater sage-grouse, as well as 
certainty for ranchers and landowners.
    The testimony submitted for the record by Katie Kalinowski of the 
Western Governors Association provides additional information on 
landscape sage-grouse conservation actions occurring in Idaho and other 
western states. The information contained in that testimony serves as a 
summary of the Western Governors Association 2014 Sage-Grouse Inventory 
Report. Mr. Chairman, Governor Otter wishes to have this Western 
Governors Association report and its Appendix entered into the official 
hearing record.
    In closing, Mr. Chairman, the state of Idaho holds to the notion 
that local collaboration, local ideas, and local efforts garner the 
greatest results. We have a lot of pride in our state, and we are 
especially proud of our western heritage and abundant natural 
resources. The people in Idaho wish to see this iconic western species 
continue to thrive on the sage-steppe landscape for generations to 
come, and we believe that our planning efforts ensures that vision. 
Right now, we are close to having a complete state-based conservation 
package that provides for the conservation of sage-grouse; but as 
you've heard, some of the recent top-down directives from Washington, 
DC have the potential to derail years of positive collaboration. It is 
our sincere hope that we can come to an agreeable resolution, where the 
state of Idaho is truly the architect of its own destiny relative to 
greater sage-grouse conservation.

Attachments:

U.S. Fish and Wildfire Service letter to Governor Otter

Statement from the Governor's Sage-Grouse Task Force

                              ATTACHMENTS

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

April 10, 2013

Hon. C.L. ``Butch'' Otter
Governor of Idaho
State Capitol
Boise, Idaho 83702

    Dear Governor Otter:

    Thank you for your letter of March 14, 2013 requesting U.S. Fish 
and Wildlife Service (Service) ``concurrence'' in regards to Idaho's 
Greater sage-grouse (GRSG) conservation strategy (Strategy). Before the 
Service responds to this request, we would like to express our 
continued appreciation for your leadership in guiding the collaborative 
approach in which your staff in the Governor's Office, the Office of 
Species Conservation and the Idaho Department of Fish and Game has 
worked with us to refine the State's approach to conserving GRSG in 
Idaho.
    The Service remains impressed with and supportive of the science-
based adaptive conservation strategy for GRSG you have crafted 
collaboratively in Idaho, for Idaho-specific needs. In brief, the 
foundation of the Strategy and most of the specific elements that 
complete it, are solid and are grounded in scientific concepts and 
approach important to both the Service and Department of the Interior. 
While there is much about the current draft that the Service supports; 
there remain elements that need refinement, clarification, or need to 
be incorporated into the Strategy for the Service to conclude the 
entire strategy is consistent with the Service's Greater sage-grouse 
Conservation Objectives Team (COT) report.
    A detailed response to your inquiry is attached. In summary, the 
integrated nature of the Strategy makes it difficult to ``concur'' with 
specific elements as most are interrelated and depend on other elements 
of the Strategy to function effectively. Nonetheless, our review 
revealed that the 4 foundational elements of the Strategy (Habitat 
Zones, Conservation Areas, Population Objective and Adaptive Triggers) 
are consistent with the COT as is the Livestock Grazing Management 
element. Therefore, this determination of consistency with the COT 
reflects ``concurrence'' for these elements, with the necessary 
elements noted in our detailed comments (see attachment), for the 
purpose of BLM IM 2012-043. This ``concurrence'' should not be 
construed as being automatically implementable by the BLM. The Service 
looks forward to working with your Task Force, and BLM as appropriate, 
to refine, clarify and add aspects of the Strategy as needed for 
similar support of, for example, the Wildfire Management and 
Infrastructure elements; and the Implementation Team/Commission. The 
latter, while an element of the Strategy that that needs clarity and 
refinement is an issue the Service believes is easily addressed. There 
are numerous examples of such bodies, including as the State has 
verbally referenced, the process used on the Idaho Roadless Rule. The 
Service looks forward to assisting the State craft such a process for 
the Strategy.
    Conservation of GRSG is a challenge. It is a challenge due to the 
geographic scale of the issue; the need of the species for large intact 
undisturbed geographies of habitat; the difficult nature of the threats 
in the Great Basin portion of the range; and the relevance of the 
habitat in questions to myriad conservation and economic needs and 
interests. Long-term conservation of GRSG will require a strong and 
sustained commitment by stakeholders across multiple jurisdictions to 
work together collaboratively. It is for these reasons that the Service 
commends the State of Idaho for acknowledging and crafting a Strategy 
that on one hand details proactive conservation actions to address the 
threats on the landscape, but equally important embraces the 
uncertainty of how those threats will play out on the landscape and how 
they will affect GRSG over time by crafting a robust, outcome based 
scientific strategy that is collaborative and adaptive. This balance 
between proactive conservation design/actions based on empirical data 
and assumptions, with a feedback loop from monitoring to inform 
adaptation in design/action, with stakeholders in the decision loop as 
an integral part of that process, is a fundamental component of the 
both the Strategic Habitat Conservation approach the Service employs, 
and Adaptive Management that the Department of the Interior employs.
    We hope this review is helpful. The Service looks forward to 
continuing our role in this process of on-going refinement of the 
Strategy, its implementation over time, and as part of the adaptive 
process it embraces.

            Sincerely,

                                            Brian T. Kelly,
                                            Idaho State Supervisor.

Enclosure

Purpose of the Service's Comments
    We want to be clear regarding the purpose of our comments. First, 
our comments serve to continue the collaborative and iterative process 
we have been engaged in with you. We see this review as an important 
``check-in'' and continuation of that process to ensure the Strategy is 
ultimately best positioned to contribute to a future where listing GRSG 
under the ESA is unnecessary.
    Our comments also provide the requested feedback regarding 
``concurrence'' as referenced in BLM Instructional Memorandum 2012-043. 
While the Service and BLM are both Department of the Interior Agencies, 
and we together with the State of Idaho and other partners, are 
collaborating in the conservation of GRSG; the BLM and Service have 
different legal authorities and policy requirements. As such, any 
``concurrence'' we may offer on elements of the Strategy should not be 
construed a priori as being implementable by the BLM. That is a 
determination BLM must make. The Service acknowledges and respects BLM 
authority in this regard. The Service stands ready to assist the State 
and BLM in BLM's approval process where appropriate (e.g., Service 
review of elements of the Strategy that are modified to be 
implementable by BLM). Our comments on the Strategy at this juncture 
are not part of the on-going BLM process to amend and or revise various 
Resource Management Plans across the range of GRSG. That review process 
will be completed separately.
    Service support of the Strategy in part or whole should not be 
interpreted as a decision by the Service commensurate with a listing 
decision under the Endangered Species Act (ESA). That determination 
will be made when the Service formally reviews the status of the 
species in 2015. However, our purpose in developing the COT report was 
to guide the States in the development of conservation actions and 
strategies so that when we review those efforts in 2015 they would 
contribute to the conservation of the species in a manner that 
collectively would address threats such that listing would not be 
necessary. It is for this reason, our review of the Strategy herein is 
provided in the context of the COT report.
Components of the Strategy
    We frame our review in the context of the three primary elements of 
the strategy: (1) Foundational Elements, (2) Specific Elements, and (3) 
Implementation Team/Commission. Foundational elements of the Strategy 
are those that transcend specific management and conservation actions 
or reactive adaptive processes once population or habitat triggers are 
tripped. We refer to four Foundational Elements: Thematic Approach, 
Conservation Areas, Adaptive Triggers, and Population Objective. 
Specific Elements identified in the Strategy are those that target 
specific threats including: wildfire, invasive species, and 
infrastructure, as primary threats; and recreation, West Nile virus, 
improper livestock grazing management, and livestock grazing 
infrastructure as secondary threats. The Implementation Team/Commission 
referenced in the Strategy is meant to ensure proper action is taken 
when a trigger is tripped. As such, for the purposes of our review, we 
will evaluate the Implementation Team/Commission as a separate 
operational element of the strategy.
Foundational Elements
    Our review of the Strategy revealed a thoughtful, science-based and 
outcome-driven adaptive management approach to the conservation of GRSG 
in Idaho. This approach is consistent with the COT report. The Thematic 
Approach, Conservation Areas, Adaptive Triggers, and Population 
Objectives are consistent with the COT report and the Service strongly 
supports these aspects of the State's Strategy.

    Examples of how the four Foundational Elements of the Strategy are 
consistent with the General Conservation Objectives and Specific 
Conservation Objectives related to Priority Areas for Conservation 
(PACs) in the COT report include:

  1.  The designation of a Core Habitat Zone (CHZ) of approximately 5.5 
            million acres which by itself is currently home to 
            approximately 73% of the male GRSG in Idaho. The CHZ 
            captures the COT report intent of avoiding development in 
            priority areas for conservation (PACs). The Strategy 
            reflects that the development of infrastructure (a primary 
            threat to GRSG) is prohibited in CHZ; with a process for 
            limited exceptions. The Service commends the State for 
            ensuring that any exceptions to the prohibition to 
            infrastructure in CHZ, must meet the conservation standard 
            in the Important Habitat Zone (IHZ; see discussion in next 
            paragraph). While we support the configuration and intent 
            of the CHZ, we look forward to working with the State to 
            clarify how exceptions are determined and specific 
            mitigation strategies if exceptions occur are implemented 
            (see Specific Elements and Implementation Team/Commission 
            headings, below).

  2.  The designation of an Important Habitat Zone (IHZ), of 
            approximately 4 million acres which by itself is currently 
            home to 22% of the male GRSG in Idaho. The IHZ also 
            captures the COT report intent of stopping the population 
            decline in that while infrastructure is permitted; it is 
            permitted in a way that must demonstrate it will not affect 
            the population trend for the Conservation Area in question. 
            IHZ serves an equally important role in the Strategy as it 
            can serves to buffer loss of habitat due to fire (see #5).

  3.  The Strategy's use of a measureable population objective, and 
            utilizing monitoring to ensure that objective is met; and 
            setting metrics that trigger changes in practices or review 
            of current practices to ensure the Strategy's conservation 
            objective is met long-term.

  4.  The use of four separate Conservation Areas in which the adaptive 
            triggers are individually applied adds an increased level 
            of sensitivity to change, that we expect to translate to 
            more timely changes in management if necessary, which will 
            translate to an enhanced ability to ensure the population 
            objective of the Strategy is met state-wide (the Service 
            appreciates and concurs with the State's desire to have 
            additional peer review of the adaptive triggers).

  5.  The use of a ``hard trigger'' that, if tripped, requires IHZ be 
            managed as CHZ, with infrastructure development subject to 
            the same standards in both zones. In essence, if applied to 
            all Conservation Areas, the CHZ would almost double in 
            size. This would add the conservation benefit of CHZ to IHZ 
            until no longer necessary.

  6.  The COT report also references the importance of incentive-based 
            conservation actions in developing a conservation strategy. 
            The foundational elements of the Strategy provide a context 
            for incentivizing actions to maintain population numbers 
            and intact habitat; and help ensure the conservation and 
            restoration of GRSG in Idaho. The structure of these 
            foundational elements of the Strategy (and specific 
            elements consistent with the COT report and others as they 
            are refined) will help provide stakeholders predictability 
            with regard to GRSG conservation needs.

Specific Elements

    Livestock Grazing Management: This specific element of the Strategy 
is consistent with the COT report. The Service supports this aspect of 
the Strategy because it requires Idaho Rangeland Health Standards 
(IRHS) be met and it does so in the context of the Strategy. The COT 
report identifies that if the riparian (IRHS 2) and upland (IRHS 4) 
rangeland health standard is met, that is the minimum needed to address 
the threat of grazing on GRSG based on our expertise under the ESA. To 
achieve this, the Strategy provides an adaptive management process by 
which adjustments in grazing based on ecological site potential and 
habitat characteristics would be prioritized as needed outside of 
normally scheduled permit renewals based on population triggers and 
cause of declines within each Conservation Area in the Strategy. 
Additionally, the adaptive management approach the Strategy provides an 
important framework for deciding what, in addition to IRHS 2 and 4, 
might be required under IRHS 8 (Threatened, Endangered or Sensitive 
Species) for GRSG conservation.
    As noted above, the COT also references the importance of 
incentive-based conservation actions in developing a conservation 
strategy. The Service believes the Livestock Grazing Management Element 
address the conservation needs of GRSG while providing an important 
incentive to permitees to be good stewards.
    An additional important benefit to the Service of the Livestock 
Grazing Management element is that the regulation of improper grazing 
as a threat to GRSG when permits had not yet been analyzed by BLM to 
meet IRHS for GRSG (IRHS 2, 4; and 8 as needed) would be accomplished 
through the Strategy on an as needed basis based on population status. 
This approach is in contrast to requiring all individual permits be 
conditioned to meet IRHS 2. 4 and 8 (as needed), by the time the 
Service makes its listing determination--a goal that is likely not 
achievable. To be clear, the Service supports adherence to IRHS. Our 
support for the approach of this element is due to it being a wise 
approach for regulating the appropriate conservation action for the 
secondary threat of improper grazing to GRSG where needed, until IRHS 
necessary for GRSG conservation are achieved at the management area 
scale. This adequacy of regulatory mechanisms under ESA is an important 
consideration. Pending more clarity in how the Implementation Team/
Commission is staffed and operates once a trigger is tripped; the 
Service would expect to fully support this element of the Strategy. 
While we would defer to the BLM on their permit-specific application of 
these triggers in the context of requirements to enhance and restore 
rangelands under Federal Lands Policy and Management Act (FLPMA), the 
Service supports the Livestock Grazing Element in the interim as long 
as no triggers have been tripped within a Conservation Area.

    Infrastructure: The specific actions in the infrastructure element 
are consistent with the COT pending a clearer understanding how the 
Implementation Team/Commission operates to determine exceptions to CHZ 
development, development in IHZ, and how referenced mitigation of 
impacts will work.

    Mitigation: Mitigation is referenced in multiple elements in the 
Strategy but there is no explanation of the how mitigation for impacts 
in CHZ, IHZ and potentially GHZ will work. The Service is aware of 
preliminary work by your Task Force and the work of the Idaho Sage-
grouse Advisory Council and this element and encourages the State to 
build on these efforts for this element of the Strategy.

    Restoration: The Service recognized in our letter of August 1, 
2012, that one of the many strengths of the Strategy is that habitat in 
need of restoration was included in and adjacent to CHZ as a priority 
commitment for restoration and to expand Core habitat. However, the 
Strategy is largely silent on the important relationship between 
mitigation and restoration for restoration to occur; what constitutes 
habitat that is lost versus gained back; and restoration monitoring. 
The need for how direct and indirect loss of habitat is quantified and 
what constitutes restored habitat is a missing component of the habitat 
trigger as well.

    Wildfire Management: Wildfire and invasive species associated with 
fire are the greatest threat to long-term persistence of GRSG in the 
Great Basin and the threat most difficult to manage. The Strategy has 
been refined to help manage this threat in a significant way. The 
addition of legislative changes and funding to support the creation of 
Rural Fire Districts (RFDs) is a significant addition to the Strategy 
and one the Service supports and that is consistent with the COT 
report. Viewing wildfire management in the context of Prevention, 
Response and Restoration and tailoring actions within each is likewise 
an important refinement. The Service looks forward to working with the 
State and other partners to help establish more RFDs; and to identify 
more specifics actions under each category of Prevention, Response and 
Restoration.
    One aspect of the strategy that is not a specific fire management 
action but that the Strategy notes and the Service likewise 
acknowledges as one of the strongest attributes of the Strategy is how 
the overarching construct of the Strategy is designed with fire in 
mind. The conservation objective of maintaining between 95% and 73% of 
the males on leks, the establishment of refined habitat triggers that 
catch declines and adapt practices earlier and by Conservation Area, 
the identification of areas in need of restoration, the commitment to 
IRHS are all mechanisms to reduce fire, buffer the effects of fire, and 
provide for refinement in management in an adaptive construct to reduce 
the effects of fire in the long term.

    Management on non-Federal Property: The Strategy to date has 
focused on Federal properties. This is understandable due to the 
ongoing Resource and Land Use Management Plan revisions and amendments 
underway by BLM and the U.S. Forest Service. The Service looks forward 
to working with the State to ensure the Strategy applies where 
necessary and appropriate to all properties with adequate state or 
local regulatory mechanisms.
Implementation Team/Commission
    Many of the specific elements of the Strategy are in the Service's 
view conditionally consistent with the COT pending more clarity how the 
Implementation Team/Commission is staffed and operates; and how it 
interacts with scientific support. Because the Strategy is an outcome-
based, adaptive strategy, its efficacy is achieved through a balance 
between proactive actions and reactive steps to adapt and or change 
actions if necessary. Therefore, the Service needs to understand in 
more detail how the Implementation Team/Commission functions to 
evaluate data and inform decisions to adapt management that ensure the 
Strategy objective is met (e.g., see Infrastructure, above).
Summary
    In summary the Strategy is a robust approach to conserving GRSG in 
the Great Basin. Many components of the Strategy are strong, in 
particular the underlying foundational elements and grazing management; 
with wildfire and infrastructure similarly strong pending additional 
clarity and refinement as noted. The State of Idaho and the 
stakeholders on the Governor's Task Force have done remarkable work in 
a compressed timeframe as these aspects of the plan address threats to 
GRSG in the Great Basin in a way that gives the Service more regulatory 
certainty, stakeholders more operational certainty, and provides for 
the conservation of GRSG and sage-brush in Idaho that helps ensure more 
resiliency to large wildfires. The elements of the Strategy that the 
Service would welcome more conversations with the State to refine, add 
or clarify in the Strategy include non-federal properties, restoration, 
mitigation, and the operation of the Implementation Team/Commission.

                                  ****

                        Three Cs for Sage-grouse

 Cooperation, Collaboration, and Conservation the Keys to Saving Sage-
                                 grouse

    The State of Idaho has shown itself to be a leader among the 
western states in conserving the greater sage-grouse. The State and its 
stakeholders have been proactively working on sage-grouse management 
and conservation efforts since the early 1950s. As the timeline for the 
sage-grouse listing decision became clear, Governor Otter established a 
15-member task force in early 2012 to take an even closer look at 
addressing both short and long-term solutions to the threats to the 
species and its habitat. The task force was comprised of a wide cross-
section of Idaho's public including ranchers, sportsmen, conservation 
groups, energy representatives, interested public, and federal and 
state agency officials. Our assignment was to develop a detailed, 
science-based strategy for conserving the species alongside land uses 
aimed at avoiding the need to list sage-grouse under the Endangered 
Species Act (ESA). We involved and incorporated the advice of top sage 
grouse biologists and sagebrush habitat scientists.

    As members of the Idaho Sage-grouse Task Force, it has been our 
mission since inception to ensure the species' long-term viability in 
Idaho. We were brought together to develop a regulatory plan to address 
the priority threats to the species' welfare. The intent of our efforts 
was that this plan could become a standard for resource managers as 
they sought to wisely manage habitat in a way that facilitated a more 
secure, resilient sage-grouse population.

    The Idaho sage-grouse plan was quickly recognized as a worthy 
effort. Two years ago, the U.S. Fish & Wildlife Service (FWS), the 
federal agency charged with determining whether or not the species 
would be listed, wrote a letter to Governor Otter stating that the 
foundation of the Idaho Plan was ``solid and grounded in scientific 
concepts . . .'' Further progress was made last year when the Bureau of 
Land Management and U.S. Forest Service listed the Idaho strategy as a 
co-preferred alternative in their draft land use plan amendments. In 
the months that followed, the state worked intensively with the federal 
agencies to narrow the remaining issues and ensure that our strategy 
both meets the needs of the species and federal requirements. It was 
acknowledged by the federal agencies that not only did the state plan 
address the correct threats but it also put forward a strong, 
collaborative, and meaningful effort toward conserving sage-grouse.

    Our plan contains three elements most essential to conservation of 
the species: collaboration, cooperation, and conservation. Importantly, 
this was done collaboratively with a majority of interested parties 
represented on the task force so the product could be embraced and 
implemented by all. This has been the hallmark of the sage-grouse 
conservation work done in Idaho, since the inception of the first local 
working group in the 1990s. Working together in an organized 
collaborative and cooperative way, we believe, is the only avenue for 
success in a situation as huge and complex as this.

    Though the work has been difficult, the federal agencies engaged 
with the State of Idaho in a productive effort to reach a consensus 
conservation plan. However, in the last four months, the Department of 
Interior (DOI) appears to have advanced positions that depart 
significantly from earlier federal input. U.S. Senator James Risch 
recently asked Secretary Jewell in a Senate committee hearing why the 
``goalpost was being moved'' when we were so close to finalizing our 
plan. We are very concerned that these recent shifts will diminish the 
broad support for the Idaho Plan that we worked so hard to achieve. 
When collaboration fails, we believe that efforts to conserve the 
species will suffer.

    We recognize that contentious issues remain between the federal 
agencies and the State of Idaho. We call on the Department of the 
Interior to resolve these remaining issues in a way that conserves 
sage-grouse and fits Idaho's all lands-all hands approach. The work of 
the Idaho task force gives witness to the fact that, all of us, 
collectively, are the best hope for sage-grouse. Working together we 
can get this done.

    Many of us are very concerned about the severe impacts that an 
Endangered Species Act (ESA) listing could have on our industries and 
on land uses in the state. We also firmly believe that conservation 
efforts are most effective when they are based on sound biological 
principles and applied with support of people at the local level. We 
ask that the federal agencies recognize the creativity and cooperative 
spirit that we demonstrated through our task force efforts as positive 
elements to build upon, not deficiencies. We as Idahoans are ready to 
take the actions needed to conserve sage-grouse and the rangelands upon 
which we all rely.
Members of the Idaho Governor's Sage Grouse Task Force:
        Will Whelan                   Gene Gray
        The Nature Conservancy        Local Working Group Rep.

        Brett Dumas                   Rochelle Oxarango
        Idaho Power                   Public at Large

        John Robison                  Russ Hendricks
        Idaho Conservation League     Idaho Farm Bureau Federation

        Richard Savage                Jerry Hoagland
        Idaho Cattle Association      Owyhee County Commissioner

        Chuck Jones                   Dr. Robert Cope
        J.R. Simplot Co.              Lemhi County Commissioner

        Randy Vranes                  Bill Meyers
        Monsanto                      Renewable Energy

        Scott Bedke                   Jack Oyler
        Idaho House Speaker           Sportsmen for Fish and Wildlife

        Senator Bert Brackett
        Idaho State Senate

                                 ______
                                 

Questions Submitted for the Record by Rob Bishop to Mr. Dustin Miller, 
          Administrator, Idaho Office of Species Conservation

Mr. Miller did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

    Question 1. During the hearing, the recent PEW study was referred 
to. Has your state had a chance to review the study including the 
methodology used?

    Do you support the study's conclusion and if not, why not?

    Do you have data to suggest that the conclusions in the PEW study 
are incorrect?

    If yes, please provide any data to the committee.

    Question 2. Please explain the activities of your state to work 
with private landowners in your efforts to create/expand habitat for 
the sage grouse.

    Will the draft RMP revisions enhance your efforts in that regard or 
make such tasks harder?

    Question 3. Are the goals of Director Ashe's October (2014) memo 
consistent with your analysis of the problems facing the sage grouse?

    If yes, please explain. If these proposals miss the mark, please 
explain.

                                 ______
                                 

    The Chairman. Thank you.
    Now we will turn to Mr. Swartout. Not that you are last, 
but you have the last letter in the alphabet that we have here 
today. So, you are recognized.

 STATEMENT OF JOHN SWARTOUT, SENIOR POLICY ADVISOR, OFFICE OF 
GOVERNOR JOHN HICKENLOOPER, STATE OF COLORADO, DENVER, COLORADO

    Mr. Swartout. Thank you, Mr. Chairman, for this opportunity 
to provide our perspective on how the state of Colorado has 
worked to conserve and protect the greater sage grouse. I thank 
you and your colleagues for your thoughtful consideration and 
your efforts to gather the information necessary to properly 
evaluate these matters.
    Colorado has a proud record of collaboration with 
landowners, wildlife managers, ranchers, conservation groups, 
and state and Federal agencies; and together we have made 
stewardship of the species a priority. The state's wildlife 
management agency, Colorado Parks and Wildlife--we call it 
CPW--has exceptionally strong in-house capabilities to develop 
research and science. Colorado puts an enormous amount of 
resources into that development of research and capabilities 
for the agency, and they have developed site-specific science 
regarding the greater sage grouse.
    Relying on that expertise, CPW has collected and analyzed 
Colorado-specific data to assess habitat quality, threats to 
habitat, and the impacts of various changes to habitat for 
greater sage grouse. In 2008, working with landowners, 
stakeholders, Federal agencies, and other state agencies and 
conservation groups, our biologists developed a comprehensive 
management plan for the greater sage grouse, which was designed 
to increase the abundance and viability of the species and its 
habitat.
    In 2013 and 2014, Colorado updated the plan. Additionally, 
Colorado's regulatory framework for energy development 
proactively engages our important oil and gas industry in 
helping to protect the greater sage grouse and its habitat. The 
Colorado Oil and Gas Conservation Commission's 1200-series 
rules require consultation with CPW whenever an operator seeks 
to develop energy resources in sensitive wildlife habitat.
    Concerted cooperation among our agricultural producers and 
our wildlife agency has resulted in the ``Ranching for Sage 
Grouse'' program. This program provides landowners with the 
best-available science and management tools for grazing in 
habitat areas, and protecting the greater sage grouse 
populations. The effectiveness of these broad-based 
conservation efforts are borne out by data.
    Since 2003, Colorado Parks and Wildlife has protected over 
80,000 acres of sage grouse habitat through fee title purchase 
or conservation easement at a cost of just over $52 million.
    Additionally, the land trust community in Colorado has 
protected an additional 154,000 acres of private land in 
greater sage grouse habitat areas through conservation 
easements, including some of the best sage grouse habitat and 
largest leks in the state.
    Since 2005, CPW has expended more than $9.2 million to 
conduct annual operations in support of greater sage grouse 
conservation.
    Just last week, the governor of Colorado issued an 
executive order that calls on state agencies to take further 
actions to reduce impacts on greater sage grouse.
    I must say that the Western Governors continue to work with 
each other and Interior Secretary Jewell within the National 
Sage Grouse Task Force to create robust state and Federal plans 
that protect the greater sage grouse. It has been a tremendous 
effort, and we want to thank Secretary Jewell and her team for 
partnering with us and working on these plans. It hasn't been 
easy.
    In closing, let me just stress this point: Colorado has 
worked closely with many partners across the spectrum, 
including local governments, landowners, conservationists, and 
my friend, Ed Arnett, sitting next to me. A decision by the 
Fish and Wildlife Service to list the greater sage grouse puts 
all this cooperation at risk, and threatens to pull apart the 
coalitions that we built in Colorado.
    To close, I would just like to say that despite all of the 
above and despite our concern about a listing, the governor of 
Colorado thinks that congressional action at this time, to 
delay a listing, doesn't provide the state with the kind of 
regulatory certainty that we need.
    And we continue to work with Secretary Jewell and her team. 
There are difficulties--this is a negotiation--but we continue 
to work with them, and we think we are very close to reaching 
an agreement that will allow us to get to a not-warranted 
decision, that will justify a not-warranted decision by the 
U.S. Fish and Wildlife Service. It has been a difficult effort. 
There are issues that the states have, but we continue in 
earnest to work with the Secretary and her team.
    Thank you, Mr. Chair. That concludes my testimony.
    [The prepared statement of Mr. Swartout follows:]
Prepared Statement of John Swartout, Senior Advisor to Governor John W. 
                    Hickenlooper, State of Colorado
    Mr. Chair, thank you for this opportunity to provide our 
perspective on how the state of Colorado has worked to conserve and 
protect the greater sage grouse. I thank you and your colleagues for 
your thoughtful consideration and your efforts to gather the 
information necessary to properly evaluate these matters.
    Colorado has a proud record of collaboration with landowners, 
wildlife managers, ranchers, conservation groups and state and Federal 
agencies, and together we've made stewardship of this species a 
priority. All of us have worked tirelessly, using the best available, 
site-specific science to protect both the species and its habitat. 
Today I want to briefly describe to you what we've accomplished.
    The state's wildlife management agency, Colorado Parks and Wildlife 
(CPW), has exceptionally strong in-house research capabilities, and its 
biologists have played a critical role in developing and updating 
state-specific science regarding greater sage-grouse.
    Relying on that expertise, CPW has collected and analyzed Colorado-
specific data to assess habitat quality, threats to habitat, and the 
impact of various changes in habitat on greater sage-grouse 
populations. In 2008, working with dozens of stakeholders from state 
and Federal agencies, as well as private landowners and conservation 
groups, CPW biologists developed a comprehensive management plan 
(Conservation Plan) for the greater sage-grouse which was designed to 
increase the abundance and viability of the species and its habitat.
    Following feedback from the U.S. Fish and Wildlife Service (FWS), 
in 2013 CPW completed the ``Colorado Package,'' a comprehensive update 
and status review to the Conservation Plan. The state updated the 
Conservation Plan once again in 2014 in its ``Synthesis Report,'' 
providing additional information on the implementation and effects of 
conservation efforts. These conservation efforts have been designed to 
address the threats initially identified by CPW in its analyses of 
Colorado-specific data, and subsequently mirrored in the Federal 
Government's Conservation Objective Team and National Technical Team 
reports.
    Additionally, Colorado's regulatory framework for energy 
development proactively engages our important oil and gas industry in 
helping to protect the greater sage-grouse and its habitat. The 
Colorado Oil and Gas Conservation Commission's 1200-series rules 
require consultation with CPW whenever an operator seeks to develop 
energy resources in sensitive wildlife habitat. Typically, where 
greater sage-grouse habitat has been implicated, these consultations 
lead to site visits and detailed, site-specific recommendations. An 
independent study of the consultation process showed that industry has 
complied with recommendations received from CPW 97 percent of the time 
when seeking to develop projects in sensitive wildlife habitat.
    Concerted cooperation among agriculture producers and CPW has 
resulted in the ``Ranching for Sage-grouse'' program, which provides 
landowners with the best available science and management tools for 
grazing in habitat areas and protecting greater sage-grouse 
populations. Local efforts to conserve the greater sage-grouse have 
also been robust, as detailed in the Colorado Package and the Synthesis 
Report. For example, local governments in northwest Colorado have 
reviewed their zoning regulations to better accommodate greater sage-
grouse habitat conservation objectives. With 164 grazing and multiple 
use leases in habitat areas, the Colorado State Land Board (SLB) has 
management authority over 393,269 acres of greater sage-grouse habitat. 
Currently, SLB is pursuing a detailed inventory of state trust lands 
located in greater sage-grouse habitat, and will apply site-specific 
adjustments to its management regime based on the results of the 
inventory. The effectiveness of these broad-based conservation efforts 
is borne out by the data.
    Since 2003, CPW has protected over 80,600 acres of greater sage-
grouse habitat through fee title purchase or conservation easement at a 
cost of approximately $52.8 million.
    Additionally, the land trust community in Colorado has protected an 
additional 154,181 acres of private land in greater sage-grouse habitat 
areas through conservation easements, including some of the best sage-
grouse habitat and largest leks in the state. CPW has completed four 
Wildlife Mitigation Plans with oil and gas operators covering a total 
of 57,697 acres in the Parachute-Piceance-Roan greater sage-grouse 
population, incorporating avoidance measures and best management 
practices for minimizing impacts.
    Since 2005, CPW has expended more than $9.2 million to conduct 
annual operations in support of greater sage-grouse conservation.
    Just last week, Colorado Governor John Hickenlooper issued an 
executive order that calls on state agencies to take further actions to 
reduce impacts to the greater sage grouse. Those actions include: 
increasing coordination with Colorado Parks and Wildlife, launching a 
market-based habitat exchange, taking inventory of--and improving 
habitat within--state lands with grouse populations and strengthening 
the role of the Oil and Gas Conservation Commission.
    It's also worth mentioning the same kind of collaborative work 
we've conducted for the Gunnison sage grouse, a sub-species with a 
narrower habitat range than the greater. CPW has invested more than $40 
million on conservation and management of the Gunnison sage grouse 
since 2005. Our partners have contributed an additional $10 million.
    Since 2003, state wildlife managers have protected more than 30,000 
acres of Gunnison sage grouse habitat (primarily via conservation 
easements). About 68,000 additional acres are managed by other 
conservation interests such as The Nature Conservancy.
    Between lands in public ownership and private lands secured by 
conservation easements, about 55 percent of Gunnison sage grouse's 
mapped range has some level of protection from development. Despite our 
proactive and extensive and ongoing range-wide conservation measures to 
protect greater sage-grouse, in 2010, FWS determined that the species 
was ``warranted but precluded'' for listing under the Endangered 
Species Act (ESA) throughout its entire 11-state range.
    FWS must determine by September 30, 2015 whether the sage-grouse 
still warrants protection under the ESA and if so, whether to propose 
an ``endangered'' or a ``threatened'' listing for the species.
    Western Governors continue to work with each other and Secretary of 
the Interior, Sally Jewell, within the National Sage Grouse Task Force 
to create robust state and Federal plans to protect the greater sage-
grouse. It has been a tremendous effort on everyone's part. We want to 
thank Secretary Jewell and her team for their efforts.
    Colorado firmly believes that state-led efforts provide the most 
effective approach to protecting and conserving the species and its 
habitat. The listing of the greater sage-grouse under the ESA would 
have a significant and detrimental economic impact on the state. Given 
the limited resources available to the Federal agencies charged with 
managing a federally listed species, the state is concerned that the 
health and vitality of the greater sage-grouse population may also 
decline as a result of a listing, setting back the conservation gains 
made to date under the our Conservation Plan.
    In closing, let me stress this point: Colorado has worked closely 
with many partners across the spectrum, including local governments, 
landowners and conservationists.
    A decision by Fish and Wildlife to list the greater sage grouse 
puts at risk all this cooperation and threatens to pull apart the very 
coalitions that--to date--have made enormous progress is conserving the 
sage grouse and its habitat. Our partners will be left wondering: What 
was the point of all this effort? We've taken enormous steps to avoid a 
listing and the accompanying Federal intervention only to have our 
efforts answered with a listing. That kind of outcome not only 
jeopardizes our progress with the sage grouse, but any other work we're 
doing to conserve these treasured species in Colorado and the Rocky 
Mountain West.

                                 ______
                                 

Questions Submitted for the Record by Rob Bishop to Mr. John Swartout, 
   Senior Policy Advisor, Office of Governor Hickenlooper, State of 
                                Colorado

Mr. Swartout did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

    Question 1. During the hearing, the recent PEW study was referred 
to. Has your state had a chance to review the study including the 
methodology used?

    Do you support the study's conclusion and if not, why not?

    Do you have data to suggest that the conclusions in the PEW study 
are incorrect?

    If yes, please provide any data to the committee.

    Question 2. Please explain the activities of your state to work 
with private landowners in your efforts to create/expand habitat for 
the sage grouse.

    Will the draft RMP revisions enhance your efforts in that regard or 
make such tasks harder?

    Question 3. Are the goals of Director Ashe's October (2014) memo 
consistent with your analysis of the problems facing the sage grouse?

    If yes, please explain. If these proposals miss the mark, please 
explain.

                                 ______
                                 

    The Chairman. Thank you. We will now turn to the committee 
for questions. I will always go last, in an effort to make sure 
that Rep. Hardy actually gets to ask some questions here today. 
Stick around, we will see what happens.
    Turning to Mr. McClintock, do you have any questions?
    Mr. McClintock. Thank you, Mr. Chairman. The first question 
I have relates to an experience I had a few years ago on the 
Klamath, where they are trying to tear down four perfectly good 
hydroelectric dams because of a catastrophic decline on the 
salmon population. I asked them, ``Well, why doesn't somebody 
build a fish hatchery? ''
    Well, it turns out somebody did build a fish hatchery. It 
produces 5 million salmon smolts every year. Seventeen thousand 
return as fully grown adults to spawn in the Klamath. The 
problem is, they don't let us include them in the population 
counts. I, for the life of me, don't understand why we don't 
allow such things as captive breeding programs to meet the ESA 
requirements. None of us want to see a species go extinct 
because of human activity, but there are so many more flexible 
ways of accomplishing that.
    Ms. Clarke, what are your thoughts?
    Ms. Clarke. I am somewhat familiar with the predicaments on 
the Klamath, and have great empathy for those who have been 
impacted by the listings that are involved there.
    I believe we have to find better ways to do things; and I 
think, as the Chairman said, part of what we hope to accomplish 
in this hearing is to consider innovation and new ideas to 
break some of the traditional fixes that have not proved to be 
effective. I don't think we have to sacrifice human activity--
--
    Mr. McClintock. I hate to interrupt, but my time is short. 
That is precisely my point. To add insult to insanity, when 
they tear down the Iron Gate Dam, the Iron Gate fish hatchery 
goes with it; then you do have a catastrophic decline.
    Ms. Clarke. That is right.
    Mr. McClintock. Mr. Miller, aren't there better ways of 
doing things than what we are doing to achieve the ESA goals?
    Mr. Miller. Yes, Congressman, there are, and that is 
through our state-led planning efforts. We are closest to the 
ground, sir. Our local biologists and scientists know more 
about the species than our Federal partners do. So I believe, 
really, in the state-led effort to implement our conservation 
strategies on the ground.
    Mr. McClintock. I don't have a lot of sage grouse in my 
district, but in our region, in the Sierra Nevada, we have had 
similar experiences with critical habitat designations.
    For example, sound forest management practices were 
prevented over vast tracts of our forests to preserve spotted 
owl habitats. The irony of that is the forests, because of 
that, became dangerously overgrown and ultimately were 
incinerated by two catastrophic wildfires that also took out 
nearly 50 spotted owl habitats. It reminds me of the Vietnam 
War maxim, ``We have to destroy these habitats to save them,'' 
and that is exactly what these policies have done.
    We now have 2.2 million acres of the Sierra declared 
critical habitat for the Yosemite toad and the Sierra yellow-
legged frog, despite the fact that the national Fish and 
Wildlife Service admits that human activity is not the 
principal reason for the decline in these populations--it is 
non-native predators that just love to eat the little things, 
and a virus that is decimating amphibian populations throughout 
the Southwest. It is not human activity, and yet 2.2 million 
acres of the Sierra--essentially, the entire footprint on that 
range--is now subject to additional restrictions that make 
forest management all the harder, and are setting the stage for 
another catastrophic event.
    What would the states do differently, Mr. Miller?
    Mr. Miller. Obviously there are things, Congressman, that 
are concerning to us about the current implementation of the 
Endangered Species Act. We do need to see some modifications to 
that statute to ensure that state-led efforts are a priority. 
Again, I can't emphasize enough the local science and the local 
actions from our stakeholders are very important in driving 
forward sound policies that balance the appropriate level of 
conservation of our fish and wildlife populations with 
maintaining economic vitality----
    Mr. McClintock. Let me ask you this question. How much of 
the problem is the law, and how much of it is ideological 
zealotry by those who are currently administering the law?
    Mr. Miller. Congressman, I feel that, obviously, there 
are--we do need to see some changes to the Act; but I think the 
courts have interpreted the Act in a fashion that is contrary 
to what the writers of the Act back in 1974 intended. I think 
we have gone too far from the original intent of the Endangered 
Species Act.
    Mr. McClintock. OK, thank you.
    The Chairman. Thank you. Do you want some sage grouse in 
your area?
    [Laughter.]
    The Chairman. We can arrange that.
    Mr. McClintock. As long as there aren't any strings 
attached.
    The Chairman. Well, you can't get that one.
    All right. Mrs. Dingell.
    Mrs. Dingell. Thank you, Mr. Chairman. And thank you to all 
of our witnesses today.
    I want to take a step backward from the discussion that we 
have been having, because I think despite some of the tension 
in the room, I really think that there is some agreement about 
the importance of protecting the greater sage grouse and the 
significant role that the bird plays in local ecosystems and 
economies.
    I, like you, have never seen the sage grouse; but I am 
married to a man that has, and knows its importance. So, I 
think I want to go back, if I can get through my questions, to 
ask you a question about the original intent of the Endangered 
Species Act. But first, I would like--because we do have 
different views and ideas about how to get there--I would like 
to explore that a bit further.
    Dr. Arnett, I found your testimony very interesting, at 
2:00 a.m. this morning, as you tried to bring the Federal and 
the state level together. I think everyone in this room wants 
to avoid a listing of the greater sage grouse under the 
Endangered Species Act. What do you think the best way to 
accomplish that is?
    Dr. Arnett. Thank you for the question, Congresswoman. I 
believe, in both the written testimony and in my oral comments, 
we think this is a comprehensive view of Federal and state 
collaboration and strong conservation plans on both Federal and 
state lands, in conjunction with these voluntary efforts and, 
quite frankly, easements, which are contractual agreements with 
private landowners to conserve habitat and manage their lands 
differently.
    Again, it is not an either/or. We need all of the above in 
managing the landscapes. These are diverse landscapes across a 
wide range of conditions, and it requires all of the above 
approach, in my opinion, with multiple tools--that includes 
mitigation and some pretty creative mitigation tools in the 
toolbox these days that have been brought forth in the form, 
not only of the traditional conservation banking, but also in 
these exchange programs. These are all tools that we need to 
put collectively forward.
    But the science is clear that we do need the habitat, first 
and foremost, and we need to manage that habitat. That has been 
brought out very clearly, quite frankly, with my state 
colleagues, as well.
    Mrs. Dingell. So your testimony, your written and your oral 
here, talks about the partnership between the state and the 
Federal level. Yet the testimony and discussion we have heard 
this morning--and in the written last night--alleges the states 
have not been involved in the process.
    Can you give us background, and maybe expand a little on 
the role that state agencies have played in that effort? Again, 
as you just said, the critical role of both of them playing 
together, can the Federal not be involved in any way? How would 
that work? Do you agree that the states haven't been, and that 
they are the best in--it is really a difference of opinion 
between the two of you sitting next to each other.
    Dr. Arnett. I am not convinced we are that far apart. But I 
think, clearly, it has been stated by everyone that the states 
have been engaged.
    And a little bit of history--this is nothing that just 
popped up last month or 10 years ago, or even 5 years ago. This 
is something that has been of concern to biologists, wildlife 
professionals in the state agencies and the academic world, and 
those that are out on the ground for some number of years--
decades, quite frankly. WAFWA established a monitoring program 
back in--Western Association of Fish and Wildlife Agencies; my 
apologies for the Acronese--the WAFWA group led efforts back in 
the 1950s, put together monitoring to track sage grouse, and 
started some of the research endeavors.
    Back in the 1990s, the concern began to increase. And, 
actually, it was state biologists that were considering the 
petition to list. This didn't come from the green groups; this 
came from biologists that were really concerned about a number 
of different things: loss of habitat, declining numbers of 
birds. The states have led many of these efforts--the state 
biologists, as Dustin pointed out very clearly, have direct 
authority of wildlife populations. They always have had 
authorization to manage populations, whereas the state, the 
overall state governments, manage state lands, state-owned 
lands, and the Federal Government manages the habitat.
    The states have always had cooperating agency status. They 
have always been engaged. I am not going to try to speak, 
especially for the three states here, or any other state, as to 
what that cooperation has looked like or if it could have been 
better--my guess is I suspect it can, it can always be better 
in terms of collaboration; but the states have always been at 
the table. In my opinion, the wildlife agencies have, in fact, 
been there. Their advice hasn't always been heeded, 
necessarily.
    So, the biologists have had concerns for some time. They 
put together the original strategy--whoops, am I over? Sorry.
    The Chairman. You are.
    Dr. Arnett. It is a 5-minute response to each question, 
isn't it? I just realized that.
    So, I think my conclusion is that the states definitely 
have been engaged, they have cooperating status, and they have 
been partnering with the Feds, and we are very close to getting 
to a consensus.
    The Chairman. Thank you.
    Mr. Benishek.
    Dr. Benishek. Thank you, Mr. Chairman. Thank you all for 
being here this morning. I appreciate your questions, Mrs. 
Dingell--my colleague from Michigan, by the way.
    I would like to ask you all about the working relationship 
that you have with the Federal Government on conservation 
issues. Now, we have talked about the state's efforts to do 
this management; and, frankly, I agree with you, because I 
think that the Feds just don't have the intimate knowledge of 
the states that local conservation people do. They know the 
areas that are involved, so I am on board with you.
    But I want to know what level of cooperation exists at this 
point in time? Could maybe each of you kind of clue me into 
that briefly, so that I could ask another question?
    Ms. Clarke. Would you like me to go?
    Dr. Benishek. Sure.
    Ms. Clarke. Thank you for the question. We have had a very 
good working relationship with our Federal partners in the 
state of Utah. It started out, I think, as a real partnership. 
We worked closely together. We had a task force of higher-level 
officials that met periodically, and we continued to meet.
    But at a couple of different stages in the process in the 
evolution of this we started getting top-down directives which 
seemed to contradict the conservation objectives that we had 
all agreed to. Most recently, we have had some additional ones 
that are very----
    Dr. Benishek. What do you mean by a top-down directive, 
then?
    Ms. Clarke. Well----
    Dr. Benishek. Explain that to me.
    Ms. Clarke. We are getting a new overlay of constraints 
that are going to be imposed upon the land use plans that, at 
least in the case of Utah, we believe do not address the 
threats. What they do is constrain human activity, and they 
threaten the economic stability of our state, and our 
educational incomes to support our students; so it is 
troublesome.
    Dr. Benishek. I appreciate that answer. Mr. Miller, could 
you give me an answer?
    Mr. Miller. Yes, Congressman, real quick. To echo Ms. 
Clarke's statement, we, in Idaho, have engaged with our local 
Federal partners at a very high level. I mean this has been a 
collaborative from the start--with the Idaho BLM office, the 
local Fish and Wildlife Service office, and the Forest Service. 
We built a really good, cohesive strategy together by blending 
our two co-preferred alternatives: the Governor's alternative 
with the internal BLM and Forest Service alternative; a solid 
plan that addresses the needs for greater sage grouse, but 
balances that with maintaining predictable levels of land use 
activity in our state.
    And, again, to echo Ms. Clarke's statements, the 
frustration lies with this recent top-down direction from the 
national BLM office that occurred in January for insertion of 
additional requirements into these specific land use plan 
amendments, environmental impact statements. There are things 
within that national direction that are very concerning to the 
states.
    We have engaged with the Department of the Interior to 
resolve those issues, and I truly believe that there are folks 
at Interior and the national BLM office that want to find a 
solution to some of these complex remaining issues, one being 
the sagebrush focal area map and associated rule set. That was 
never vetted with the state----
    Dr. Benishek. Let me ask Mr. Swartout if he agrees with 
that assessment, that there is some top-down directive in 
changing the plan that doesn't seem to be effective in the 
management of the grouse.
    Mr. Swartout. Thank you for the question, Congressman. In 
Colorado we have been dealing with these issues for a long 
time. And I think the real issue, where the Endangered Species 
Act becomes adversarial to some degree, is in the structure of 
the role that U.S. Fish and Wildlife Service, where they are 
required to measure regulatory measures, right?
    They have to take those regulatory measures, and they are 
often litigated. And that is their primary focus, whereas 
states have put enormous value on cooperation and partnerships. 
We work with the Cattlemen and the Farm Bureau and local 
landowners, conservation groups, industry; and states put the 
weight on those activities.
    The key issue is finding the balance between those two 
things within a listing decision. So, have things been added as 
Idaho and Utah described? Yes. But that is a part of what we 
deal with, with the Endangered Species Act, is that--trying to 
find the balance between regulatory measures and state 
cooperative partnerships is really what the struggle is all 
about; and we are hopeful to get that balance right and get to 
a not-warranted decision.
    Dr. Benishek. Thank you. Well, we are out of time. Thank 
you----
    The Chairman. Thank you.
    Mr. Polis.
    Mr. Polis. Thank you. I want to begin by thanking our 
friends at the American Museum of Natural History for the 
wonderful preserved heath hen, which, again, used to commonly 
roam from Virginia to Massachusetts. They are now extinct. They 
are a related species to the greater sage grouse, and, of 
course, we hope that Congress itself does not cause the greater 
sage grouse to go the way of the heath hen and the dodo.
    I want to go to Dr. Arnett. Two legislative proposals have 
recently emerged that would delay an Endangered Species Act 
listing decision on the greater sage grouse through legislative 
action. What, from your perspective and expertise, would a 6- 
or a 10-year delay in listing mean for the greater sage grouse? 
And do you think the bird would be in better shape or worse 
shape?
    Dr. Arnett. Well, of course, being a scientist, I have to 
say it depends on what actions that are taken.
    In 2005, during the not-warranted listing decision, Utah 
may have taken a lot of progressive, proactive steps and 
continued that conservation effort. But my colleagues, the 
Western Association of Fish and Wildlife Agencies, have noted 
to me that a lot of those proactive conservations came to an 
end; and I think that, without a little bit of crisis involved 
here to push the effort, I am not sure that the foot would stay 
on the gas, personally.
    Quite frankly, this is a concern, if we get to a not-
warranted, which is what we define as success, and I think 
everyone here defines as success, is that we need long-term 
sustainability for the management----
    Mr. Polis. In your opinion, if the listing was 
legislatively delayed 10 years, do you think a listing at that 
time would be even more likely, given the likely state of the 
bird and the withdrawal of some of the state efforts that they 
are engaging in?
    Dr. Arnett. We think it is likely, and keep in mind that 
the bird is still--is warranted, but precluded. That would 
seemingly give a lot of uncertainty to a business owner or 
someone else trying to plan out into the future. I think we are 
better off getting the plans done now, with some long-term 
commitment goals and objectives, and giving them more certainty 
than waiting 6 years to see what happens.
    Mr. Polis. Mr. Swartout, you spoke about the significant 
success Colorado has seen in sage grouse habitat conservation 
through the efforts of state, local, and private players. You 
also mentioned how important site-specific variables are in 
management of the grouse.
    That being said, what are your thoughts on attempts made by 
this body, here in Washington, to give national directives 
through bills like the Defense bill, in terms of how sage 
grouse is managed?
    Mr. Swartout. Thank you, Representative Polis. As you know, 
we have invested enormous resources, but these issues concern 
all of our constituents in the 11 states; and Congress 
certainly has the freedom to intervene as they choose, because 
they also represent those constituents.
    But we have, as I mentioned in my testimony, we have been 
working very diligently with Secretary Jewell, her team, the 
BLM, on trying to come to a successful conclusion in our BLM 
plans and our state-led conservation efforts to protect sage 
grouse. We continue to focus on that, and we have a path 
forward to get there. It is difficult, and it has been 
difficult, as described by Utah and Idaho in their testimony; 
but the Governor's goal is to still find a path forward to get 
to a not-warranted decision.
    Mr. Polis. Thank you.
    Dr. Arnett, as you know, last month the Fish and Wildlife 
Service announced it would not list the bi-state population of 
the greater sage grouse in Nevada and California under the ESA 
because adequate safeguards to conserve the species were put in 
place by the state and Federal managers. Do you see any reason 
why a similar outcome can't be reached for the range-wide 
population of greater sage grouse, and is that a good model?
    Dr. Arnett. We do not. We believe that we can get there. We 
believe there are investments that have been put forward by the 
states, strong conservation plans that complement those state 
efforts on Federal properties, and private landowner engagement 
that is unprecedented.
    Mr. Polis. And do you think that Congress not politically 
or artificially delaying or taking this out for 10 years and 
making sure that that pressure exists is an important part of 
reaching the kind of arrangement that was done in Nevada and 
California for the greater sage grouse?
    Dr. Arnett. Our position is that a delay is not necessary, 
unless, and I will say this again--if the Fish and Wildlife 
Service came to us and said, ``There is some timeline that we 
know we will get to a not-warranted''--I suspect we can support 
that; but we haven't heard that yet.
    Mr. Polis. Great. Well, I----
    Dr. Arnett. And just real quickly, sorry to interrupt you--
--
    Mr. Polis. Yes.
    Dr. Arnett. The track record issue is an important one, 
because track records have to be established by all of these 
players. But, again, that should be driven by the Service 
saying that we don't have it, and if we had this amount of time 
to see it. I don't know that we need the life cycle of the 
species to see--one cycle of a generation to see that happen.
    Mr. Polis. Thank you, and thanks again to the American 
Museum of Natural History. I yield back the balance of my time.
    The Chairman. Too bad they didn't breed that thing for you.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Just real quick, I 
think what I hear and what I read is that wildfire and invasive 
species are the largest threat. But it seems like the 
environmentalist movement is wanting to threaten the 
development of energy, oil and gas, in the sage grouse region. 
I have concern about that. How do we address that wildfire and 
invasive species ought to be the focus.
    I don't have a dog in the fight. I am going to yield my 
time to the gentleman from Montana, Mr. Zinke.
    Mr. Zinke. Thank you, Mr. Chairman. I guess the 
collaborative process is an enormous effort. It takes experts 
sitting together at a table, and when the Federal Government, 
or a higher authority, intervenes and say they know best, it 
concerns me. It concerns me in Montana that I have talked to 
the Director of the BLM. Nowhere do I see what a healthy 
population number is in Montana, and we are talking about 
Montana, where the CMR is larger than most states.
    So, when I don't know what a target number is, when the 
plan doesn't have anything constructive, other than habitat, 
when it doesn't address wildfire, it doesn't address predators, 
and yet, locally, the farmers, the ranchers, the people that 
live on the land have expressed a considerable desire to save 
the species in a constructive manner that looks at predators, 
looks at wildfire, looks at weather--and so, I guess my 
question to Ms. Clarke is that you have been around this 
process. Other than perhaps a taxidermy, or the Smithsonian 
Institute, is there an example of the sage grouse within the DC 
area, living?
    Ms. Clarke. I am not aware that there are any sage grouse 
in the DC area.
    Mr. Zinke. Well, why then would Washington, the 
bureaucracy, given there are no sage grouse here--in your view, 
why would they decide what is best for Montana or the western 
states, that have a deep, traditional concern for wildlife 
management? Why would the bureaucracy here think that they have 
a better management plan than the western states?
    Ms. Clarke. I think it is the culture in Washington. I 
think not just the agencies at Interior, but so much of 
Washington gets removed from reality. I think it is a matter of 
respect, and showing the due respect to the local people out in 
the West. Sometimes it is the farmers and the ranchers, who 
aren't scientists, that get it the best. They understand the 
land and the resources, and what is going on.
    Mr. Zinke. So we agree. We need more scientists and less 
lawyers out in the field.
    But also, what is the effect? You have gone through this 
process much more than I. And I am a Teddy Roosevelt 
conservationist. I love the land, and I think species are 
absolutely critical that we maintain; but what is the effect of 
going through a collaborative process, and then disrupting 
that? What is the frustration and what is the effect of not 
having the value in respecting the process of a collaborative 
effort in the state?
    Ms. Clarke. Well, I think part of the response is what you 
are seeing from Congress. There are those who say that 
collaboration is not working, it is becoming heavy-handed, the 
state's input is being devalued, and so we have to find another 
solution.
    We hope we can find a workable solution with or without 
congressional intervention. We do not need a listing. The 
states are incredibly capable and committed to conserving the 
sage grouse, the habitat. These are our homes, this is where we 
live. We want it taken care of, not just to avoid a listing, 
but because we want that land and those species to be viable 
for our children and our grandchildren.
    Mr. Zinke. You are an expert in this area. Would you not 
say that predator control, wildfire management, as well as 
habitat should be a part of the solution, other than just 
concentrating on habitat?
    As an example, I sat down with the Director, and I asked 
him, ``Why is the population--Why is it down in Montana? '' He 
mentioned oil and gas exploration. Now, Montana is a pretty big 
state. In this committee I have often said Montana is between 
Washington, DC and Chicago, plus 2 miles.
    Now, I went and reviewed how many active-duty oil rigs we 
have in the great state of Montana. We had one at the time. Now 
we have zero. So I don't think oil and gas exploration has been 
a significant cause of the diminishing stock. But, again, you 
go out to the farmers, the ranchers, those who live on the 
land, it is predators.
    So, do you agree that we should be looking at predators, 
rather than cutting down juniper trees?
    Ms. Clarke. I think predators are an important issue. In 
Utah, they certainly are. And I do think we need better 
stewardship of Federal lands.
    Mr. Zinke. Thank you. Thank you, Mr. Chairman.
    Mr. Duncan. I yield back.
    The Chairman. Thank you.
    Mr. Grijalva.
    Mr. Grijalva. Thank you.
    Doctor Arnett, something that I think we need to clear up 
in this hearing. Is it true that activities relating to 
existing energy leases, mining claims, grazing permits, and 
other existing legal arrangements will not be affected in any 
way by Federal land management plans now under consideration 
for the sage grouse conservation, particularly even in the 
strongholds? It has caused all this unnecessary consternation 
at this point. Can you explain to the committee that point?
    Dr. Arnett. That is correct, Congressman. Valid and 
existing rights do not apply to the conservation efforts that 
are ongoing. To my knowledge--and I have not had the luxury of 
seeing the final Bureau of Land Management plans, but the focal 
areas in question, I would assume, have been developed 
without--in areas that do not have certain valid and existing 
rights, I would assume.
    Mr. Grijalva. Thank you. One quick question, Mr. Miller. 
Mr. Swartout mentioned that a delay is unnecessary, and that 
adequate conservation measures could be put in place to reach a 
non-warranted decision for the greater sage grouse. Do you 
agree that a delay is unnecessary?
    Mr. Miller. Well, Congressman, as I indicated in my 
statement, we still have remaining issues that we are trying to 
work through Interior to get to a mutual agreement on what our 
final conservation strategy between the state and the Federal 
Government should look like.
    We, obviously, are running out of time. The final 
environmental impact statements are slated to be released later 
this month or early June. We don't want to sell ourselves short 
on time, and our ability to negotiate further with the Interior 
Department on these remaining issues.
    Mr. Grijalva. OK. So, you don't know if a delay is 
necessary or not.
    Mr. Miller. Well, Congressman, Governor Otter is definitely 
supportive of an extension if we need more time to resolve 
these remaining issues. And, like Dr. Arnett said, if there is 
a need to demonstrate a track record here, there has been a 
delay with the release of these Federal EISs.
    Mr. Grijalva. Would you consider significant progress as 
also a part of the criteria for an extension?
    Mr. Miller. We have made significant----
    Mr. Grijalva. No, I am asking. Would that be part of the 
criteria?
    Mr. Miller. Well, yes.
    Mr. Grijalva. OK. Dr. Arnett, early on, the comparison was 
made between the northern spotted owl and the sage grouse, and 
how that comparison is valid or not. How fair is this 
comparison?
    Dr. Arnett. I think there are definitely parallels. But it 
is also a very different situation. One parallel of interesting 
note, the biologists that I worked with for years in the timber 
industry warned the timber industry of the northern spotted owl 
in the 1970s, and it took a long time for that to manifest, 
until the bird was actually listed--getting back to the point 
about having the specter of ESA in front.
    It is a different situation. Obviously, covers a broader 
range of conditions. And one of my feelings is that a failure 
in the spotted owl plan wasn't relied too heavily on a system 
of Federal reserves, and needed to better integrate with 
private lands and state lands----
    Mr. Grijalva. The collaboration issue that we have been 
talking about today, states and the Federal agencies, how did 
that nexus work with regard to the spotted owl, or----
    Dr. Arnett. Well, it was driven by President Clinton, his 
forest plan and the forest summit. It came from that. Again, 
that generated the forest plan that was then later applied in 
that late successional reserve program, and then the states 
managed private lands. But I think there needed to be a better 
integration of the private sector and state lands in a broader, 
comprehensive strategy. That would have been helpful.
    Mr. Grijalva. Would you compare the job, in terms of 
collaboration on the sage grouse process as we are now, better 
than or----
    Dr. Arnett. I don't think we have seen anything like what 
we have seen with the sage grouse issue in my career.
    Mr. Grijalva. Thank you, I yield back.
    The Chairman. Thank you.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. I appreciate this. 
This is also very critical in my northeast California district 
that borders Nevada and Mr. Amodei's district, where the sage 
grouse, or otherwise known as sage hen, is quite an issue. The 
bi-state situation was a good sign.
    The problem is, with the threat of any kind of list, some 
are referring to it as a good pressure. But what we have are 
Federal agencies that are unable to keep up with the management 
of their lands, whether it is BLM or the Forest Service. So, we 
have this proliferation of juniper, big-time, in our area here, 
and a listing just takes options off the table. I imagine the 
juniper eradication is going much more slowly because we are 
pussy-footing around. There might be sage hen habitat out there 
that is a problem, but we don't nearly keep up with the juniper 
or--Mr. Zinke mentioned predators, too. That is a bigger 
consideration we ought to be looking at. Maybe not as much in 
my area as his, but--all the options.
    What are the things that you would actually do to really 
improve the situation? We move so slowly with EISs and studying 
and talking, and all this, when it is the farmers, the 
ranchers, it is the people that live in the area that actually 
know and understand what it takes, where the species is, what 
it would take to help make it a little better, you know?
    I mean the regulation, the threat of listing, has gotten 
everybody's attention. Farmers and ranchers are willing. These 
landowners, the ones that are adjacent to the Federal lands, 
they are willing to do things. Maybe in the past there were 
some stiff-necked folks, I certainly get that. But they are 
willing to step forward and do it.
    When we have these listings--as Mr. McClintock mentioned 
with the Yosemite toad, yellow-legged frog and all that, 2 
million acres are--who knows? By the time they are done 
implementing their plan, their proposal, it will probably mean 
people can do less things in the area to manage timber, to 
manage the lands, to do things that would dovetail well with 
the species and its recovery. It will just be off limits, 
instead. The whole forest will burn. In the case we are talking 
about here, more and more juniper grows because we are afraid 
we might disturb a nesting grouse, instead of doing things that 
are going to improve it.
    It is a big frustration. So, I don't think any more 
pressure to go through with a listing, especially since so many 
listings these days come from a deal cut by government with a 
bunch of environmental groups that have a long Christmas wish 
list of species they want to list, and there is no time to go 
through all those processes, because they take so long, so they 
get sued, they just cut a deal, list them anyway. That is the 
great frustration I see out in districts like mine and 
neighboring ones.
    So, Ms. Clarke, again, up there in Utah, have you seen that 
the sage grouse are actually using the treated areas that the 
state is creating? Is it something----
    Ms. Clarke. It is amazing. They absolutely are. Often, they 
move into them almost immediately. Within months we see sage 
grouse moving into restored habitat. So, absolutely, it is 
effective.
    Mr. LaMalfa. Because you have had the ability to move a 
little more quickly and efficiently in getting these areas set 
up.
    Ms. Clarke. That is right. We have a 10-year plan to go out 
and remove pinyon juniper throughout the state in sage grouse 
management areas. We need to get past the timely problems of 
getting an EA done, so that we can do that on Federal land, as 
well. We want to work with the Feds as well as private 
landowners to move quickly and remove that PJ and improve 
habitat.
    Mr. LaMalfa. So, are the Federal folks, do you feel like 
they are just hand-tied to be able to move things as quickly 
as--efficiently as----
    Ms. Clarke. Our local players in the BLM and the Forest 
Service are so eager to participate because they like the 
vision and the capacity they see in the state of Utah, but 
sometimes they are hog-tied by regulations. And they----
    Mr. LaMalfa. So they want to do it, but they don't----
    Ms. Clarke. They are not nimble.
    Mr. LaMalfa. They don't have the ability. Washington is not 
giving them the ability to do that by----
    Ms. Clarke. They are constrained.
    Mr. LaMalfa. Yes, OK. That has to be highly frustrating for 
everybody wanting to do that.
    Mr. Miller, in Idaho--coming back to the wildfire piece 
there--I imagine you have a pretty big problem with that, as 
well. What success is the state of Idaho having on addressing 
wildfire and lessening that?
    Mr. Miller. Congressman, thank you for the question. And, 
real quickly here, I would say one of the most significant 
actions we have taken in the state of Idaho has been the 
creation of rangeland fire protection associations, comprised 
of landowners and ranchers in very remote areas of sage grouse 
habitat that play a crucial role in initial attack in keeping 
fires----
    Mr. LaMalfa. Now, as we are running out of time, how is 
this interfacing with Federal lands, or Federal agency 
cooperation, or lack of? How is that going?
    Mr. Miller. Congressman, there is a lot of collaboration 
with these range and fire protection associations--Federal 
resources and state resources. These members of these RFPAs are 
trained pursuant to Federal and state wild and fire-fighting 
protocols.
    Mr. LaMalfa. The Chairman is using some timber up there. I 
thank you.
    [Laughter.]
    Mr. Miller. Thank you, sir.
    The Chairman. About to throw it at you all.
    Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman. Looking at the 
photograph here of the sage grouse, it is obviously a very 
beautiful bird, much like the heath hen. We don't have any of 
those in Arkansas. Matter of fact, if we were to see one, 
someone might assess that a bobwhite quail got too friendly 
with a dominecker hen. But, although we don't have sage grouse, 
we do have endangered species.
    Ms. Clarke, you mentioned in your testimony that people 
manage species and regulations manage people. Do you feel that 
the threat of a listing is being used to micro-manage state 
policies and land use decisions?
    Ms. Clarke. At this point I feel like it is--that the 
motivation is more to manage land, and to restrict human uses 
of land, rather than to manage species.
    Mr. Westerman. Are these efforts directed to avoiding the 
threat of extinction, or based on the actions of Federal 
regulators?
    Ms. Clarke. Well, I think it is the Federal regulators. 
What their motivations are, I am not going to pretend to know. 
But at this point, the way we assess the threats in Utah, this 
latest round of land management restrictions do not address the 
threats that the sage grouse face in the state of Utah.
    Mr. Westerman. And you referred to this earlier, but I have 
seen the same instance in my state, where the Federal employees 
who work for the Forest Service or Fish and Wildlife are really 
there on the ground, wanting to do the right thing, but yet it 
is regulations out of DC----
    Ms. Clarke. That is right.
    Mr. Westerman [continuing]. That are----
    Ms. Clarke. And sometimes it is policy out of DC.
    Mr. Westerman. All right. Mr. Miller, your state has been 
the jurisdiction of choice for groups who prefer to manage sage 
grouse through Federal court decisions. Has it been your 
observation that the litigation is making a positive difference 
on the ground? Or is it just more paralysis by analysis?
    Mr. Miller. Congressman, I would agree with the latter. The 
volume of litigation in our state regarding land use activities 
is high. It is significant, and oftentimes the problem is that 
the resource suffers as a result. When those land managers that 
should be out there working with the resource users and working 
to ensure a balance is struck between conservation and 
multiple-use activities, when they are stuck in their offices 
working on FOIA requests or trying to figure out how to address 
these litigation challenges, the resource suffers and the users 
of our public lands suffer.
    Mr. Westerman. As we have talked about a little bit, the 
Idaho sage grouse habitat is particularly vulnerable to 
wildfire and invasive species. Does the Governor's plan 
recognize and address these threats?
    Mr. Miller. Absolutely, Congressman. And, in fact, that is 
where our task force put the majority of their effort.
    Wildfire and invasive species are the primary threats in 
Idaho and other Great Basin states. If we did nothing to 
address those threats, then this bird would be in trouble; but 
we do have a suite of robust conservation actions within our 
strategy to adequately deal with those threats.
    Mr. Westerman. So is it your assessment that the sage 
grouse is doing better on state-controlled lands or federally-
controlled lands?
    Mr. Miller. Well, the majority of the habitat in Idaho is 
managed by the Federal Government, about 74 percent. And 
another 6 percent is on our state endowment lands. It is tough 
to tell you which--you know, the majority of the populations 
are on Federal land, as a result. So that is a difficult 
question to answer.
    Our state lands are managed differently than the Federal 
lands. We have a constitutional mandate to maximize revenue 
generation on those state lands, which includes utilizing 
livestock grazing. Our plan also utilizes and recognizes 
livestock grazing as part of the solution, from a fuels 
reduction standpoint. So, that is a difficult question to 
answer, how the populations are doing on state lands, compared 
to the Federal lands. But again, the user groups are part of 
the solution in Idaho on dealing with our threats.
    Mr. Westerman. Ms. Clarke, do you have any data in Utah on 
the state versus Federal lands?
    Ms. Clarke. No. In Utah, about half of our sage grouse 
habitat is on private land. And, interestingly, I don't think 
the Feds can conserve sage grouse on Federal lands alone, 
because the settlers in Utah were smart folks, and they settled 
prime lands that are now a critical part of the habitat of 
year-round live habitats for the grouse. So we have to have a 
landscape-level integrated plan to make it work.
    Mr. Westerman. Thank you.
    The Chairman. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. Thank you all for 
being here. I appreciate you offering testimony and 
perspective.
    Ms. Clarke, I apologize that I missed your oral testimony, 
but I did have a chance to read through your written testimony, 
and I see a number of statements here regarding frustrations.
    Let me ask. Do you think the sage grouse--and I am sure I 
am asking you to repeat yourself--is worth protecting?
    Ms. Clarke. I think the sage grouse is worth protecting. 
I----
    Mr. Graves. Mr. Miller?
    I am sorry.
    Ms. Clarke. Go ahead.
    Mr. Graves. Mr. Miller, I assume----
    Mr. Miller. Absolutely. Without question.
    Mr. Graves. OK. All right, I----
    Mr. Miller. No question.
    Mr. Graves. Great, thank you. In reading this, it seems 
that there appears to be some frustration. I don't want to put 
words in your mouth, but the disconnect, perhaps, between the 
Federal Government coming in and taking a one-size-fits-all 
approach, as compared to giving you the ability to develop more 
prescriptive plans in your states to manage these species.
    Ms. Clarke, in your written testimony, there is a dichotomy 
developing between the state of Utah's collaborative planning 
process and growing Federal unilateralism. It is becoming 
increasingly imbalanced and adversarial. Results have been 
stunning and directly contradict the recent gloom and doom 
predictions concerning sage grouse. Of course, that is 
pertaining to the efforts that Utah has undertaken.
    Then, last, you are experiencing numerous frustrations 
working with the Federal land management agencies. Federal 
agencies are focusing most of their effort on finding new ways 
to regulate human activity, relentless efforts to force more 
standardized and irrelevant mandates on the use of land not 
only threatens the conservation of species, but unnecessarily 
imposes hardship on the hardworking citizens of the West.
    You have indicated your willingness and your belief that 
the species should be protected. It sounds like, in this case, 
that the state believes that it can develop a more prescriptive 
approach that may result in better results than, again, the 
one-size-fits-all approach of the Federal land management 
agencies. Is that accurate?
    Ms. Clarke. That is absolutely true.
    Mr. Graves. Mr. Miller, do you care to offer any additional 
comments in regard to that line of questioning, and the ability 
of the state to develop a tailored plan, based on your actual 
habitat, as compared to having the Federal Government come in?
    Mr. Miller. Yes, Congressman, and I will read the first 
sentence of my closing paragraph.
    Mr. Graves. Yours is a little thicker; I didn't get all the 
way through it.
    Mr. Miller. ``The state of Idaho holds to the notion that 
local collaboration, local ideas, and local efforts garner the 
greatest results.'' We believe that we have done that through 
our collaborative planning effort. Our local scientists have 
done one heck of a job in Idaho on providing us with the 
necessary data and the conservation actions necessary to 
conserve this species in concert with our multitude of land use 
activities in the state.
    Mr. Graves. Thank you. Ms. Clarke, your perspective is 
unique, in that you have had both Federal and state experience. 
I am sure that must be very helpful in your efforts here.
    Mr. Chairman, I can't help but think I have seen this 
before, and I am not real sure where, but a situation where the 
states and the Federal Government probably have the same 
objective in regard to the sustainable management of species, 
where the states can develop more tailored plans that are 
better equipped, based upon their constituents and the habitat 
that they are specifically facing, yet the Federal Government 
is coming in and managing unilaterally.
    Mr. Chairman, I can't tell you how much I appreciate you 
having this hearing today. I can't tell you how much I agree 
with you that this is exactly how species should be managed. 
And I just want to congratulate you for your great work. Thank 
you, Mr. Chairman. I yield back.
    The Chairman. Thank you, Mr. Graves. As you leave, maybe we 
can get some sage grouse down in Louisiana, so you can 
complement that with the red snapper. Is that what you are 
talking about?
    Mr. Graves. That is right. For those that aren't drawing 
the parallels, that would be with red snapper. Thank you.
    [Laughter.]
    The Chairman. I got it, yes. OK.
    Mr. Newhouse.
    Mr. Newhouse. We did draw the parallel, thank you. Thank 
you, Mr. Chairman. Thank you all for being here this morning. 
Very interesting testimony, and appreciate your taking the time 
to enlighten us.
    Particularly, Ms. Clarke, I found your testimony 
interesting, considering your background, your work at the 
Federal level and now at the state level. I think I could get 
from your testimony the feeling of being burdened by 
regulations toward your efforts at saving the greater sage 
grouse.
    I live in central Washington. In my district we have the 
Yakima Training Center, which is a 327,000-acre training site 
for our military. Of that, there are 77,000 acres that are 
currently designated sage grouse protection area. The Army has 
already taken various steps and spent a lot of money to operate 
in a manner that minimizes its impact on these species, things 
like seasonal management and habitat protection.
    If ESA further, under a listing, would further impact and, 
really, take a lot of the training center out of being 
operable, and very severely limit its ability to carry out its 
mission. So, with that kind of a perspective for me, I would 
like you to elaborate, Ms. Clarke, a little bit further on your 
testimony that Federal regulators' focus is increasingly 
unilateral and somewhat dismissive of the state conservation 
action.
    Ms. Clarke. I think it goes back to my statement that I 
really don't believe regulation is going to conserve the 
species, and that is at the core of the listing. It is a very 
severe regulatory move. I appreciate the members of the panel 
here and their general agreement that we don't have to go 
there.
    But we are starting to see this regulatory heavy hand on 
the plans of our Federal partners, and that is the BLM and the 
Forest Service. I have great concerns that those plans may 
become so detrimental to our ability to access, enjoy, and 
utilize the lands in our states, such as Yakima, that the plans 
may be, in fact, more dangerous than a listing.
    So, what we are all struggling for right now--and it is 
what I have heard from my companions here--is that we are 
holding out hope that we can negotiate with the Department of 
the Interior and with the Department of Agriculture and the 
Forest Service to get to a point where the plans are 
responsible, that they acknowledge that the states have a very 
significant role in conservation, and that, together, we don't 
need to list; but we don't need to shut down the public lands, 
either.
    Mr. Newhouse. I appreciate that. And I was trying to 
scribble down your quotations, if I can use that at some point, 
with your permission.
    So, further question for you, Mr. Miller. I think everybody 
on the panel has brought up in some reference to wildfire 
prevention, suppression, restoration as keys to protecting the 
greater sage grouse.
    You may or may not know that this committee has been 
working hard to spearhead efforts, legislation that will help 
support states in targeting wildfire prevention. So, in your 
view, what is the ideal role of the Federal Government in 
wildfire mitigation? And how do these efforts tie in with 
supporting ongoing state-level sage grouse protection measures?
    Mr. Miller. I appreciate that question, Congressman, and it 
truly comes down to a collaborative, and recognizing where we 
can come together to do the most good on the wildfire front in 
Idaho and other Great Basin states.
    I do appreciate the Secretary of the Interior releasing a 
Secretarial Order on wildland fire in, I believe, February of 
this year that redirects resources and prioritizes activities 
in sage grouse habitat. Of course, human life and property is 
always a priority. But now, the Interior Department has allowed 
sage grouse to be a priority within their wildland fire-
fighting system.
    So, it truly is a partnership with the Federal Government. 
We have a vast landscape in Idaho, predominantly managed by the 
Federal Government. So I do appreciate the Interior Department 
taking that step forward to reprioritize their actions in sage 
grouse habitat on Federal lands.
    Mr. Newhouse. Thank you very much. Too short a time. So, 
thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you. Cresent, we did it.
    Representative Hardy.
    Mr. Hardy. Thank you, Mr. Chairman. I almost feel guilty 
going ahead of Mr. Tipton. In Nevada, 15 of the 17 counties 
are--sage grouse is involved in those areas. I guess this would 
both go to Ms. Clarke and Mr. Miller. With the process of 
knowing that, let's see--165 million acres of land are 
basically sage grouse range throughout the West, and 64 percent 
of that is Federal lands. In the state of Nevada, it is 17.6 
million acres, and 87 percent of that----
    Ms. Clarke. Is Federal.
    Mr. Hardy. From my standpoint, I have some real challenges. 
I grew up in Nevada my whole life, and have watched what has 
happened throughout the state with the growth of the pinyon 
juniper and the lack of--or the mismanagement of what I call 
the Federal Government and what they are doing.
    Ms. Clarke, in your testimony you talked about you guys 
actually clearing the pinyon juniper. That is on state or 
private lands, is that correct?
    Ms. Clarke. That is on whatever lands need the treatment. 
We look at the landscape and we work with all partners and 
landowners.
    Mr. Hardy. You were able to clear Federal lands?
    Ms. Clarke. Yes, where they have the appropriate NEPA, we 
have gone ahead and cleared lands.
    Mr. Hardy. Where they had the appropriate NEPA. Have you 
had any challenges being able to clear Federal lands?
    Ms. Clarke. Yes. If they are not NEPA-cleared, we can't 
touch them.
    Mr. Hardy. Thank you. In Nevada none of that land has been 
touched with any type of clearing process, to my knowledge, to 
date. And I have been over that state many times throughout my 
life--hunted sage grouse. Do you see any correlation between 
these clearing areas and your private areas? Because what I see 
when I travel throughout the state--and even Utah--hunting, I 
see that these private lands actually hold greater amount of 
sage grouse than the so-called Federal lands, public lands. Do 
you see any of the same----
    Ms. Clarke. Absolutely. The Deseret Land and Livestock is a 
beautiful example in northern Utah. That is a privately managed 
area. Sage grouse populations thrive; they have robust grazing. 
It is an area that has had oil and gas activity. So, it is land 
that is stewarded. We need more stewardship on public land.
    Mr. Hardy. I agree. With that being said, another place I 
have been a number of times is the Kennecott Copper Mine.
    Ms. Clarke. Yes.
    Mr. Hardy. Which is, without question, I think, one of the 
largest mines in the United States. It has large amounts of 
wildlife: sage grouse, deer, all kinds of elk, everything; and 
it is because it is managed. It is mined, but it is managed, 
and they do well there.
    A question I have for you, Ms. Clarke, with your experience 
being in the state and the Federal level, is there anything 
that has changed in this Administration from when you were 
there?
    Ms. Clarke. I have found that this Administration has 
curtailed access to public lands in a pretty dramatic way. 
Early on in this Administration there was a paper that was 
leaked that suggested that they wanted about half of the BLMs 
in conservation status, about half of the acreage. Through 
various means, it seems we are getting there.
    I am concerned that a listing would certainly take more of 
that land out of play, but so would severe land use plan 
restrictions. So, it is a troubling pattern that I have seen.
    Mr. Hardy. Is there anything you see that we can do, 
legislatively, to fix the problem between the states and the 
Federal Government?
    Ms. Clarke. I would love to see the Federal Congress take a 
good, hard look at the regulatory process in the agencies. I 
think right now they run pretty much with a free hand; and I 
think some of these regulations that have such tremendous 
impact should have to come before Congress and be approved, 
rather than be allowed to be adopted by the agency.
    Mr. Hardy. OK. Mr. Miller, just one quick question for you. 
Can you elaborate on your rural fire districts in Idaho, and 
how that was established to fight wildfire on the range, sage 
grouse habitat?
    Mr. Miller. Yes, sir. There was legislation by the Idaho 
State legislature that set up these rangeland fire protection 
associations, and for years there had been problems, mainly a 
liability issue with having ranchers and other landowners on 
the fire line on Federal land. Through a partnership with the 
Federal Government now, we do have ranchers that are trained 
pursuant to these protocols, that can play an active role in 
initial attack and anchor these fires a whole lot better and a 
lot faster, oftentimes, than the agencies can.
    Mr. Hardy. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. I appreciate the 
opportunity to be with the committee. I would like to thank our 
panel for taking time to be able to be here. Great to see a 
fellow Coloradoan, Mr. Swartout, here, as well.
    Incredibly important issue, I think, for the state of 
Colorado and for the western United States. A blanket question 
for all four of you: What is the number that the Department of 
the Interior has established as recovery for the greater sage 
grouse?
    Ms. Clarke?
    Ms. Clarke. I am not aware that they have given us a 
population number. The state itself has objectives, but we have 
not been given a goal.
    Mr. Tipton. Mr. Miller?
    Mr. Miller. We have not seen a population objective from 
the Federal Government.
    Mr. Tipton. Mr. Arnett?
    Dr. Arnett. That has not been established by the Federal 
Government. It should be established by the state agencies. 
Some have population objectives and some don't.
    Mr. Tipton. Mr. Swartout?
    Mr. Swartout. No, we haven't seen a number from the Federal 
Government; but our biologists work on thresholds of what they 
think the carrying capacity of the land is, trying to improve 
that, and move trend line numbers up in an upward direction for 
the sage grouse.
    Mr. Tipton. Well, you are joined by Secretary Jewell. 
Before this committee, when I asked her the question, they 
don't have an identifiable number. Wouldn't it be a good idea, 
if we are going to actually have recovery, to be able to have a 
number when we know that we win?
    But I have a greater problem, as well, and I think that you 
have spoken to this in some of your testimony, when we have 11 
states that are going to be included in designation of the sage 
grouse for critical habitat. If we have full recovery, Mr. 
Swartout, in the state of Colorado, if we had a number--which 
we do not, because the Department of the Interior has not 
established that--but if we did have full recovery, would we 
still be listed in the state of Colorado?
    Mr. Swartout. Congressman Tipton, I am not sure I 
understand the question. Would----
    Mr. Tipton. With an 11-state listing, where we are all 
grouped in with 11 states, if we get full recovery in the state 
of Colorado, if we had a number--which we don't--we wouldn't be 
taken off listing, would we?
    Mr. Swartout. No, not likely.
    Mr. Tipton. Does that make good sense to you?
    Mr. Swartout. No. But I would say, Congressman Tipton--and 
I compliment you on your long efforts on these issues in 
working with the Governor and our two great Senators from the 
state of Colorado in a proactive way on these issues--that the 
key to this is our landowners in Colorado, many of whom are 
your constituents, as you know. These landowners have taken 
unprecedented amount of effort to allow our scientists from 
Colorado Parks and Wildlife to come on their property and 
actually track these birds, so that we have a good sense of the 
management actions that are most effective in dealing with 
trying to bring these species back.
    Mr. Tipton. At the state and at the local level.
    Mr. Swartout. Right.
    Mr. Tipton. Let's talk a little bit about science, since 
you brought that up. You went and did a scientific survey. Did 
you expand or decrease the estimated acreage that the Federal 
Government is suggesting becomes critical habitat?
    Mr. Swartout. I think, as we went from the national models 
that measure vegetation and other things, and developed through 
an enormous investment from the state of Colorado in science, 
we have been able to actually----
    Mr. Tipton. So was it greater or less than what the Federal 
Government was----
    Mr. Swartout. It is less, Congressman.
    Mr. Tipton. It is less. That has been supplemented, hasn't 
it, in counties like Garfield County, to where they actually 
make massive reductions in what was going to be critical 
habitat, simply because the terrain wouldn't support the 
population? Is that accurate?
    Mr. Swartout. Yes. Our Colorado Parks and Wildlife----
    Mr. Tipton. So the Federal Government has faulty science 
that they are trying to use when they are getting ready to try 
and impose a listing of the sage grouse.
    Mr. Swartout. I wouldn't call it faulty science, 
Congressman.
    Mr. Tipton. Aspirational science?
    Mr. Swartout. I would say that they are taking a broader 
model; and what the state does, often in partnership with them, 
is put it on the ground and actually measure what the behavior 
of these--in this case, sage grouse--to better inform our 
management decisions on what actions have the highest leverage 
to keep the trend line moving up for the species----
    Mr. Tipton. But there seems to be pretty much consensus on 
this panel that those local conservation efforts, the state 
conservation efforts--Ms. Clarke, you were pointing 
specifically, I think, in some of your comments also, we are 
seeing private property rights now being infringed on in 
regulatory fashion by the heavy hand of government coming in.
    But we ought to be able to give these an opportunity to be 
able to succeed. We have some legislation that I am co-
sponsoring. Mr. Stewart on this committee is carrying a 
companion piece by Cory Gardner out of Colorado to be able to 
allow our state efforts, our local efforts, to be able to 
develop over a 6-year period, to be able to actually revive the 
species. Would that, just in a conceptual basis, would that be 
an admirable goal for us to really reach for, when we are 
talking about legislative solutions?
    Mr. Swartout. As I said earlier, Congress has every right 
to pursue working with their constituents.
    The Chairman. You are out of time. Say yes in 2 seconds.
    Mr. Swartout. Yes.
    The Chairman. Thank you.
    [Laughter.]
    The Chairman. All right.
    Mr. Hice.
    Dr. Hice. Thank you, Mr. Chairman, and thank you for 
holding this hearing. For each of the witnesses again, I, as my 
other colleagues, thank you for being here.
    I am a Member from the state of Georgia. And, obviously, my 
district is not directly impacted by the sage grouse, but 
certainly all of us are impacted in various ways from the 
Endangered Species Act and so forth.
    Ms. Clarke, let me begin with you. You have provided some 
contrast between natural threats and the human impact of rural 
development, oil, gas, some of these other things, drilling. As 
it relates to the U.S. Fish and Wildlife Service and the Bureau 
of Land Management, do you believe that the focus has been on 
the most important challenges of the sage grouse conservation?
    Ms. Clarke. In Utah, I do not believe the Federal plan is 
focused on the most important issues. More importantly, it is 
not focused on solutions to deal with those threats--the main 
ones in Utah, fire and invasives, pinyon juniper and 
sagebrush--or, excuse me, not sagebrush--grass, cheatgrass. 
Cheatgrass is terrible, problematic, terribly problematic.
    Dr. Hice. OK. So are you saying then, the natural threats 
are the greatest threat?
    Ms. Clarke. Yes, absolutely.
    Dr. Hice. OK. What significance would you say is human 
threat?
    Ms. Clarke. Well, in the state of Utah we did a very 
careful analysis, and it is about 3 percent.
    Dr. Hice. OK. So a fairly insignificant----
    Ms. Clarke. Very insignificant.
    Dr. Hice [continuing]. Amount, all together. All right. Let 
me expand this to each of you a little bit more.
    One of the legal requirements of NEPA is that participation 
by the states and the public must be meaningful in order to 
provide the Federal Government the best information possible 
that they need for actions that impact the environment.
    With that in mind, do you believe that your states have had 
the best chance to have meaningful participation in land use 
under NEPA? And we will just kind of go down the line with 
this.
    Ms. Clarke. We have had a lot of participation, a lot of 
exchange. I think sometimes we are heard, but nothing changes 
as the Feds listen to our perspective. So we have had some very 
good experiences and some very disappointing ones. As this has 
evolved, we feel like it is becoming much more federally 
driven, and less of a partnership.
    Dr. Hice. OK, Mr. Miller.
    Mr. Miller. Yes, Congressman. I believe that our 
collaborative effort has been very, very strong in Idaho, and 
we have had that high level of participation with the Idaho 
BLM, local Fish and Wildlife Service and the Forest Service. We 
have been at the table, as cooperators, with our cooperating 
agency status. As a result, we have built a pretty robust and 
solid plan to conserve this species.
    Dr. Hice. If we can go rather quickly, I have another 
question I want to put out to you.
    Dr. Arnett. Well, very quickly, I don't represent any one 
of the states. But, broadly, I would say that the vast majority 
of the state plans that I have personally reviewed have been 
developed with stakeholder input, but without public review 
process, as is NEPA, and that is a little bit of a different 
situation.
    Dr. Hice. OK, good point. All right, thank you.
    Mr. Swartout. Congressman, I would call the effort 
unprecedented with our local governments and other 
stakeholders, and with the two Federal agencies. It has been 
unprecedented, in terms of the amount of work and effort that 
our folks have put into it, working with the Federal 
Government.
    And, as I said in my testimony, are these processes 
difficult? Absolutely, they are; but we feel that we have been 
given adequate ability to comment and work with the Federal 
Government toward what we hope is a balanced solution.
    Dr. Hice. OK. I think my time is going to expire here real 
quickly. I will go back, Ms. Clarke, to you.
    As far as the flexibility between state plans and the 
Federal plans, what is the comparison?
    Ms. Clarke. I think the states can be much more nimble and 
adjust quickly. Federal plans, once in place, are very, very 
difficult to modify. Going through plan amendments can take 
years.
    Dr. Hice. Can they override the state plans?
    Ms. Clarke. On Federal land, absolutely.
    Dr. Hice. OK, thank you very much.
    I see my time is about to go, Mr. Chairman. Thank you, and 
I yield back.
    The Chairman. Thank you. All right. I get to ask some 
questions now, and they have to be brief answers. I have to get 
out of here, too.
    So, just simply yes or no. Ms. Clarke, does the Utah plan 
deal in some way with wildfire?
    Ms. Clarke. Yes.
    The Chairman. Idaho plan? Does it deal with wildfire?
    Mr. Miller. Yes, sir.
    The Chairman. The Colorado plans, do they deal with 
wildfire?
    Mr. Swartout. Yes.
    The Chairman. Thank you. All right. So, Ms. Clarke, in the 
Utah plan, does it maintain the status quo or actually increase 
the amount of habitat?
    Ms. Clarke. It increases habitat and populations.
    The Chairman. All right. So, even the Secretary and the 
Interior Department say they don't want to list the sage 
grouse; so none of us are talking about listing as the goal.
    There is also some kind of concept here, when we are 
talking about delaying listing. I just want to be very clear 
that the legislation that was actually passed by the House the 
other day doesn't delay listing of the sage grouse. It actually 
implements the state management plans of the sage grouse. It is 
an entire difference.
    There is also a difference here. Mr. Miller, you mentioned 
this, too. If, indeed, it is listed or not, if BLM or the 
others come up with a regional management plan that has this 
criteria for the sage grouse, whether it is listed or not, that 
is a moot issue, then, isn't it?
    Mr. Miller. Yes, sir.
    The Chairman. And your concern is that they are going 
forward with this without consultation.
    Mr. Miller. Well, at a high level, sir, the top-down 
directives still need to be vetted and worked out with the 
state.
    The Chairman. So, if those regional management plans were 
then taken into account, it wouldn't matter whether the bird 
was listed or not. It would be the same net effect, which is 
the concept of why we are dealing with those issues, especially 
in the NDAA.
    Mr. Swartout, last November Governor Hickenlooper called 
the sage grouse Gunnison listing ``discouraging, and 
complicates our good-faith efforts to work with local 
stakeholders on locally driven approaches.'' What did Colorado 
do about that issue?
    Mr. Swartout. We have continued to work with our coalition 
of counties and----
    The Chairman. Now, come on. What did you do?
    Mr. Swartout. Oh, I am sorry.
    The Chairman. You sued.
    Mr. Swartout. We filed litigation.
    The Chairman. OK. You sued.
    [Laughter.]
    Mr. Swartout. Sorry.
    The Chairman. That is the concern I have. Gunnison sage 
grouse--if the hope is that eventually the Federal Government 
will actually work with the states and work fairly--the 
Gunnison sage grouse does not give me a whole lot of warmth 
that that actually will take place.
    Ms. Clarke, a 6- or a 10-year period of time to try and 
evaluate the effectiveness of the state plan, do you need time 
to see if these plans work or not?
    Ms. Clarke. Given the cycle of the bird, absolutely. You 
are not going to see the total effectiveness for a period of--
--
    The Chairman. So, in Utah, at least, from 2007 to 2013, 
there was a decline in the population of the bird, we say, 
which has been quoted by a lot of special interest groups. But 
if you go back to 1968 and use that as the base, our population 
is----
    Ms. Clarke. It is on the rise.
    The Chairman. Like about 350 percent higher than it was----
    Ms. Clarke. Yes, absolutely.
    The Chairman [continuing]. Back in 1968?
    Ms. Clarke. It is stunning.
    The Chairman. Which is one of the reasons why, in the plan, 
once again, in the NDAA, to allow the state plans to have 10 
years to work, so you find out if it does work without BLM 
putting other regional management plans and taking away the 
actual application of litigation.
    Ms. Clarke. Correct.
    The Chairman. OK. I am running down here as quickly as I 
can.
    Since my language in the military bill has been called into 
question by a few people, let me state that for you, the states 
who don't think the Federal Government has been in consultation 
with you, feel yourselves lucky they have done what you had, 
because the military is stating that they do have a problem 
with the potential listing of sage grouse on their ranges. And 
they will clearly tell you the Fish and Wildlife Service has 
done no consultation at all with the military, which is why 
they are caught unaware.
    Mr. Newhouse is correct. His range is spending $1.5 million 
a year to conserve and protect 250 birds, 80 of which were 
brought in from Idaho. And that is why every branch of the 
military said this is a concern. It is a military issue. There 
has been no consultation with Interior as to what will happen 
on the military issues, even though it was supposed to take 
place. So, if you compare yourselves to the Department of 
Defense, you guys have been blessed with all sorts of 
consultation.
    But the question is, where do we go forward? Is there a 
possibility that the Federal Government will supersede your 
plans? And that is the question, and that is why you are here 
to talk about what the states can do. I think each of you has 
shown, in your individual states, the states are prepared, they 
are ready to move up; and, if we are going to be successful on 
this issue, we have to think things differently than we have 
done in the past, and that is why it is extremely important 
that the states be allowed to go forward with their plans. I 
appreciate your testimony here.
    I am showing you how to do this. I have 26 seconds left, 
and I yield back my time. A second round of questioning for 
anyone who has it.
    Mr. Grijalva.
    Mr. Grijalva. Thank you very much, Mr. Chairman. Let me, if 
there is no objection, place into the record this statement 
from the Department of Defense. Mark Wright, their spokesman, 
essentially indicates, ``While some of the management actions 
we have instituted have necessitated changes in when and how we 
use certain areas of our installation--especially during 
breeding season--none have resulted in unacceptable limits on 
our military readiness activities,'' and it goes on.

    [The remainder of the statement from Mark Wright, DoD 
submitted for the record by Mr. Grijalva is as follows: 
``Because we have already undertaken these actions voluntarily, 
and expect to need to manage for the sage-grouse indefinitely, 
we do not believe the listing decision--regardless of the 
outcome--will affect our mission activities to any great 
degree.'']

    Mr. Grijalva. I want to ask Mr. Arnett. Some of the 
comments that were made, maybe you could comment quickly on 
them. Is the heavy regulatory hand of the Federal Government, 
some of the conclusions, the lack of cooperation with states, 
and human development not a threat to the sage grouse, only 
natural threats. State, Federal, and local have worked on 
collaborative efforts. Do they take into account other threats? 
If you could, sir.
    Dr. Arnett. Certainly. The depiction of wildfire and 
invasive species being a major threat in the western portion of 
the range is true. There is no question. But there definitely 
are threats from anthropogenic disturbance, and that is a 
primary threat in the eastern portion of the range. That has 
been very well documented with a strong body of science on 
impacts of energy development and other disturbance.
    But it can be managed. There is no question that this can 
be managed. We think the development of these conservation 
plans, by defining where conservation areas need to occur, and 
development areas need to occur, it can be managed. In fact, 
some of these focal areas and the core habitats are mostly 
outside of oil and gas reserves, to the best of my knowledge.
    I would like to point out one thing that I have heard a lot 
about, the top-down approach and the last-minute nature of 
this. Keep in mind that these were draft plans that we all 
commented on through a public process. The Federal Government 
has addressed those comments, and they are addressing it based 
on the science. So, whether some of these things were vetted 
with the states, and at what point in time, I am not clear on; 
but there was a public review process, and the BLM has yet to 
release final plans. They have to address those public plans, 
and ultimately, they have to address the science.
    Mr. Grijalva. Mr. Arnett, it seems the underlining theme, 
the efforts, legislative proposals, both at the Federal and 
state level, would give away the authority to manage U.S. 
public lands to the states. Do you believe it is sound policy 
to go in that direction? Do the states have the resources to 
adequately manage such land, that much land? And how would such 
a policy set back the topic today, which is the sage grouse and 
other species, in terms of the future?
    Dr. Arnett. Well, another thing to keep in mind, the state 
plans, again, were developed under the mandates of state plans. 
Most states can't regulate private lands, and they have a 
mandate, as Mr. Miller pointed out earlier, to maximize 
revenues on state lands. So, they were developed in a different 
context. I agree that the states can be more nimble, but they 
were all developed under a different context.
    I think the Federal plans are an important component of 
this. As I said, it is not one or the other, it is all of the 
above.
    Mr. Grijalva. Thank you. And if I may, Mr. Chairman, my 
experience back home in Tucson, where I was a county 
commissioner, was the pygmy owl. It was listed as a threatened 
species. A lot of pressure. Everybody in the community was 
screaming that the sky was going to fall, and that this pygmy 
owl was the end of growth, development, and ruining the economy 
of the county of Pima.
    With collaboration with Fish and Wildlife, Forest, and 
other Federal agencies, a management plan was developed with 
the county and accepted. The consequence has been that you have 
managed growth, and detailed managed growth, as to how the 
county grows. You have two bond elections that have been passed 
overwhelmingly by the public to continue to pursue and purchase 
open space to continue to preserve the corridor, the habitat 
corridor, for the pygmy owl.
    I mention that because it was a collaborative effort, but 
that there was a regulatory guidance and a listing that 
prompted local government and state government to begin to work 
in earnest with the Federal Government to come up with an 
acceptable plan. That was the impetus; and, without an impetus, 
I don't see this happening. Thank you, and I yield back.
    The Chairman. OK. Before I recognize Mr. Tipton and ask Mr. 
LaMalfa if he will take the chair for a second--let me, because 
I have to run here, thank all four of you for actually being 
here and taking the time to testify.
    Mr. Grijalva asked for unanimous consent for a statement by 
a DoD spokesman. Anybody is a DoD spokesman--I even have a 
military fellow here who could qualify as a DoD spokesman. And 
I won't put in the slides that the Army, Air Force, and Navy 
gave us when they told us this is a problem, nor will I put in 
the record the statement on the Army in which they asked not to 
have this provision taken out of the NDAA. But that is beside 
the point, isn't it?
    Before I actually--let me thank you for being here one more 
time. I apologize for leaving you very quickly, but I am late 
for another engagement. I just appreciate your testimony.
    Mr. LaMalfa, you will take over. And, Mr. Tipton, you are 
recognized for questions.
    Mr. Tipton. Thank you, Mr. Chairman. I did appreciate, by 
the way, your amendment to the NDAA. Statistics show we have 35 
different Army installations that are going to be impacted. The 
Air Force, Navy, Marine Corps have a combined 12 installations, 
and they are continuing to work to be able to actually 
resustain that habitat, and be able to grow the population of 
the sage grouse. When we look at the Yakima Training Center, 
they have significantly improved the numbers and genetic 
diversity in the Columbia Basin, based off of their own 
studies.
    I just have just a couple of follow-up questions. I think 
Mr. Swartout can probably have some empathy for this. In the 
state of Colorado, we have two very diverse economic 
situations. We have pockets of prosperity in our metropolitan 
areas; but in the third congressional district that I 
represent, we continue to see a real unemployment level that, 
in far too many of our counties, happens to be double-digit.
    But we also have responsible energy development. I put 
forward legislation, ``Planning for America's Energy Future 
Act,'' which literally calls for all of the above.
    Mr. Arnett, a statement that you have made caught my 
attention, saying that all valid and existing rights in regards 
to responsible energy development will be respected with a 
listing. Does that imply that there will be no expansion?
    Dr. Arnett. Expansion of?
    Mr. Tipton. Of any other development rights.
    Dr. Arnett. My understanding, as part of the development of 
these conservation plans, any existing valid and----
    Mr. Tipton. But no new ones.
    Dr. Arnett [continuing]. Will be honored.
    Mr. Tipton. If it hasn't already been identified, or 
somebody hasn't filed, nothing new will be added. Is that 
correct?
    Dr. Arnett. It would be managed according to what the----
    Mr. Tipton. So if something is withdrawn, then that is 
lost.
    Dr. Arnett. Something has been withdrawn----
    Mr. Tipton. Nothing new?
    Dr. Arnett. I can see some of those kinds of stipulations. 
There will be stipulations as part of the plan.
    Mr. Tipton. So that----
    Dr. Arnett. For non-existing valid----
    Mr. Tipton. That could potentially have a very negative 
impact in a suffering economic region in the third 
congressional district. Couldn't it, Mr. Swartout?
    Mr. Swartout. This is part of the balance that we are 
trying to achieve by having local government participation in 
these plans, and many of the counties that you represent, as 
part of your congressional district, as you know.
    I think the more critical issue is the interplay of both 
Federal and state and private lands. One of the things we 
worked really hard on with the BLM in our plan was to make sure 
that if they weren't allowing the activity on Federal land, we 
weren't pushing it onto private land, where it would have even 
a bigger impact on the grouse. So we worked tirelessly with 
Colorado Parks and Wildlife and our counties to figure out a 
mosaic--a holistic approach that avoided areas with sage 
grouse, and tried to put the impacts where it would have the 
least impact on the sage grouse. That is what we are struggling 
to maintain in these plans that we sent to Washington, DC, and 
that is where the tension is.
    Mr. Tipton. I do want to let you know I appreciate your 
efforts and the Governor's efforts in regards to standing up 
for these rural areas, and understanding a lot of the 
challenges that we face.
    I would like to extend this out. Ms. Clarke, maybe you can 
speak to this. When we start talking about regulating private 
land--I think Mr. Arnett had just noted that states don't have 
the right to regulate private land. Thank God. If we have this 
plan implemented, let's say we have a resource that we can 
responsibly develop on private land. If we have listing, 
private land is encompassed in on this. Could that resource, 
that family's fortunes, and the jobs that could be created, 
could those be perhaps unintended consequence of not being able 
to be developed?
    Ms. Clarke. They certainly could be, depending on the way 
the critical habitat is designated; but once listed, they are 
listed on private and public lands. So doesn't matter.
    Mr. Tipton. Well I appreciate, again, all of you taking 
time to be able to be here. I think that our common ground is 
this: We would like to make sure that the right thing is done, 
that we are able to rehabilitate the species. I appreciate very 
much the comments that were being made, that the efforts like 
we are seeing in Colorado, the private-public partnerships on 
the ground, are yielding some of the best results. We hope and 
encourage the Department of the Interior to be able to 
recognize that, and to be able to work with us, and to be able 
to protect our private-sector jobs in communities right now 
that are suffering.
    Thank you so much, and I yield back, Mr. Chairman.
    Mr. LaMalfa [presiding]. Thank you, gentleman from 
Colorado.
    The gentleman from Idaho.
    Mr. Labrador. Thank you, Mr. Chairman. We started this 
hearing, I guess, talking about the dodo bird. Does anybody 
know when the dodo bird became extinct?
    Dr. Arnett. Long time ago.
    Mr. Labrador. Long time ago. It was, I think, late 1600s, 
early 1700s. And, apparently, society has not been able to 
thrive since the dodo bird became extinct, right? We have had 
no progress in life or in humanity since then. Obviously, I am 
being a little facetious; but this is a very important hearing 
today. I want to thank you all for being here.
    Mr. Miller, in 2011, when Secretary Salazar invited western 
states to partner with the Federal Government to work on 
solutions related to sage grouse, how did Governor Otter 
respond?
    Mr. Miller. Congressman Labrador, Governor Otter is a 
states rights advocate. So he said, ``This worked very well 
with our Idaho Roadless collaborative; I am going to do the 
same thing on sage grouse.'' So he set up a very diverse, 15-
member task force to advise him on recommendations necessary 
for incorporation into a plan that would address the needs for 
sage grouse, balanced with the economic vitality of our state.
    Mr. Labrador. What are the Governor's concerns about the 
recent top-down direction that has come from the BLM's national 
office?
    Mr. Miller. Congressman, for quite some time we were moving 
down a very good path with our local Federal partners. We 
developed a very strong strategy blending the two co-preferred 
alternatives, the Governor's alternative and the BLM's internal 
alternative.
    We thought we were about to cross the finish line together, 
until in January of this year, the national BLM office imposed 
national direction on all BLM planning units that included the 
carve-out of sagebrush focal areas across 16 million acres of 
priority habitat in the West, of which 3.5 million acres are in 
Idaho. It is a carve-out of our core habitat areas. The 
Interior Department included a new, more restrictive rule set 
for management of land use activities in those focal areas.
    What is concerning to the Governor is that that was never 
negotiated or vetted with the state or his task force. We 
thought we were there, like I said, Congressman, but this last-
minute top-down directive on these sage grouse focal areas 
stands to erode this strong partnership that we have developed.
    We are hopeful we can get there with Interior. As I said 
earlier, there is a willingness from individuals in the 
Interior Department and the national BLM office to continue 
working through these remaining elements with us.
    Mr. Labrador. So were you under the impression from the 
Federal agencies that you were working with, that if the state 
produced a thoughtful plan, that it would be a preferred 
alternative?
    Mr. Miller. Yes, sir.
    Mr. Labrador. OK. In 2013, Fish and Wildlife Service's 
Idaho State Supervisor Brian Kelly wrote a letter to Governor 
Otter in which he stated that, ``Our review revealed that the 
four foundation elements of the strategy--habitat zones, 
conservation areas, population objective, and adaptive triggers 
are consistent with the conservation objectives team, as is the 
livestock grazing management element.'' What were your 
expectations after seeing this letter?
    Mr. Miller. Congressman, that further validated our 
conservation planning efforts. The COT report does represent 
the goalpost, what we are shooting for. It contains a suite of 
conservation objectives that allows the states and the local 
planning units to develop those strategies to achieve the 
goalpost there. That letter from the Fish and Wildlife Service 
was an indication that we were almost there, that we were 
developing a----
    Mr. Labrador. So your expectations were that your plan 
would be approved, correct?
    Mr. Miller. Yes, sir.
    Mr. Labrador. And have those expectations been met?
    Mr. Miller. They have been met at the local level, sir, 
with Idaho BLM and Fish and Wildlife Service in Idaho; but not 
at the national level.
    Mr. Labrador. So a final decision, you are not sure it is 
going to go along with what you expected.
    Mr. Miller. That would be accurate.
    Mr. Labrador. Does the state of Idaho have the capacity to 
manage sage grouse?
    Mr. Miller. Absolutely, sir.
    Mr. Labrador. Do Fish and Game and OSC have the proper 
biologists, scientists, and other policy staff?
    Mr. Miller. Absolutely.
    Mr. Labrador. Do Fish and Game and OSC have the support of 
the Governor and the legislature to properly manage the 
species?
    Mr. Miller. Yes, they do.
    Mr. Labrador. OK. So what would you like--as your last 
opportunity to tell the Federal Government, what would you like 
us to know?
    Mr. Miller. I can't emphasize enough the value of the 
collaborative and the partnership used in building our 
strategy. We had industry, conservation partners, local and 
state-elected officials advising the Governor, along with state 
and local Federal agencies on developing a robust strategy for 
conserving the species.
    We feel we are there. We just need to overcome these last-
minute obstacles with the Interior Department.
    Mr. Labrador. Thank you very much. I yield back.
    Mr. LaMalfa. All right. Thank you, gentleman from Idaho. I 
ask unanimous consent to enter into the record the testimony of 
the Western Governors' Association.
    [No response.]
    Mr. LaMalfa. OK.

    [The prepared statement of the Western Governors' 
Association follows:]
  Prepared Statement of James D. Ogsbury, Executive Director, Western 
                         Governors' Association
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to submit written testimony on behalf of the Western 
Governors' Association (WGA) in connection with the oversight hearing 
on ``Empowering State Management of Greater Sage-Grouse.'' My name is 
James D. Ogsbury and I am WGA's Executive Director. WGA is an 
independent, non-partisan organization representing the Governors of 19 
western states and 3 U.S.-flag islands.
    Western Governors support implementation of reasonable management 
efforts to conserve species and preclude the need to list species under 
the Endangered Species Act (ESA). Western states proactively work on 
species conservation and possess knowledge and experience to manage 
species within the region. This is particularly true with the greater 
sage-grouse, a bird found in 11 western states--California, Colorado, 
Idaho, Montana, Nevada, North Dakota, Oregon, South Dakota, Utah, 
Washington and Wyoming--that is a candidate for listing under the ESA.
    All 11 greater sage-grouse states have developed state conservation 
plans for the bird and invested millions of dollars in conservation and 
research. Western Governors appreciate this forum for states to 
highlight what has been accomplished through state leadership of 
greater sage-grouse management and to explain why states should 
continue in this leadership role going forward.
    WGA has released an annual report of the voluntary conservation 
measures that states and local governments have implemented for greater 
sage-grouse since 2011. Our fourth annual report (http://westgov.org/
images/dmdocuments/2014_WGA_ Sage_Grouse_Inventory_Final_lo_res.pdf) 
includes conservation efforts of Federal agencies, conservation 
districts, industry and nonprofits, as well as states. The report's 
appendix (http://westgov.org/images/dmdocuments/2014_WGA_Sage_ 
Grouse_Appendix_lo-res.pdf) is a compilation of all state and local 
government efforts reported over the last 4 years.

    I commend your attention to the following highlights from the 2014 
report:

    <bullet> Colorado, Nevada, North Dakota and South Dakota either 
            completed or updated state plans for sage-grouse 
            conservation during 2014.

    <bullet> Montana Gov. Steve Bullock issued an Executive Order in 
            2014 establishing a statewide greater sage-grouse habitat 
            conservation program and requiring state agency compliance.

    <bullet> Colorado, Idaho and Montana have collectively protected 
            nearly 350,000 acres of greater sage-grouse habitat through 
            purchase or conservation easements.

    <bullet> Idaho wildlife and land agencies have spent $4 million 
            improving and restoring habitat.

    <bullet> Utah has completed nearly 85 percent of a 560,000-acre 
            project to ameliorate conifer encroachment in sage-grouse 
            management areas.
    <bullet> Nevada Gov. Brian Sandoval and Idaho Gov. C.L. ``Butch'' 
            Otter are directing almost $6 million toward greater sage-
            grouse conservation, and Wyoming's legislature awarded 
            approximately $2 million for additional greater sage-grouse 
            research.

    Western Governors helped create a state-Federal Sage-Grouse Task 
Force in 2011 that has fostered a dialog between states and Federal 
land management agencies regarding management strategies, conservation 
tools and related policies. At task force meetings, states have clearly 
stated that, while conservation plans may differ from one state to 
another to reflect primary threats to greater sage-grouse and 
institutional dynamics, taken collectively the plans provide the 
comprehensive structure needed to conserve greater sage-grouse and 
their habitat. The Federal agencies on the task force have acknowledged 
that a diverse but cohesive approach that achieves the desired 
conservation outcomes can, if structured carefully, meet the 
requirements of ESA for a ``not warranted'' decision.
    Conservation easements are one mechanism states are using to 
protect habitat on private lands. The permanency and durability of 
easements render them a vital part of successful sage-grouse 
conservation. Private landowners are central to voluntary conservation 
efforts, and their contributions should be given full consideration by 
the U.S. Fish and Wildlife Service (FWS) in determining whether to list 
the greater sage-grouse under the ESA. A great amount of land is being 
protected at a substantial cost. In Colorado, for example, over 80,600 
acres of greater sage-grouse habitat has been protected by Colorado 
Parks and Wildlife through either fee title purchase or conservation 
easements at a cost of approximately $52.8 million. The states' 
significant contribution to permanent conservation is in addition to 
parallel work being performed by the Natural Resources Conservation 
Service (NRCS) through its Sage Grouse Initiative on private lands. 
NRCS has put more than 450,000 acres of conservation easements into 
place in the last 5 years. NRCS invested $165 million, with another $85 
million in partner match, for a total conservation easement investment 
of $250 million.
    State conservation leadership also comes in the form of people 
power. Montana, South Dakota and Colorado hired staff that cooperate 
with the Natural Resources Conservation Service's Sage Grouse 
Initiative to promote private land conservation. Nevada hired a new 
rangeland health program coordinator to assist landowners with 
rangeland health assessments and monitoring.
    Moving from planning to implementation, states have invested 
heavily in habitat improvements beneficial to greater sage-grouse and 
other species dependent on sagebrush habitat. They have spent millions 
on improving riparian habitat, restoring habitat burned by wildfires, 
and removing invasive conifer trees that crowd out sagebrush.
    Investments also extend to research and education. The legislatures 
in Idaho and Wyoming contributed $2.5 million toward research and lek 
monitoring. Utah is studying lek use after juniper removal and Colorado 
has a research unit working on multiple research efforts.
    Innovative management tools are also being utilized by states to 
bolster sage-grouse habitat. Nevada's Sagebrush Ecosystem Council 
adopted the Nevada Conservation Credit System to offset impacts from 
human-caused disturbances through enhancements and protections that 
result in a net benefit for greater sage-grouse habitat. Extensive 
fence-marking and fence-removal work has been performed by states and 
their partners, reducing collision risk and eliminating perches for 
predators.
    A major threat to greater sage-grouse is rangeland fire. Burned 
sagebrush areas take decades to recover. Utah updated its conservation 
plan to address wildfire and Nevada created a Wildland Fire Protection 
Program to provide improved access to firefighters and implement pre-
suppression activities. Idaho increased its number of Rangeland Fire 
Protection Associations from three to five. These associations 
facilitate coordination between public and private partners to improve 
initial attack on wildfires, with faster response times translating 
into reductions in acres burned.

    All of this is only what states have accomplished through the end 
of 2014; much more is planned for 2015 and beyond:

    <bullet> Montana Gov. Steve Bullock recently signed into law the 
            Montana Greater Sage Grouse Stewardship Act. The bill 
            establishes an oversight team and calls for conservation 
            easements and a conservation fund. The state is hiring five 
            new employees to oversee its sage grouse program.
    <bullet> Nevada Gov. Brian Sandoval requested legislative approval 
            in his FY15-17 biennial budget for over $5.1 million for 
            Sagebrush Ecosystem Program efforts, including a commitment 
            of $1 million each year for critical habitat protection and 
            restoration projects in sage-grouse management areas.

    <bullet> Washington Department of Fish and Wildlife is working with 
            the FWS and agricultural and livestock operators to develop 
            a Candidate Conservation Agreement with Assurances (CCAA) 
            for greater sage-grouse.

    <bullet> Idaho is conducting numerous research projects and adding 
            another Rangeland Fire Protection Association.

    <bullet> North Dakota will complete a fully funded cooperative 
            monitoring project and provide recommendations on best 
            management practices for grazing livestock in greater sage-
            grouse habitat.

    The success of collaborative, locally led conservation is 
illustrated by the recent determination that the bi-state distinct 
population segment of greater sage-grouse in California and Nevada does 
not require protection under the ESA. Interior observed that a key 
factor in the decision not to list the bird was the development of the 
Bi-State Action Plan, a conservation plan developed by partners in the 
Bi-State Local Area Working Group over the past 15 years and secured 
with $45 million in funding. Western Governors encourage support for 
similar efforts throughout the sage-grouse range.
    As captured in WGA's 2014 Sage-Grouse Inventory report, the efforts 
described here represent just one piece of the greater sage-grouse 
conservation puzzle. Over 60 percent of greater sage-grouse habitat is 
on Federal lands. Federal agencies, as partners, should do their share 
by proactively addressing habitat needs such as invasive species 
control, rangeland fire preparedness, and site restoration and 
rehabilitation. Implementing such measures allows Federal agencies and 
others to better protect the landscape under a range of circumstances 
and conditions.
    This is a significant point. The states have taken substantial 
actions, at significant cost, to protect and enhance greater sage-
grouse habitat. These actions, however, affect only that portion of the 
greater sage-grouse's habitat over which states have authority. States 
cannot compel the Federal Government to protect and enhance habitat on 
federally owned lands. That is a management decision left to the 
Federal Government.
    It is important to note that the states view several areas of 
Federal action--or lack of action--as counterproductive to the 
protection of greater sage-grouse habitat. For example, Western 
Governors have been very concerned that the budgetary tactic of ``fire 
borrowing'' redirects funding from activities that would otherwise 
mitigate fire hazards in greater sage-grouse habitat, among other 
areas. Western states are also concerned about the insufficiency of 
Federal action to combat invasive species. Invasives can have a 
dramatic impact on sage-grouse habitat and the severity of fire in 
rangeland areas. The Federal Government has a responsibility to: 
properly maintain Federal lands; protect and enhance forest health; 
minimize the severity of catastrophic wildfire; and provide a vibrant 
habitat for the greater sage-grouse and other important species.
    FWS should fully recognize the voluntary conservation efforts of 
states together with local governments, Federal agencies, conservation 
districts, private landowners, industry and nonprofits. These efforts, 
if allowed to run their course, will provide greater sage-grouse with 
the necessary habitat to live and thrive.
    Thank you for the opportunity to provide written testimony. Please 
feel free to contact me if you have any questions about the content of 
these remarks or require further information.

                                 ______
                                 

    Mr. LaMalfa. I will just have one last bit of questions 
here, and I think that will be it for today.
    So, Mr. Miller, listening to Mr. Labrador and your 
exchange, do you really need the Federal Government in 
partnership with you at all?
    Mr. Miller. Well----
    Mr. LaMalfa. I mean, really. Do you really need the help? 
If it was completely put back to your state, do you think you 
would have a more successful program of recovery and 
maintenance of sage grouse, as well as other species?
    Mr. Miller. Mr. Chairman, the state of Idaho is the manager 
of all fish and wildlife in the state. Of course, that is why 
we jumped out ahead of this and said, ``We have the best 
scientists, the best biologists, at the state level to drive 
this conservation strategy.'' This is an issue of state 
sovereignty over wildlife, and we intend to maintain state 
sovereignty over the species.
    Because of the majority of sage grouse habitat in Idaho 
being managed by the Federal Government, about 74 percent, we 
needed to engage with BLM on the habitat portion of our 
conservation strategy.
    Mr. LaMalfa. Of course. They have the jurisdiction; but if 
they turned it over to you, do you think you would see a better 
result? ``Listen, hey, we are going to contract with you. You 
manage it for us, we will just stay in Washington.'' What do 
you think the result would be?
    Mr. Miller. Well----
    Mr. LaMalfa. I mean, obviously, you would have to set aside 
NEPA and other types of things; but just in the realm of what 
is good for the creature.
    Mr. Miller. I think, if managed by the state, those 
resources would continue, or would be managed in a more 
appropriate fashion to address the needs for sage grouse.
    Fuel loading in Idaho is significant, and we want to 
implement tools through our strategy to deal with fuel loading 
on public lands. That is why our industry groups are a huge, 
huge partner in this endeavor.
    Mr. LaMalfa. OK, thank you.
    So, Mr. Arnett, during today's hearing, I have heard you 
kind of take a position that is more defending of the Federal 
role, where the others on the panel have kind of expressed--you 
know, Ms. Clarke, Mr. Miller--that they have had more success 
at the local level.
    So, what looks to me is like a much slower, much more 
difficult process to get through and even--as was testified; 
that once the Federal Government makes a law, makes a decision 
on it, it is much, much harder to wade through that in order to 
try and tweak that, or go in a different direction. How do you 
defend this current process, versus some of the success stories 
we have heard here today with local state-level input and 
control?
    Dr. Arnett. Well, again, I would like to start with the 
fact that Federal lands are owned by the public, the American 
people. And they are managed by these Federal agencies under a 
variety of bedrock----
    Mr. LaMalfa. Managed being a pretty loosely used term 
from----
    Dr. Arnett. Fair enough. I understand the frustration from 
the states. We have seen that, in terms of the expeditious 
nature of getting things permitted. We would like to believe 
that once we get these conservation strategies--both state and 
Federal--in place, we will have some certainty and some 
understanding of where energy can be developed and where 
habitat can be managed.
    Mr. LaMalfa. It is the year 2015. Where have these 
strategies been for the last 30 or 40 years?
    Dr. Arnett. That is a very good question.
    Mr. LaMalfa. OK.
    Dr. Arnett. I mean the states have been engaged in this for 
a long time. And I think----
    Mr. LaMalfa. It is a moving target for the states, though, 
too. It is a moving target for the private landowners that have 
to live next to these areas. So, well, thank you.
    Mr. Swartout, I will finish up with you here. Do you think 
a listing of the sage grouse under the ESA would have helped or 
hindered the establishment of sage grouse conservation 
easements?
    Mr. Swartout. I think that, in the status before a listing, 
it has created pressure that has actually helped us to develop 
and work with private landowners.
    Mr. LaMalfa. How about an actual listing, though?
    Mr. Swartout. What would an actual listing--what effect 
would that have? It would have a detrimental effect, without 
question.
    Mr. LaMalfa. What is the impact you have seen with already-
listed Gunnison sage grouse, on willingness of landowners to 
enter into the conservation agreements now?
    Mr. Swartout. In some degrees it has made it more 
difficult. But Colorado's 30-year history working with 
landowners and building that partnership between agriculture 
and our Department of Wildlife in Colorado is fairly robust, 
and it is stretched. It has been stretched by the Gunnison 
listing, but it hasn't broken because of the governors--the 
last three governors of Colorado have had this commitment to--
--
    Mr. LaMalfa. So it hasn't broken because of a previous 
momentum and engagement and strategy to do so, but it has put a 
damper on it, you would say.
    Mr. Swartout. It has made it a little more difficult.
    Mr. LaMalfa. A little more difficult. OK. Well, I 
appreciate it.
    To everybody on our panel here today, thank you for your 
travel, for your valuable testimony. We do appreciate what it 
takes to get here and be part of this.
    Since there are no other members of the committee left, I 
will say there might be additional questions that committee 
members may submit, and we would ask you to respond to those in 
writing. Under Committee Rule 4(h), the hearing record will be 
held open for 10 business days after these responses.
    So, if there is no further business, without objection this 
committee is adjourned.

    [Whereupon, at 12:27 p.m., the committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

   Prepared Statement of the Hon. Niki Tsongas, a Representative in 
                Congress from the State of Massachusetts
    Thank you, Chairman Bishop, for holding this hearing before the 
Full Committee on Natural Resources. I regret that I was not able to 
attend due to a prior family commitment.
    Right now, there are unprecedented and proactive partnerships 
throughout the West working to conserve sage brush habitat, encourage 
predictability for economic development, and prevent listing of the 
greater sage grouse as endangered or threatened under the Endangered 
Species Act. There exists tremendous momentum to complete the Federal 
land management plans and strengthen state conservation efforts.
    These significant investments by Federal agencies such as the 
Bureau of Land Management, the Fish and Wildlife Service, the U.S. 
Forest Service, 11 states, and private partners including sportsmen, 
ranchers, farmers, and conservationists, are making a difference in 
sage-grouse conservation and in preserving the rural character of key 
western landscapes that strengthen the economies of farms, ranches, and 
forests, which are all threatened by ongoing urbanization and suburban 
sprawl.
    Rather than helping communities, legislation that delays 
conservation actions and prohibits the Fish and Wildlife Service from 
making an Endangered Species Act determination creates uncertainty and 
only undermines the immense progress already underway.
    There is no denying that states do work hard and have been serious 
and engaged partners in the effort to prevent the sage grouse from 
being listed under the Endangered Species Act, but states do not have 
the right to unilaterally set policy on public lands that belong to and 
are managed on behalf of all Americans. It is great that they have been 
key partners and we would like to see a situation in which state 
agencies and Federal partners continue to work hand-in-hand.
    This type of collaborative approach has been shown to work. The 
Secretary of the Interior, Sally Jewell, recently announced that the 
bi-state sage grouse, a distinct population of the bird that lives on 
the California-Nevada border, will not need to be listed on the 
endangered species list thanks to the work of Federal, state, and 
private partners. As Secretary Jewell stated in the announcement, ``the 
collaborative, science-based efforts in Nevada and California are proof 
that we can conserve sagebrush habitat across the West while we 
encourage sustainable economic development.''
    Republican Governor of Nevada Brian Sandoval stated that ``this 
approach can coexist in both the bi-state area and across the range of 
the greater sage grouse.'' So as you can see, there is bipartisan 
support for this collaborative, science-based approach. This is the 
kind of work that can keep the greater sage grouse off the endangered 
species list, which is what we all want to see happen.
    The time to address the threats to sagebrush habitat is now--not 5 
or 10 years from now, when the West is more fragmented, wildfires are 
more intense, or invasive species have gained more ground. Federal 
agencies, states, ranchers, sportsmen, and industry stakeholders are 
all working together with the shared goal of keeping the greater sage 
grouse off the Endangered Species list. We should give the ongoing 
collaborative partnerships the opportunity to succeed and provide much-
needed certainty for all stakeholders.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

  -- Letter from the Specialty Equipment Market Association, 
            Diamond Bar, CA, June 2, 2015, in response to the 
            hearing.

  -- Statement from Dr. Clait E. Braun, Grouse Inc., Tucson, 
            AZ, responding to the hearing testimony by Kathleen 
            Clarke.

  -- Statement of John W. Connelly, Ph.D. and Edward O. Garton, 
            Ph.D., responding to written testimony of Kathleen 
            Clarke.

                                 [all]
</pre></body></html>
